<html>
<title> - DEPARTMENT OF THE INTERIOR AND RELATED AGENCIES APPROPRIATIONS FOR 2000</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]



 
 DEPARTMENT OF THE INTERIOR AND RELATED AGENCIES APPROPRIATIONS FOR 2000

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS
                              FIRST SESSION

                                ________

   SUBCOMMITTEE ON THE DEPARTMENT OF THE INTERIOR AND RELATED AGENCIES

                      RALPH REGULA, Ohio, Chairman

 JIM KOLBE, Arizona                  NORMAN D. DICKS, Washington
 JOE SKEEN, New Mexico               JOHN P. MURTHA, Pennsylvania
 CHARLES H. TAYLOR, North Carolina   JAMES P. MORAN, Virginia
 GEORGE R. NETHERCUTT, Jr.,          ROBERT E. ``BUD'' CRAMER, Jr.,
Washington                             Alabama
 ZACH WAMP, Tennessee                MAURICE D. HINCHEY, New York
 JACK KINGSTON, Georgia
 JOHN E. PETERSON, Pennsylvania     

 NOTE: Under Committee Rules, Mr. Young, as Chairman of the Full 
Committee, and Mr. Obey, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
   Deborah Weatherly, Loretta Beaumont, Joel Kaplan, and Christopher 
                                 Topik,
                            Staff Assistants

                                ________

                                 PART 7
                                                                   Page
 Secretary of the Interior........................................    1
 Bureau of Land Management........................................  169
 U.S. Fish and Wildlife Service...................................  311
 National Park Service............................................  495

                              <snowflake>


                                ________

         Printed for the use of the Committee on Appropriations

                                ________

                     U.S. GOVERNMENT PRINTING OFFICE
 57-058                     WASHINGTON : 1999



                        COMMITTEE ON APPROPRIATIONS

                   C. W. BILL YOUNG, Florida, Chairman

 RALPH REGULA, Ohio                    DAVID R. OBEY, Wisconsin
 JERRY LEWIS, California               JOHN P. MURTHA, Pennsylvania
 JOHN EDWARD PORTER, Illinois          NORMAN D. DICKS, Washington
 HAROLD ROGERS, Kentucky               MARTIN OLAV SABO, Minnesota
 JOE SKEEN, New Mexico                 JULIAN C. DIXON, California
 FRANK R. WOLF, Virginia               STENY H. HOYER, Maryland
 TOM DeLAY, Texas                      ALAN B. MOLLOHAN, West Virginia
 JIM KOLBE, Arizona                    MARCY KAPTUR, Ohio
 RON PACKARD, California               NANCY PELOSI, California
 SONNY CALLAHAN, Alabama               PETER J. VISCLOSKY, Indiana
 JAMES T. WALSH, New York              NITA M. LOWEY, New York
 CHARLES H. TAYLOR, North Carolina     JOSE E. SERRANO, New York
 DAVID L. HOBSON, Ohio                 ROSA L. DeLAURO, Connecticut
 ERNEST J. ISTOOK, Jr., Oklahoma       JAMES P. MORAN, Virginia
 HENRY BONILLA, Texas                  JOHN W. OLVER, Massachusetts
 JOE KNOLLENBERG, Michigan             ED PASTOR, Arizona
 DAN MILLER, Florida                   CARRIE P. MEEK, Florida
 JAY DICKEY, Arkansas                  DAVID E. PRICE, North Carolina
 JACK KINGSTON, Georgia                CHET EDWARDS, Texas
 RODNEY P. FRELINGHUYSEN, New Jersey   ROBERT E. ``BUD'' CRAMER, Jr.,
 ROGER F. WICKER, Mississippi            Alabama
 MICHAEL P. FORBES, New York           JAMES E. CLYBURN, South Carolina
 GEORGE R. NETHERCUTT, Jr.,            MAURICE D. HINCHEY, New York
Washington                             LUCILLE ROYBAL-ALLARD, California
 RANDY ``DUKE'' CUNNINGHAM,            SAM FARR, California
California                             JESSE L. JACKSON, Jr., Illinois
 TODD TIAHRT, Kansas                   CAROLYN C. KILPATRICK, Michigan
 ZACH WAMP, Tennessee                  ALLEN BOYD, Florida
 TOM LATHAM, Iowa
 ANNE M. NORTHUP, Kentucky
 ROBERT B. ADERHOLT, Alabama
 JO ANN EMERSON, Missouri
 JOHN E. SUNUNU, New Hampshire
 KAY GRANGER, Texas
 JOHN E. PETERSON, Pennsylvania     
                                    

                 James W. Dyer, Clerk and Staff Director

                                  (ii)




=======================================================================


                       Department of the Interior

                        Office of the Secretary

=======================================================================




DEPARTMENT OF THE INTERIOR AND RELATED AGENCIES APPROPRIATIONS FOR 2000

                              ----------                              

                                      Wednesday, February 24, 1999.

                       DEPARTMENT OF THE INTERIOR

                               WITNESSES

HON. BRUCE BABBITT, SECRETARY OF THE INTERIOR
JOHN D. TREZISE, DIRECTOR OF BUDGET
    Mr. Regula. Well, thank you for coming, Mr. Secretary. We 
will make your full statement a part of the record, and you may 
summarize as you choose.

                       Opening Statement, Summary

    Secretary Babbitt. Thank you, Mr. Chairman, Congressman 
Dicks, Mr. Nethercutt. It is a pleasure to be back for the 
seventh round of annual budget work.
    I have a major change. I was going to refer you to Mary Ann 
Lawler. She retired and has left the Department. Her successor 
as Budget Director is John Trezise. He is an able replacement. 
He has been in the Department for 28 years. He will be with me 
from now until whenever. [Laughter.]
    Secretary Babbitt. I thought what I might do is stay away 
from all the details that are in my opening statement, and just 
go through a few summary things, the first of which is the 
budget increases and the FTE increases. We are prepared to talk 
about those in detail.

                             fte increases

    Instead of that, I have prepared a chart which makes the 
following case. With the requested FTE increases that we have 
this year, we are still substantially below the number of 
employees in this department that were there in 1982. We are 
here, nearly 20 years later, with about 25 percent fewer 
employees than we had in 1982.
    Now, we had some deep, deep cuts in that 1994 and 1995 
budget cycle. And we overdid it. We took some chips out of the 
skeletal structure of the place. I would emphasize that only by 
showing you that in this same time period, the number of BIA 
students has gone up 60 percent, visits to the national park 
system have gone up 30 percent, as have visits to the national 
wildlife refuge system. I think that pretty much summarizes the 
reality.
    We have to come up a little bit. We will still be below 
1982.
    We have been able to manage these changes because of 
management changes. I am going to start out by saying, Mr. 
Chairman, that I acknowledge your efforts at prodding us, 
pushing us, showing us the way. I have not always been terribly 
grateful for that, but I am. And I just want to acknowledge 
that.

                         recreation fee program

    Let me just give you a few examples. The recreation fee 
program--we had a lot of give and take over that. The fact is 
that it is on the ground. It is a complete success. All we need 
to do is make sure that we have the legislation in place, 
institutionalizing it. It has been, I think, really terrific. 
The public has accepted it. They have accepted it because we 
have delivered on improvements that they can see and use. I am 
grateful for your efforts in putting that together.

                   construction and maintenance plan

    We are moving on the five year construction and maintenance 
plan. It would not have happened without your beating us over 
the head and without my coming across John Berry on the way, 
and for his efforts with your staff. We have an appropriation 
in this year which continues through year two of that.

                         denver service center

    The Denver Service Center, you brought that to our 
attention. We spilled a lot of blood all over the place, but I 
think it is an issue that needed attention, and I think we have 
been successful.
    The National Academy of Public Administration. I have 
always been a skeptic about all these academies and things 
around town, but this one is actually pretty good. They did a 
nice job. As you know, we are going to use them again to look 
at the BIA management structure. That will be, of course, the 
ultimate challenge. There is no question about that.

                                  y2k

    We are on track on Y2K. We got Congressman Horn, no shill 
for either Bruce Babbitt or the Department of Interior, who is 
going to release a report giving us an A minus in the context 
of the usual grading system in which other agencies get Cs and 
C pluses. We have fixed 86 out of 90 systems. I can tell you 
that 86 of the systems have been fixed, tested, retested 
internally, externally. They are ready to go. We are on track 
on the other four. So I appreciate your leaning on us and 
working with us. I think we are in good shape.
    By the way, we also have a clean audit. There are four 
cabinet agencies now that have clean audits. It is the second 
year in a row, and it has been the result of a lot of work.

                         indian trust accounts

    Now, as you can appreciate, this is a lead-up to the Indian 
trust accounts, which I suspect may be of some interest to you. 
Let me start by making this point. This Indian trust problem 
has been with us since March 3rd, 1849. It has been 
accumulating for 150 years, since the Department was created. 
On your watch and my watch, we have taken this on. We have dug 
up a big snake, there is no doubt about that. It is an awesome 
problem in its complexity and the financial implications.
    We have made a lot of progress. I just want to make that 
point. We have an implementation plan which has been cleared 
with the committee so its people understand. We are now 
tracking that into data cleanup, getting on the probate 
backlog, restructuring the Office of Hearings and Appeals. 
Moving to get hold of the BIA appraisal program, the TAAMS 
accounting system is now actually in place and operating. We 
are training people.
    We have a test coming up this summer to look at the entire 
contemporary system. We thought we would take one region at a 
time. I think it is in Montana, in the Billings area office. We 
have that coming up.
    We have a long way to go. Just to give you an idea of the 
complexity, we cleaned up the jacket files for 200,000 
individual Indian money accounts. I think we have another 
hundred thousand to go. And you are going to see these issues 
reflected in our budget request, which is up to $100 million.
    So I suppose someone will be indelicate enough to say, what 
is this we are reading in the newspaper about Bruce Babbitt. 
Let me see if I can anticipate that and say just a few things. 
This is litigation about the past. This litigation is at this 
point not directed toward what we are doing. It involves 150 
years of total neglect.
    The issue is the production of records, which in a normal 
environment, is a fairly plain vanilla kind of deal. You 
collect records. But in the context of 150 years, I am going to 
tell you, those records are at old Army posts, in people's back 
yards, on river banks, they are all over the place.
    Lo and behold, and I will not belabor this at length, just 
when we really thought we had closed in on this, the Hantavirus 
arrived. Now, I thought they were joking when this came up. 
When people came in from the far west and said, there are 
document storage sites that we cannot access because they are 
contaminated with Hantavirus.
    This in fact is a rat related problem, and the Hantavirus, 
which broke out about ten years ago, has a mortality rate of 60 
percent. We went out and hired Arthur Andersen and spent I do 
not know how much money and set up a decontamination process. 
This was sort of like going into an abandoned nuclear facility.
    We got an impatient judge. Let me just say that I am 
willing to eat crow anywhere in this town, because it is not my 
objective to stand around and rationalize it. There was some 
stumbling around in this process; there is no question about 
that. I have reorganized the trustee's operation, and I am 
confident that we are doing better initiatives now. The prior 
trustee resigned as a result of that. That is life in 
government, and those things happen.
    We are going to keep working, confident that we have it all 
straightened out now. I have also said, and I intend to get 
this done, we are going to clean this thing up on our watch. It 
is going to be painful, and we have a long way to go. We 
scratched this snake up, and I am going to cut its head off, 
with your help, on our watch.

                          lands legacy program

    A word about the Lands Legacy program. I understand the 
complexities of the budget process. Those issues are above my 
pay grade, frankly. How the budget comes together at the end of 
the year in relation to the 602 allocations is something that I 
am not, nobody is interested in my opinion. I am not qualified 
to give it.
    So now, that said, I think this program is a good deal and 
it is overdue. I have come up here for five or six years, and 
there has not been any talk about good new programs. I have 
come before this committee, and we have done a lot of slashing 
and cutting. I have suppressed a lot of troops out there 
complaining about it and said, I am a partner with this 
Congress in getting this budget deficit under control.
    The land acquisition programs went down year by year. You 
did not hear any squawking from me, because it had to be done.
    Well, now it is time, in my judgment, to take a fresh look 
in light of new budget realities. The President has proposed a 
program of approximately a billion dollars. I believe that it 
is making good on the promise of the original OCS deal for 
moving offshore and producing all of those royalties. The deal 
was that we would appropriate $900 million a year as the 
resources were used up to protect other resources. That is the 
bottom line.
    Now, I would be happy to respond to the details. I would 
say two things by way of anticipation. Yes, there is a big 
State and local component to it. I think that was originally 
anticipated. I support it, and I think it is a good idea. I was 
just talking with Congressman Kolbe about the Governor of his 
State of Arizona, who was in talking about acquisition funds. 
Governor. The Governor of Georgia was in my office three days 
ago with a substantial list of State and local issues. That is 
the reason for that.
    I think we will discuss the issues of whether or not we 
need authorization. I do not believe we do, Mr. Chairman, but I 
recognize there is a difference of opinion about that. I think 
that the proposed expenditures by the president are clearly 
authorized in a whole variety of authorizing statutes. We could 
debate, I guess, whether or not the OCS legislation itself 
authorizes each and every proposal in detail.
    I believe the time has come and we are strongly behind 
this. Indeed, I will accept praise or criticism for having 
stirred this up and originated this program. I have kept my 
peace for seven years on these issues, but I think it is fair 
and appropriate to really move with this.

                          pacific forest plan

    Just a few things, and then I will wrap this up. I think we 
are doing great on the projects we worked on in the past. The 
Pacific Forest Plan, you are going to see, has kind of settled 
out in the budget. I realize I am not speaking for Mr. 
Nethercutt over here, but I think there is a substantial 
consensus that this is all shaking out. I count it a success. 
Mr. Nethercutt will have equal time.

                               everglades

    The Everglades project is really, really, I think, an 
outstanding success. We have done an enormous amount of work 
down there together in terms of land acquisition, fixing up the 
urgent water supply. I met with Governor Bush yesterday, and 
had a terrific visit with him. I had not met him; he is an okay 
guy. He is committed to the Everglades process. We discussed 
how we move into the future.
    The twelve angry scientists from the front page of the New 
York Times were in two days ago, and we had a sort of come to 
reality session. I think we have reached a constructive 
solution on that.

                         land aquisition issues

    A lot of land acquisition issues--the Headwater issue we 
could talk about. It is still hanging fire. We have a new land 
acquisition issue with the Catellus holdings in California. 
This one just fell out of the sky. We are going to clean up all 
the inholdings in the southern California desert with the aid 
of a $25 million grant from a private foundation, which needs 
matching in the form of about $35 million from this committee. 
That reflects a growing interest in all these open space and 
land preservation issues.

                            invasive species

    I am going to go out of here on three things: invasive 
species--and Mr. Nethercutt is going to be my biggest supporter 
on this one. He does not know it, but we are going to get 
there. Invasive species, the national spatial data 
infrastructure, and frogs. The invasive species issue is very 
real. This has been creeping up at us in all kinds ofdifferent 
ways. All of a sudden, the picture is becoming clear. It started out 
west with the leafy spurge and nap weed. You can find ranchers out west 
that have been rendered worthless, because the cost of the spurge 
containment efforts exceeds the productive value of the land. We have 
actually one documented case. The stuff is all over the place, running 
wild.
    It is not just the west. We have the zebra mussel problem, 
which is now working. It is being followed by a little critter 
called the goby, which is now moving across the Great Lakes. 
Ship ballast water--we have a mess there. The California 
abalone industry is in trouble from an alien invader. It is 
absolutely endless.
    What we have finally learned, I thought really kind of 
tardily, is that there are things we can do. The initial 
reaction to all this is to throw up your hands and say, what 
can you do with four million acres of nap weed. The cheap grass 
will be with us forever, so why bother. But there are a series 
of prevention, containment, biological controls.
    I was with a Senator who shall go unnamed up in the State 
of Massachusetts in a wildlife refuge last year. It was a big 
production; we were all out campaigning. The Senator gets up 
and says, this is a fabulous day in this wildlife refuge. Here 
we are in the midst of God's creation. Look at that 
extraordinary field of purple flowers. This is the height of 
the outdoor experience.
    I did not have the heart to tell him what was going on in 
that wildlife refuge, that it was the equivalent of leafy 
spurge, and that the wildlife refuge was damn near dead. But 
that is what is behind all that, and I would be really grateful 
to have some discussion and some work on that.

                  national spatial data infrastructure

    The national spatial data infrastructure. Everybody here 
except Mr. Hinchey will go to sleep as soon as I start 
discussing the national spatial data infrastructure. I will 
only say this thing is working. The States are really moving in 
in a big way. The chairman of the interstate group now working 
on this is from your State, and we are getting results in the 
way we use satellite information, geographic data, getting it 
up in the computer system. Great stuff. We need to continue to 
give modest support and encouragement to that.

                                 frogs

    Lastly, the plight of the frogs. The frogs are 
disappearing. It is for real.
    Mr. Regula. Nationwide?
    Secretary Babbitt. Nationwide. There has been a lot of work 
done on this. The mystery is still out there. It looks like it 
is a combination of stress factors which seem to accumulate and 
then all of a sudden these species go over the brink and just 
fade away. There is clearly a disease factor. There is 
predation by fish species on the bull frog, an introduced 
species is a problem.
    The California Sierra--they have put together a really 
persuasive pattern. The frogs are virtually disappearing on the 
western slope of the Sierra Nevada. They are still in fair 
shape on the eastern slope of the Sierra Nevada. That points 
toward something in the air.
    Making this even more complex, it is this problem of 
deformed frogs. Something is really weird and deforming them. 
They are starting to really ratchet up. So out of that, we need 
to pay some attention to it. There is no silver bullet. This is 
no call for some sort of a Manhattan project, but we have to 
bump up in the GS budget on that subject.
    There is much to talk about. Again, I am getting a little 
nostalgic in my seventh year, Mr. Chairman. I just want to say 
that this has been good. It has not always been easy. And I am 
not checking out yet, I will be back at this time next year. 
This is not a farewell speech.
    Thank you.
    [The written statement follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Regula. Thank you. We will leave a few things out this 
year, so you have a reason to come back next year. [Laughter.]

                     lifting moratorium on drilling

    Mr. Regula. You can add the stink bugs to your list, they 
have invaded northern Ohio, just out of the blue, just the past 
year.
    I have a bit of a mischievous question, and that is, can I 
assume because of your Lands Legacy Initiative that you favor 
lifting the moratorium to generate more revenues for the Land 
and Water Conservation Fund?
    Secretary Babbitt. Mr. Chairman, I would only note as a 
matter of fact that the offshore revenues are still in the 
neighborhood of about $4 billion. So in the event that you are 
so generous as to up this land legacy problem to $3 billion to 
$4 billion, I would be ready to----
    Mr. Dicks. But with prices being as low as they are right 
now, I do not think this is the time to act. We want to protect 
this treasure for a little longer, Mr. Chairman. [Laughter.]
    Mr. Regula. I wore this tie just as a reminder.
    Mr. Dicks. Is that a drilling tie? [Laughter.]
    Mr. Regula. I am going to defer my questions, because I 
know many of you have other subcommittee hearings. This is 
reflective of the fact, Mr. Secretary, that we are going to 
meet the deadlines this year on both the budget resolution and 
the appropriations, which constricts our time window 
substantially. We have a lot of subcommittees meeting today.
    Mr. Dicks.
    Mr. Dicks. First of all, Mr. Secretary, I want to welcome 
you again, and I want to thank you for all your cooperation on 
issues out in the Pacific Northwest. We are struggling along 
under the forest plan, but things have stabilized pretty well 
out there. I think people have adjusted to that.

                               elwha dams

    The issue I am most concerned about is Elwha. We have 
worked hard over a number of years here to try to get the money 
to acquire these dams. I am just hopeful that we are going to 
move forward here and acquire the dams. I would think it would 
be, in my judgment, it would be a very serious mistake if we 
delayed this for any reason beyond just doing the normal 
negotiations that would lead to this. I think the community up 
there is very much interested in moving forward now with taking 
out one of these dams. They want to get on with this.
    I know there are struggles in the other body. But I hope we 
can resolve whatever we are going to resolve and try to deal 
with the Elwha in a direct way. I notice you have $12 million 
in the budget this year. The thing I am most concerned about is 
are we going to go ahead and acquire these two dams, now that 
Congress have provided the money to do it.
    Secretary Babbitt. Mr. Dicks, there are two problems with 
Elwha. I just put them right up front. The first one is: we are 
putting a circle around Elwha rather than trying to get it all 
tangled up in the Columbia and Snake Rivers. That is number 
one, that sort of cratered this last year.
    The second issue of more relevance to your question today 
is: I am very reluctant to take over those dams, to buy them, 
without a clear pathway to taking them down. What we are going 
to have is a dead asset that is going to be real expensive. 
What do I mean by that? What I mean by it is that the minute we 
own those dams, there is going to be a lawsuit talking about 
upgrading them under the dam safety legislation. We are going 
to wind up with two dams, and we are going to be out there 
spending tens of millions of dollars to repair them to meet 
safety standards because of our inability to have a demolition 
project. That is my concern.
    Mr. Dicks. Can that be dealt with in the negotiations with 
the companies on this subject?
    Secretary Babbitt. There is no way the company is going to 
assume continued--we tried that four or five years ago. It is 
kind of an interesting idea. We said to the company, we buy the 
dams, you run them, provide the power, and maintain them. They 
have no interest. And I do not blame them. They want out.
    Mr. Dicks. Yes, but they are not going to get out this way, 
is what you are saying.
    Secretary Babbitt. I would hope that we can reason together 
with the other body. I have not given up. That is our problem.
    Mr. Dicks. All I am saying is, I think, I just hate to see 
the community, in essence, held hostage to this struggle on 
other matters that I do not think are relevant to this issue at 
all. I think I will just leave it at that for today, and we can 
talk about this further, as we see how events unfold. But that 
certainly is a major problem.
    The other thing I would like to mention, too, is as you 
know, we are under these budget caps which are legislated. I am 
told that if we do not get some relief from that, that the 
President's request here is, what, about a billion dollars, a 
billion two, over what this committee will likely get under a 
302(b) allocation. And so obviously, new initiatives are going 
to be hard to deal with, if we wind up in that situation.
    I think for all of us in this subcommittee, we are going to 
have to face the reality of whether we are going to be able to 
do a job here, the kind of job and do the things that the 
chairman has been talking about, which I strongly support, like 
fixing up these parks, too. I think we sometimes get to a 
position where we think about new acquisitions and these things 
without going back. I think that is why the fee demonstration 
program has been so successful, is people know the parks are 
run down, and they finally see something happening about it.
    Secretary John Berry was up and told me about the five year 
maintenance program. I think that is fine. But my judgment is 
that fixing and maintaining these parks should be a significant 
priority as well. The Chairman staked this out, and I have 
heard that testimony for years in this committee. We all know 
that there is a backlog of projects out there that needs to be 
addressed.
    So I hope as we look at this whole subject we do not forget 
that part of it, either. Thank you, Mr. Chairman.
    Mr. Regula. Mr. Kolbe.
    Mr. Kolbe. Thank you very much, Mr. Chairman and Secretary 
Babbitt. It does not seem possible that you have been here 
seven times. How time flies when you are having so much fun 
with all this, right?
    Secretary Babbitt. True.
    Mr. Kolbe. Mr. Secretary, you and I were talking a little 
bit, just chatting here informally before the hearing, about 
some of the fairly exciting things that have been going on in 
Arizona. I wanted to talk a little bit about that, just proving 
the adage that all politics are local.
    I have to leave here to chair my own subcommittee on 
Treasury-Postal. As chairman, you try to ask the broader, more 
general questions. But when it is not your subcommittee, you 
can talk a little bit about some things of specific interest.

                    sonoran desert conservation plan

    This one actually really does have national implications. I 
just wanted to discuss with you the Sonoran Desert Conservation 
Plan. This really is ground breaking. The term gets over-used a 
lot around here, but I think it really is, as a long term 
effort to address the protection of endangered and threatened 
species, the conservation of wildlife habitat and open spaces 
and most important, trying to figure out what is sustainable 
growth in a western city like Tucson.
    The community really has come together in trying to 
determine the proper balance, but it certainly is no easy task. 
We have been struggling here in Washington and elsewhere to 
find this common ground for most of this century. A broad 
coalition has come together in support of this plan. And I say 
in support recognizing that we are really only at the very 
early stages of its development.
    When you get organizations as diverse as the Southwest 
Center for Biological Diversity, which may not mean a lot to 
most members here, but is the one that has been leading the 
lawsuits around the country on the Endangered Species Act, when 
you get groups like that and the Defenders of Wildlife, the 
Sierra Club, you get ranchers, realtors, home builders and 
developers and 20 government agencies from local, State and 
Federal entities together, I think that is pretty significant.
    We also have a tribe that has taken legislative action, a 
Native American tribe supporting the Sonoran Desert 
Conservation Plan. So I think we can agree it is a pretty 
diverse coalition on a sensitive issue.
    It is also important that we understand that there are 
still a lot of hurdles here. A significant amount of the land 
is in an urban setting, which makes it a little bit unusual. 
One of the listed species, the pygmy owl, has significant far-
reaching implications for land use decisions.
    Nonetheless, I think the community really is pulling 
together. I think everybody that has been working on this 
deserves a lot of credit. I can not say enough about this 
success story except to put a footnote to that to say we have 
only just begun, and success is not really there yet.
    As you mentioned, you came to Arizona, and you have seen 
first-hand what this is all about. The habitat conservation 
plan is the most complex ever in this country. That is a flat 
statement. It includes a land base that isten times the size of 
the San Diego multi-species conservation program, and that was 
considered the most complex permitted conservation plan in the United 
States.
    The plan, however, needs to begin and be grounded in sound 
unbiased science. The county is planning to initiate a 
biological evaluation and an economic analysis, so that the 
environmental and fiscal impacts of all the alternatives are 
known before we have a final plan ready for implementation. It 
is the right way to do it. The Federal Government and this 
subcommittee need to support this effort.
    That is all by way of just saying, a very quick question or 
two on this. I am pleased to see that you mentioned the Sonoran 
Desert Conservation Plan in Interior's budget in brief, which 
states that the endangered species fund increases would support 
``new initiatives'' including the Sonoran Desert Conservation 
Plan.
    You do not reference that plan anywhere else in the 
President's budget, is that right?
    Secretary Babbitt. I think that is correct, yes.
    Mr. Kolbe. Does this fact that it is not referenced 
elsewhere lessen the priority that you place on this habitat 
conservation plan?
    Secretary Babbitt. Mr. Kolbe, let me say that I share your 
sense of the importance of this plan. I went to Tucson four or 
five months ago to look at this. I was astounded. I really had 
not been in Tucson for a long time. In fact, the hotel I was 
staying at, the manager came out as I was coming in with my 
baggage, and said, Mr. Secretary, it is a pleasure to see you. 
Is this your first visit to Arizona? [Laughter.]
    Mr. Kolbe. You have been away too long, Mr. Secretary. You 
must not be planning to run for office soon. [Laughter.]
    Secretary Babbitt. This really is the most exciting attempt 
anywhere in the United States to deal in a community based 
consensus building way with all these issues of open space, 
biological protection, growth. It must be something, since you 
quit drinking CAP water----
    Mr. Kolbe. We are still trying to get that, too.
    Secretary Babbitt. The developers, everybody is into this. 
Now here are some thoughts. First of all, I now have a personal 
representative in Tucson. I recruited a guy named Gail Kobetich 
out of retirement from the Fish and Wildlife Service. His job 
is to be my guy in Tucson.
    Now, the issue I presume you are referring to is money.
    Mr. Kolbe. I have not said anything specific yet about 
that.
    Secretary Babbitt. Well, the answer is yes. We have to do 
everything we can to provide the opportunity for that community 
to make it work. We mention it in the President's Land Legacy 
program. Let me just say that I can not think of a higher 
priority than supporting this effort.
    Mr. Kolbe. You just answered my last question, then, which 
was, does this remain a high priority. I think you have 
answered that.
    The other issues we will take up in due course in this 
subcommittee. As long as you are excited about this, I should 
say excited and hopeful, about what this can do nationally, as 
I am, in terms of getting us out of this box we seem to keep 
putting ourselves in on these plans, then I think that is very 
encouraging. I appreciate your comments.
    Thank you very much.
    Mr. Regula. Mr. Nethercutt for equal time.
    Mr. Nethercutt. I receive plenty of time here. I was so 
prominently mentioned in your opening statement, Mr. Secretary. 
I take that as a compliment. I thank you for being here, as 
usual.

                           hydroelectric dams

    I want to focus, sir, on the issue of dams in my part of 
the country. As you know, there are four Federal hydroelectric 
facilities on the lower Snake River that are the topic of 
considerable debate in our region. They are very prominently 
discussed. They are part of the total Columbia and Snake River 
hydroelectric system that provides about 70 percent of the 
power in our region. They control water relative to flood 
control, transportation of agriculture products, recreation and 
other commerce on the river systems as a multi-use system.
    About 40 percent, you may know, of our wheat exports, go 
down that river system on the Snake and Columbia. Irrigation is 
prominently a very important part of the Columbia River basin, 
and agriculture production.
    You may know that last week, in Pasco, there was a rather 
significant rally of anywhere from 3,000 to 5,000 people. An 
interesting alliance was present. Talking about invasive 
species, your name came up a few times.
    Secretary Babbitt. In praise, I hope.
    Mr. Nethercutt. Well, yes, I will let others make that 
judgment. But it was an emotional mention of your name a number 
of times.
    Mr. Dicks. Was he burned in effigy? What an honor.
    Mr. Nethercutt. They were trying to rile up the crowd and 
it seemed to work. [Laughter.]
    They were union leaders, they were business leaders, they 
were Democrats, Republicans, a broad range of people who were 
very outspoken about the value that these dams have on our 
river system, as I said to you earlier, for multiple use 
reasons. Governor Locke, our State Governor, has come out and 
said he can not think of any reason why in the world these dams 
should come out for any valid purpose.
    Mr. Regula. You mentioned wheat going down this. Do they 
lock around the dams?
    Mr. Nethercutt. Yes.
    Mr. Dicks. All the way to Lewiston, Idaho.
    Mr. Nethercutt. It is a tremendous transportation system 
for our agriculture.
    Secretary Babbitt. Yes, a whole series of locks.
    Mr. Nethercutt. We go all the way down to Portland. And 
then overseas, 90 percent of our wheat goes out of the State. 
It is a huge balance of trade payment.
    Secretary Babbitt. Mr. Chairman, you would be at home on 
that river. It is just like the Ohio River, it is locked all 
the way to the mountain top.
    Mr. Regula. That is interesting. I did not realize that.
    Mr. Nethercutt. It is very valuable. I speak parochially, 
but I speak also for an awful lot of people who feel very 
strongly about this issue. The National Marine Fisheries is the 
lead agency to make their recommendation here along with the 
Corps of Engineers. I want to talk to you about that.

                            removal of dams

    I have mentioned in prior hearings with you, you have in 
the course of your being Secretary taken some pride in your dam 
busting campaign. That bothersa lot of people out our way as it 
relates to the Federal Government and the role that the Federal 
Government may try to play in determining whether these dams should 
stay or not.
    I am fully aware of Senator Gorton's efforts with you in 
the last budget go-around, appropriations last year, regarding 
Elwha relative to the Snake River. The negotiations, I 
understand, broke down.
    What I want to establish today, and I really would like to 
have you be specific if you can or will, I would like to know 
and be able to give the assurance to the people of our region, 
not just eastern Washington, but the whole State and the whole 
Pacific Northwest, that you the Government, you the Department 
of Interior and the Administration, recognize that Congress has 
a role to play in the funding of the dams initially, and would 
have an equal role in the funding of any removal efforts that 
might be forthcoming from this Administration. And that it is 
not your intention to remove those dams administratively.
    I want, if you please, for you to be specific and clear 
about that. If you feel the other way, that you have some legal 
authority to administratively remove these dams, I would like 
you to be forthright about it, so we know. Because I do not 
think you do, frankly, speaking as one member of this national 
legislature. And I do not think you should. I think it ought to 
be a Congressional matter. It ought to be carefully thought 
through.
    So if you could respond, I would be grateful.
    Secretary Babbitt. Mr. Nethercutt, there is no way that 
those four dams on the Snake River can come down without 
funding from the United States Congress.
    Mr. Nethercutt. Is there any way that any other facilities 
on the river system would, could come down, without Federal 
funding?
    Secretary Babbitt. Well, I must say, I have been a 
participant in the dismantling of a number of dams without the 
authorization from Congress. There are 75,000 dams in the 
United States over five feet high. And I will tell you----
    Mr. Nethercutt. All Federal?
    Secretary Babbitt. All kinds of dams. And a lot of them 
clearly ought to come down. We have built some impressive 
consensus around some of those. The Edwards Dam on the Kennebec 
River in Maine is going to be dynamited this summer.
    I was up there last year for the decommissioning, for the 
announcement that it was going. Every politician from there to 
the horizon was there to claim credit for it. I was there to 
claim credit, and I was number 14 on the speaker's list of 
those claiming credit. It was a dam that clearly its time had 
come. The fish runs are going to be restored and the loss of 
power is absolutely minuscule. It was built in 1837.

               authority to remove non-federal facilities

    Mr. Nethercutt. That is fine. I appreciate that. But are 
you telling me here today that you are intending or that you 
have the authority or both to take out non-Federal facilities 
on the Snake and Columbia Rivers?
    Secretary Babbitt. The point of my answer was that in most 
of these cases, these dam removal deals come about as a result 
of a consensus achieved among a lot of parties. In most cases, 
there is not one person or even one agency that can take out a 
dam. These things are bound up in the legal culture of a river 
basin.
    Mr. Nethercutt. I appreciate that. But are you saying that 
it is not your intention nor do you feel you have the authority 
unilaterally as an agency or as an administration to take out 
non-Federal facilities on these rivers?
    Secretary Babbitt. The one that we took out in Maine was a 
non-Federal dam.
    Mr. Nethercutt. So is your answer yes, you do have 
authority and would exercise it relative to the Snake River?
    Secretary Babbitt. What I am saying is that I am confessing 
that I have taken my sledge hammer, proudly, to an ever-
increasing number of dams, most of which are not Federal 
facilities.
    Mr. Nethercutt. And therefore, your answer would be that 
you have the authority and would exercise the authority to 
remove dams on the Snake River and Columbia River?
    Secretary Babbitt. My answer is that in every case where I 
have been caught using a sledge hammer, it has been as part of 
a proud community consensus, going all the way down to that 
river basin. It has been true in North Carolina, it has been 
true in California, it has been true in Maine.
    Mr. Nethercutt. If there is no consensus, would you concede 
that you would not take out such dams, unilaterally, 
administratively?
    Secretary Babbitt. I am not a legal expert.
    Mr. Nethercutt. Well, from a non-legal standpoint.
    Secretary Babbitt. I would be happy to pass your question 
to my solicitor.
    Now, let me----
    Mr. Nethercutt. You do not know if you have the legal 
authority or not, are you saying that?
    Secretary Babbitt. To do what?
    Mr. Nethercutt. To take out those dams administratively, 
any non-Federal facilities?
    Secretary Babbitt. I have already told you that with 
respect to those four dams on the Snake River----
    Mr. Nethercutt. Federal facilities.
    Secretary Babbitt [continuing]. There is no way----
    Mr. Nethercutt. And I accept your answer.
    Secretary Babbitt [continuing]. We can take those dams down 
without funding from the United States Congress.
    Mr. Nethercutt. And I am trying to get a straight answer 
relative to non-Federal facilities.
    Secretary Babbitt. I have no idea what the facts are that 
relate to legal authority on non-Federal dams in that basin. I 
do not have a clue.
    Mr. Dicks. Will the gentleman yield to me for just a brief 
second?
    Secretary Babbitt. With one exception. Elwha Dam.
    Mr. Nethercutt. You think you can do that administratively, 
unilaterally?
    Mr. Dicks. We have a statute. We passed the bill.
    Mr. Nethercutt. I understand.
    Mr. Dicks. On Elwha, yes. I was just going to say, we could 
move you up on the speakers list on the Elwha. [Laughter.]
    Mr. Regula. Mr. Hinchey, do you have a dam?
    Mr. Hinchey. I do, Mr. Chairman, but they are very, very 
small. I do not think the Secretary is interested in them at 
all. [Laughter.]

                             oil valuation

    Mr. Hinchey. But if he would be, I would be happy to invite 
him in to take a look at them.
    I do understand, Mr. Secretary, that the Department for a 
number of years has been pursuing oil companies that drill on 
public lands or on Native American lands but under-value the 
resource when it comes to paying royalties as a result of that 
drilling.
    Is it not true that the Justice Department has intervened 
in lawsuits against eight major oil companies for violating the 
Fair Claims Act? Is it also true that the final promulgation of 
the oil valuation rule that your Department has been working on 
for some time would enable you to recover appropriate royalties 
from the results of that drilling on public land and public 
land of Native Americans?
    Secretary Babbitt. Mr. Hinchey, the answer to all the parts 
of that question is essentially yes. There has been a great 
deal of litigation over this. Under the False Claims Act, by 
States under their statutes, there have been recoveries on this 
issue. In California, and a variety of other States, I think 
the Justice Department is now involved in ten cases against oil 
companies which were originally brought under the False Claims 
Act by private citizens.
    We have had a recent settlement with Mobil over this issue. 
There are a lot of claims which have been reduced to judgment, 
which are in litigation and which are yet to be filed.
    The reason for this is, I think, quite clear. Private land 
owners, when they lease out their land, get a royalty which is 
measured by the market value of the oil. Where do you find 
that? You go put a coin in a box and get a copy of the Wall 
Street Journal, go to the money and investing section, turn 
past the stock pages to where they have the commodities, and 
you will see a list that says West Texas Sweet, West Texas 
Sour, a whole variety of other benchmarks. Those are market 
prices.
    What this dispute is about is a practice which has grown up 
over the years in which the oil companies, not the 
independents, not the small guys, but the big ones, have what 
they call posted prices, which is the price at which they sell 
the oil to one of their affiliates, a refinery or something 
else.
    You can not seriously believe that no private landowner 
would put up with that for five seconds. That is what this 
dispute is about. That is the reason we have drafted this rule, 
and I intend to get it out when that moratorium expires.
    The oil companies are saying, Mr. Chairman, I do not mean 
to get carried away, but the oil companies are saying, the 
Interior Department will not meet with us. The Interior 
Department will meet with them. The Interior Department has met 
with them 14 times. They do not have anything to offer. If they 
do, we would be glad to look at it.
    Mr. Hinchey. Any way to estimate the value of these 
resources that are in question and how much money the taxpayers 
may have lost over some arbitrary period of time in the past?
    Secretary Babbitt. We have made a revenue assumption in the 
2000 budget of $66 million. That is for year 2000.
    We have not made any attempt to project that back, but it 
will obviously be hundreds of millions of dollars. The State of 
California got a judgment for several hundred million dollars 
against some selected oil companies. But I would not have any 
way of projecting. It may be billions of dollars, but I do not 
know. In the year 2000, it is $66 million.
    Mr. Hinchey. In any case, it would seem this rule is very, 
very important, to finally get it promulgated and get into 
effect?
    Secretary Babbitt. Yes. I do not mean to sound overwrought 
about this, and I will try not to be. But we have been 
struggling with this for a long time. The oil companies come in 
and stir things up and get a moratorium on a moratorium on a 
moratorium. It is a bit frustrating.

                 endangered species habitat protection

    Mr. Hinchey. Let me ask a question about the Endangered 
Species Act. I know this is something that the Department is 
very interested in and working on in terms of habitat 
protection and what might be done in that regard, which is 
probably the most essential aspect of the Endangered Species 
Act. You certainly can not protect a species unless you protect 
the habitat of that species. I wonder if you could tell us, Mr. 
Secretary, about some of the things the Department is doing on 
habitat protection, designed to protect specifically endangered 
species.
    Secretary Babbitt. Mr. Hinchey, I will start by 
acknowledging that this committee has worked very well with us 
on endangered species issues from day one, clear back to the 
forest plan. The appropriation committees in the House and the 
Senate have really, really met us halfway on all these issues.
    The problem is that on the authorizing side, there just is 
nothing even remotely resembling a consensus for 
reauthorization. We tried last year, endless hours, negotiated 
this thing in the Senate Environment and Public Works Committee 
day after day after day, only to watch it all crash.
    In the absence of reauthorization, what we have been doing 
is plowing ahead, trying to invent these habitat conservation 
plans. I think we have been very, very successful. What 
Congressman Kolbe was talking about in Tucson here is a nice 
example. There are many, many others. All over the south, we 
have the forest products industry working real well, because we 
have worked out kind of a template for forest protection 
issues. There has been no litigation at all.
    So what we need, I think, just practically speaking, is 
some continuing help from the appropriations committees, until 
such time as the authorizing committees decide to change the 
law. I do not think that is going to be on my watch. I do not 
see it.
    However, the Land Legacy program has some endangered 
species labels in it in the form of a grant program by the 
States. If I were to single out one thing to help make these 
things go, without a lot of conflict, we are right back to my 
exchange with Congressman Kolbe. That is what the Tucson thing 
is about. If we can put a very modest amount of money into that 
program in the planning phase or in the land acquisition phase, 
either through the State of Arizona or through the County, we 
are going to really make a huge difference in the ability of 
local communities to deal with their land use issues.

               natural resources damage assessment budget

    Mr. Hinchey. Thank you, Mr. Secretary. I wonder if you 
would also comment on the natural resources damage assessment 
program budget, and what you have in mind in that particular 
area. If there is anything specifically with regard to the 
Hudson River, I would be interested in hearing that as well.
    Secretary Babbitt. Congressman, I am hesitating on that 
one, while my new budget director underlines the appropriate 
response for me. [Laughter.]
    We have a request. This is a fairly modest program, it 
really is. One reason it is a modestprogram is that we get a 
lot of support from EPA, and from these restoration funds that have 
dropped out of the settlements. We are looking, to answer your question 
specifically, for $7.9 million, which is an increase of a little over 
$3 million in that category.
    With respect to the Hudson River, I would be happy to 
answer for the record. I have been up there, I have been 
through it. It kind of keeps changing, and we are not there 
yet. I would be happy to answer for the record, if I may.
    [The information follows:]

     Natural Resource Damage Assessment Budget for the Hudson River

    Fiscal Year 2000 funding for the Hudson River project has 
not yet been determined. Projects funded from the Natural 
Resource Damage Assessment Fund are selected on an annual 
basis, based upon a number of criteria. These criteria which 
include the extent and importance of the damages to the 
Departmental and/or Tribal resources, and the strength of the 
chain of causality for the damages in the case, help to ensure 
that the highest priority cases are funded. The Hudson River 
project has ranked high over the last few years, and over $800 
thousand has been provided since Fiscal Year 1993. In 1999, 
$167,000 was allocated for this case. Expectations are that 
funding will continue at a level commensurate with the 
project's high ranking. The specific amount to be provided in 
Fiscal Year 2000 will depend upon the project's ranking against 
other projects and the total amount of funds available for 
damage assessment projects.

    Mr. Hinchey. Thank you.
    Mr. Regula. Mr. Peterson.

                               fte needs

    Mr. Peterson. Thank you, Mr. Secretary. I noted your 
Department budget request included 1,600 new FTEs. Should the 
committee assume that the Government's downsizing initiative 
aimed at making Government smaller, more efficient and more 
user friendly, is unsuccessful?
    Secretary Babbitt. Mr. Peterson, it is a pleasure to meet 
you in the form of a question. [Laughter.]
    We have really made a lot of progress. We have whittled 
this Department down from 77,000 FTEs to about 66,000. So we 
took about a 14 percent personnel hit, and we soaked most of 
that up in terms of efficiencies. We are getting things done.
    We have gone a little too deep. That is the reason we want 
to bring it back with the FTE request for this year. If you 
give every last one of them to us, we will still be 
substantially below the FTE level that we were at 20 years ago.
    Mr. Peterson. Where do you really need them? If it is out 
in the country, serving our people, we are more supportive. If 
they are in Washington, I am less supportive. Not looking at 
you, but the people that serve our districts are not here.
    Secretary Babbitt. We have learned one thing working with 
this committee, over the last seven or eight years. That is, 
when we increase FTEs, we put them out in the field. Working 
with this committee, we cut our Washington FTEs in those years 
by the second largest percentage of any agency in this town. It 
was about 25 percent. It was bloody.
    In the National Park Service, we just sort of marched them 
to the wall and said, out. We upped the level of personnel in 
parks by 10 or 15 percent over the last few years, and we 
reduced staff in Washington. It works great, it really does.
    For the FTEs we are asking for this year, if you look where 
they are, they are in the three land management agencies: the 
Fish and Wildlife Service, the Bureau of Land Management, and 
the National Park Service. They are out there. Pay particular 
attention, if you will, to the Bureau of Land Management. We 
have a nice success story on the way there. I just want to for 
the record say I am really proud of the BLM. They have taken a 
lot of hits, probably a disproportionate number of hits, and 
they are doing a nice job.
    Mr. Peterson. The next question is, I just want to share 
with you, Governor Dick Thornburg, who you probably knew when 
he served as attorney general, when he was Governor, he 
downsized State government from 103,000 to 86,000. It was a 
more efficiently run government. My case work in my district 
offices dropped. And it was a much more user friendly 
government by that thoughtful downsizing. That was done 
gradually over eight years. It did not even pare services.

                     land acquisition and exchanges

    Your land acquisition issues, I guess I want to look more 
at the big picture. We own about 32 percent of the country, the 
Federal Government. I do not know what the number is, I hear 
different numbers when you add the States and the local, 40 
some percent of the country. In areas that are heavily owned, 
they do not get too excited about the program. Yet I think we 
all agree there are pieces that ought to be put in the system.
    Is there any thought to saying, maybe the current acreage 
we have is enough, and if we are going to add X, we are going 
to take away Y somewhere else where public ownership of land 
has totally stopped economic growth and opportunity, because we 
own so much of a county and so much of a State that maybe we 
ought to have a list of property that maybe it does not make 
sense to own--does it make sense for us to own everything we 
have purchased?
    Secretary Babbitt. Mr. Peterson, that is a good question. 
The answer is, we can and should make some adjustments. Last 
year, the Congress passed the bill sponsored by then-
Congressman Ensign, Senator Reid, and Senator Bryan dealing 
with this issue in Nevada, which is about 85 percent Federal 
land. The bill is really a neat deal, because it authorizes us 
to sell land and then divvy up the proceeds among the local 
government for infrastructure, State government for its school 
trust fund, and for environmental acquisition.
    Mr. Chairman, I see you looking.
    Mr. Wamp [assuming chair]. We are going to keep moving so 
that people can rotate out for this vote on the floor. We will 
just keep going. Your time is valuable and so is ours. We are 
going to go on. The chairman will be back and I will go vote.
    Secretary Babbitt. My point is this. It would really be 
helpful to have that kind of legislation for all the public 
land States. We support that, and I believe there is some 
language explaining that.
    Mr. Peterson. But in some areas, you have strong State 
ownership in the same areas that you have strong Federal 
ownership. There is a public resistance toward Government 
ownership, because it does restrict lifestyles. And I just 
think that not every decision that was made in the past was an 
appropriate one, that it should be public ownership. Maybe 
there are areas where we ought to be selling and making major 
buys. We may not own the right land.
    We have enough acreage, maybe we just do not have the right 
acreage?
    Secretary Babbitt. I think it is a fair question. We also 
have the Utah model from last year, which I think is very 
instructive. We got together with the Governor of Utah and 
decided that the time had come to make a mega swap to get State 
holdings out of national forests, parks, Indian reservations. 
These are the two or three sections per township that were the 
school grants that came with statehood after the northwest 
ordinance, I think, in almost all cases.
    It was very successful. We swapped about a half million 
acres of land, and everybody is happy. The burning effigies 
have come down in Utah. I was formerly able to travel the State 
of Utah at night by the light of my own effigies. [Laughter.]
    Mr. Wamp. I was next on the list, so I will go ahead and 
ask my questions so we can keep the hearing moving. I could not 
help but think while you were having that dam discussion with 
Mr. Nethercutt that if one were to cross your intellect and 
knowledge with Mr. Nethercutt's demeanor, we would come as 
close as possible to the world's perfect human being. 
[Laughter.]
    Secretary Babbitt. I have never been called ugly in a nicer 
way. [Laughter.]

                            Invasive Species

    Mr. Wamp. Two things, one parochial and one very national. 
This invasive species issue is not just an issue of the west, 
but it is an issue of the southeast. In east Tennessee, where I 
am from, we have a chair of excellence at the University of 
Tennessee, which is now known for football but should also be 
known for research, where we have about $450 million a year in 
research dollars spent and invested. That chair of excellence 
looks mostly at I think over 20 invasive species in east 
Tennessee alone.
    So I would encourage that, and I would tell you that from 
my perspective as a member of this subcommittee, I look forward 
to working with you on ways in our region to address what I 
understand is the second biggest problem with the environment 
in this country, invasive species, something that does not get 
nearly enough attention, considering how much attention Kyoto 
protocol is getting, and invasive species is way down the list. 
Most people do not have a clue what it is yet. It is the second 
biggest environmental problem in this country.
    So I look forward to working with you on that issue, not 
just for the good of our region but for the good of the Nation 
and the world.
    Secondly, you have a $300 million National Park Service 
increase. About two-thirds of it, though, is for new 
initiatives again. It is almost like you all get to hand pick 
where that money goes and who gets patted on the back and who 
gets stroked. Yet the backlog maintenance, as Mr. Dicks said 
earlier, is still the biggest problem that the Park Service 
faces.
    Can you just fill us in a little bit? I know there is a 
five year plan and the talk sounds good. But then it seems like 
every year, your increases go to new things and not near enough 
of the new money that you ask for is spent on the old problems.
    Secretary Babbitt. Mr. Chairman, you sound just like Mr. 
Dicks. Let me see if I can address this.
    First of all, with respect to invasive species, we can do a 
lot of good things together there. I would note, you are right, 
Professor Dan Simberloff, University of Tennessee, who 
incidentally occupies the Nancy Gore Hungerford chair in memory 
of the Vice President's sister at the University of Tennessee, 
really is the spearhead of this issue. We had a fairly 
extensive discussion of it before you got here. We can do a lot 
together on this.

                          Backlog Maintenance

    Mr. Wamp. Good, very good. You take back over and here is 
the backlog maintenance question.
    Secretary Babbitt. I thought I would talk my way around it.
    Mr. Regula [resuming chair]. You are going to finish the 
backlog maintenance, part two.
    Secretary Babbitt. Part two was. Just a couple of things 
about the maintenance backlog in the national park system. The 
five year plan is an important achievement. There is a lot of 
real problem solving power in that plan. We have asked for 
funding including an additional $30 million for the maintenance 
in part of that plan this year.
    I would also add, Mr. Chairman, to Mr. Wamp in his absence, 
the fee program is now producing $138 million a year. Most, not 
all----
    Mr. Regula. Just in the parks?
    Secretary Babbitt. Just in the parks. We do not have a 
percentage, but I think about 70 percent of it is being used 
for maintenance. There are other projects.
    Mr. Regula. Right.
    Secretary Babbitt. That is a big bite.
    Mr. Regula. Well, this is one of the concerns I have with 
the Lands Legacy Initiative. Of course, as you well know, 
unless the budget caps are dramatically adjusted, we are not 
going to have 1.2 billion extra dollars. But I would in no way 
want to short the backlog program to buy more land. I talked to 
the superintendent out at Yellowstone, and when he tells me his 
concerns about his sewage systems, some of which are about 
ready to ``explode,'' that is not fair to the visiting public. 
I think one campground is even closed down. I believe Norris is 
closed down because the sewage treatment plant is not operable. 
Is that correct? I see John is nodding his head yes.
    Mr. Trezise. We have the monies to fix it in 2000.

                         Everglades Restoration

    Mr. Regula. Well, I am glad to hear you are keeping the 
pressure on on all the backlog, because it can only get worse 
if we do not address it. So that is one of my concerns. 
Obviously, if we had lots of money, we could buy more land. And 
concurrent with that, take care of it.
    But I do not know where we are going to go with the caps. 
My guess is there will be some increase, but not in the 
magnitude that has been suggested in terms of what we could do. 
Everglades. It strikes me that we are sort of caught between 
two forces. One, the environmentalists who want to restore the 
river of grass, if you will, and the east coast, using it in 
the broader sense, who want to have more water. I am not too 
sure that those two objectives are necessarily concurrent. I 
guess my question is, has there been a resolution of what is 
the long term objective in the Everglades? What should the 
final product look like?
    Secretary Babbitt. Mr. Chairman, I think that is the heart 
of the matter; it really is. Restoring the Everglades 100 
percent would mean sort of marching everybody out of Florida 
and saying, we have no water for non-Everglades uses. That is 
obviously not realistic or contemplative.
    My sense of what this is about is, people are looking out 
50 years and trying to make projections that balance the two.It 
basically becomes a matter of opinion. Is Florida going to have 50 
million people, 30, 40? And where do you make the cut?
    I acknowledge that has not been done. I would only say 
this. It does not have to be done in year one. It certainly has 
to be done by year five or ten, where you start making final 
decisions about the deployment of the details of the 
infrastructure.
    Mr. Regula. Are you saying we can go ahead with the program 
without making that critical choice in the road?
    Secretary Babbitt. I believe so, yes.
    Mr. Regula. For a period of time? It is an expensive 
project, as you well know. And I would be reluctant to commit 
funds to something that is not going to fit the final desired 
product.
    Secretary Babbitt. It is a fair question. That is why I 
said to these scientists, we really do need an ongoing, 
careful, real-time analysis of how this thing is building out, 
so we do not run into a blind alley. These things really pay 
out over a long time. I would hope that we can get this 
restudied from the Corps of Engineers before the Congress, and 
get a sense of direction from the Congress saying, you do not 
have to commit to 50 years. But let us proceed.
    Mr. Regula. So, well, when you say you are comfortable with 
expending funds, at least in the next year, that will not limit 
the ability to make a decision at some juncture?
    Secretary Babbitt. I believe that is possible.
    Mr. Regula. One of the problems that concerns me is, is the 
science on the same track in terms of speed that we are moving 
forward with the project, and secondly, is there any one agency 
that is looking at the, I hate the term big picture, but I do 
not have a better description of it, because you have so many 
involved. You have half a dozen agencies in Florida, plus you 
have the Federal Army Corps of Engineers, plus Interior, and I 
am not sure what other groups. Is there an overseeing agency 
here to see that you do not waste money?
    Secretary Babbitt. Again, it is the right question. The 
legal structure right now has the agencies arrayed under the 
South Florida task force. It is in the water resources and 
development area. It is a task force of agencies, of which I am 
the statutory chairman.
    Mr. Regula. So you are looking out over this umbrella.
    Secretary Babbitt. That is right. Now, I do not intend to 
be here for 50 years. Notwithstanding my genius in running 
this, it is an excellent question. What happens next?
    That is what the scientists were also getting at, and I 
think it is a fair question. They were saying, you guys all 
appear to be doing pretty good, you are moving along, but you 
are not spending enough time thinking out these big questions 
that play out over the longer run.
    What we did in response to that newspaper article was to 
say to the scientists, we need an independent peer review 
group. I think that is something we should talk about. I have 
talked to Governor Bush about it, and I think we have talked to 
the committees about how we structure that and what we do with 
it. The Corps of Engineers, at the bottom of all of this, is 
the following issue.
    The land management agencies are Interior based. We are the 
people who are running the ecosystem side of it, really from 
top to bottom. The Corps of Engineers is in charge of the 
waterworks, and they must be.
    That is why they did the restudy, because they are the 
waterworks guys. There is always constant tension. We have to 
keep working at it, we really do. It would be neat if both 
sides of this were under one appropriation committee. It would 
really be a big help.
    Mr. Regula. As chairman of this group, do you have a veto 
on the Corps of Engineers? Are they ultimately subject to your 
direction?
    Secretary Babbitt. Mr. Chairman, no one has veto power over 
the United States Army who is not in their chain of command. 
These guys are colonels and generals, and they are the real 
thing. They rotate through this project on three year work 
assignments.
    Mr. Regula. It does not give them time to get to know it.
    Secretary Babbitt. So far we have not had that kind of 
problem, because we spend a lot of time arm wrestling. But 
there is no reason to think that the next Secretary of the 
Interior is going to be obsessed with the Florida Everglades 
and go over and talk to the Corps of Engineers every time our 
subordinates disagree. So yes, it is a real----
    Mr. Regula. It has to be an enormous challenge. And yet you 
cannot walk away from it if you are going to get the ultimate 
25 years from now or whatever the period of time, the result 
that is desirable for the State or the people there as a whole. 
Plus the stake all the citizens have as having the Everglades 
as a national treasure.
    I guess a year at a time, is that about the size of it?
    Secretary Babbitt. I guess my thought would be, it would 
really be helpful to think in your spare time about whether 
there is any way of bridging the oversight of this across the 
Energy and Water and Interior and other agency----
    Mr. Regula. And the Defense subcommittee. They have the 
Corps, do they not?
    Secretary Babbitt. They come to a civil side.

                               Headwaters

    Mr. Regula. Over at Energy and Water, then. Headwaters. I 
guess the HCP is the problem there. Well, and the California 
money, right? Our money is there.
    Secretary Babbitt. I met with Governor Davis on Sunday to 
see if we could thread this needle. The one characteristic of 
Headwaters is nothing ever gets done until the last possible 
moment. It is always accompanied by volatile people, fighting 
like crazy in the newspapers and threatening each other. 
Senator Feinstein, usually a week before a deadline, drops 
everything and gets everybody together and they throw chalk at 
the walls and gum at the ceiling, and it all kind of comes 
together.
    Now, we are up against a real deadline this time.
    Mr. Regula. March 1st, I think.
    Secretary Babbitt. Yes. We have all said to them, this is 
it. And Senator Feinstein, bless her soul, has said, not only 
is this it, but I am not even going to ask the Senate to extend 
the deadline.
    These people are so difficult to deal with that we finally 
wrote the HCP. We have never done that before. We finally threw 
them out and said, we are sick of you, and wrote the documents 
and sent them back to them and said, take it or leave it. We 
are going to know.
    There is one other issue that you should be aware of. The 
Governor is saying, we cannot afford to pay the California 
thing all in one year. And what I have said to him, and I hope 
I have a solicitor in the audience, because I am not certain I 
am right, but what I have said to him is I believe----
    Mr. Regula. Excuse me, are you finished with your question? 
Yes, we are okay.
    Mr. Wamp. Thank you, Mr. Secretary.
    Secretary Babbitt. What I said to the Governor was, I 
believe that the Federal legislation says there must be a 
binding deal by March 1st. If you, California, can work out a 
delayed payment schedule with Palco, the lumber company, that 
is fine, as long as the deal closes on March 1st.
    Mr. Regula. We might have an extra $250 million to spend in 
this committee on Monday? [Laughter.]
    Secretary Babbitt. That could happen. It is basically out 
of our hands now. They have to decide whether they want it or 
not.

                               Botanists

    Mr. Regula. That is an interesting turn of events. I met 
with the Garden Club of America yesterday. They had a national 
meeting. I said you were going to have more botanists 
prospectively as a result of their testimony last year.
    Secretary Babbitt. Mr. Chairman, we have just amended our 
request to request more botanists.
    Mr. Regula. I know they clapped, so I think they were 
pleased. [Laughter.]

                             yosemite plans

    Mr. Regula. We had $190 million in emergency flood repair 
to implement a new transportation system for Yosemite. I 
understand this will be delayed because of lawsuits for another 
year. Is that correct?
    Secretary Babbitt. It is certainly going to be delayed by 
the lawsuits. It is a fact of life. Every good deed is 
challenged by a lawsuit.
    Mr. Regula. Our subcommittee was out there. Does the plan 
include putting in an additional parking lot? We saw a 
prospective site for that.
    Secretary Babbitt. Mr. Chairman, the answer is a qualified 
yes. Various groups were threatening a lawsuit, so we took a 
step back and agreed to go through it one more time. I am 
really hopeful that they will finally acquiesce, because it is 
the correct way.
    Mr. Regula. You can still do it within the funds available, 
if that is the decision?
    Secretary Babbitt. Yes. I think so. Originally we were 
going to have a structure, and this is really just sort of 40 
acres of high class, aesthetically pleasing asphalt. 
[Laughter.]
    Mr. Regula. As an aside, did they find the woman with her 
children that were supposedly lost in Yosemite? Does anybody 
know? Somebody told me that was in the news, that a family 
disappeared out there.

                        grand canyon rail system

    Oh, one question, and we will go to Mr. Dicks. Grand 
Canyon. As you know I have expressed some reservations about 
the proposed rail system. Interestingly, I am getting letters, 
some signed and some unsigned, that are very supportive. I 
would welcome your comments on it.
    Secretary Babbitt. Mr. Chairman, I welcome your questions 
and your participation. My view of it is as follows. If ever 
there is a place for a light rail system, this is it, because 
of the layout and the way the park is utilized. There are five 
million people a year who go that way, sort of clutter the 
whole place up with cars and buses and junk and then come right 
back out. It really is a neat solution.
    Now, do the numbers work out in a reasonable way? This is 
the first one we have done, and I have approached it in a 
fairly skeptical kind of way. That is why we got the Department 
of Transportation in real early, and said to them, let us 
really scrub these figures. I think it is absolutely valid to 
really work this thing over in as much detail with as much 
skepticism as you can.
    I support it. The concept is fabulous. But we are basically 
saying, and the reason we cannot make a mistake on this one is, 
that the fee program, an extension of the fee program, will 
carry the payoff of the system. We have to be sure about it.
    Mr. Regula. Would this be operated by a concessionaire or 
by the park itself?
    Secretary Babbitt. Concessionaire.
    Mr. Regula. In your opinion, would the fees they charge to 
ride this system be sufficient for debt retirement and 
operations?
    Secretary Babbitt. I think so. I am no expert on this. We 
have had a lot of discussions, and we have looked at a lot of 
numbers. I think so, but it is not an absolutely open and shut 
case. It needs to be looked at. The structure of the 
financing--I do not know where we left off the muni bond 
financing discussion, but we need to ask all those questions. 
There was a theory at one point that if we could get one of 
these municipal bond private activity category rulings out of 
the Treasury, we could knock a couple points off the interest 
rate and that would help. But they are all fair questions.
    Mr. Regula. Mr. Kingston.
    Mr. Kingston. Thank you, Mr. Chairman.

                       cumberland island project

    Mr. Secretary, I have a number of odds and ends here. First 
of all, let me say this to your staff, the Barry boys sitting 
back there, Mr. Jarvis, Mr. Stanton, we had an opportunity to 
work with them on a Cumberland Island project, which the 
Chairman and I worked very closely on to try to get resolved. 
They were very helpful, ultimately bringing some fairness into 
an issue. It had to do with both land acquisition and historic 
preservation. I just want to say thanks.
    At the same time, we are going to keep a close eye on it to 
make sure the historic preservation element and the public 
access to the historic treasures on that island work.
    Secretary Babbitt. Thank you very much. I really appreciate 
that. I know you have nothing further, and----
    [Laughter.]
    Mr. Kingston. Actually nothing really that harmful. But 
anyway, we want to make sure that on public lands, that the 
public does actually have access to things that their tax 
dollars are funding. That was one of the big issues on 
Cumberland. But I think again, at this point, we are pleased. 
We are going to proceed and stay in touch with you on it to 
continue walking together hand in hand to happiness.
    Secretary Babbitt. Seriously, I appreciate that. The moral 
of the story is that whenever we can get out on the ground, get 
away from all the abstract, and walk the land and say, okay, 
now, how do we work this.

                       tax credits and easements

    Mr. Kingston. Let me ask you some kind of general questions 
on the Lands Legacy. One of the things that I am concerned 
about, and coming from Savannah, Georgia, which is one of the 
areas with the largest historic properties in the country in 
one area, one of the keys to the historical preservation of 
Savannah is the fact that we somewhat deputized the private 
sector. Through tax credits, we said to people, if you do not 
tear down your historical house, instead renovate it, we are 
going to give you some tax credit. We will collectively 
preserve this whole city, instead of just a little bit here and 
a little bit there.
    Now, we have a little suggestion of that in land, but not 
enough of it. And with Land and Water Conservation, often I 
think we had the unintended effect of alienating the private 
sector by saying that only the Government is the good steward 
of the land and only the Government really wants to leave land 
pure. Now, that is not across the board, but it does seem, 
particularly with supporters of Land and Water Conservation, 
that if the Government does not own the land it is not 
adequately preserved.
    What I would like to see are, using tax credits and 
easements and things that are out there, but not in a major, 
major way, say to the private sector, we want you to be the 
steward of the land, we want you to own the land. And we want 
to give you the tax credits so that you can continue topreserve 
it in a natural state, its habitat, or whatever.
    Because what I see in a coastal growth area, I represent 
the coast of Georgia, is that people are forced to develop 
their land as it passes from generation to generation, because 
of tax consequences. I just want to open that up.
    Secretary Babbitt. Those are important issues. My own 
personal feeling is, this issue of easements is the most under-
utilized land management device in the United States of 
America. The concept really works, but it is kind of like the 
Cumberland Island project. It takes an awful lot of deep 
engagement on a particular parcel of land to understand what it 
is the land owner's expectations are, and what the land owner 
wants, and how that plays out. Then secondly, how you deal with 
the tax consequences of the conservation easements. It is not 
as simple as it sounds. There is a whole lot of ambiguity in 
evaluation rules and all that stuff.
    That is something I would like to work on. The Nature 
Conservancy has done a lot of good work in this area. They have 
really, really come a long way. A nice example is the Ace Basin 
in South Carolina. There are a lot of other ones.
    Mr. Kingston. We would be interested in any ideas you have 
on it. Because we do want to kind of use the historic 
preservation model. I always point out Williamsburg, Mount 
Vernon and I think Monticello are all privately owned, and 
perfectly preserved. I would like to see a little bit more of 
that in land. I do think that we are pitting the Government 
versus the private sector on land.

                    development versus preservation

    Now, let me ask you this, switching gears. A developer or a 
mining company or whoever tries to buy land. The Sierra Club 
goes berserk. It becomes politically incorrect to do what you, 
you can not get the permits or whatever. So the large 
corporation throws in the towel and says, forget it, we can not 
handle the politics. We can prove the science, but the politics 
are going to keep this from happening.
    They then get a collaborative effort together with the 
environmentalists and turn it over to the taxpayers and say, 
okay, we throw in the towel, for $25 million, you buy us out. 
It seems that that is not an adequate solution. But it does 
seem to be a scenario that is happening over and over and over 
again. Developer buys land, environmentalists raise hell, 
politicals support it and no permits are issued. Developer 
gangs up with the city and all that says, okay, U.S. Congress, 
Land and Water Conservation, you buy us out.
    Are you seeing lots of that or just a little bit of that?
    Secretary Babbitt. Congressman, there is a very interesting 
and very current example in your State at Okefenokee, which 
involves a proposal to strip mine for titanium dioxide along 
the margin of the swamp. What you described is exactly what 
happened. We had a big crisis, and Dupont hired a negotiator 
and got all of those parties together.
    Believe it or not, they reached a consensus, which they 
happily presented to myself and your Governor. It was a bill 
for $90 million.
    Mr. Kingston. I wonder why they were so happy.
    Secretary Babbitt. Yes, no kidding.
    Mr. Regula. That $90 million will make you happy.
    Secretary Babbitt. The good news this time is that the 
Governor and I are in exactly the same position.
    Mr. Kingston. What is that?
    Secretary Babbitt. No. Because you are right, it is 
happening.
    Mr. Kingston. So what do we do about it?
    Secretary Babbitt. Well, what we do is establish some 
realism and say to Dupont, the community, the landowners and 
environmentalists, we can not just have this kind of barbecue 
with the tab going to the taxpayer. We have to be a little more 
creative.
    How do you do that? Well, in the case of Okefenokee, it is 
not clear that the wildlife refuge system needs title to all 
the land. The issue was an incompatible use. There are a lot of 
ways of dealing with that. My guess is the State of Georgia 
would not have permitted the mine in the first place, under 
their own State standards.
    So you have to slow down, it seems to me, and try to strike 
a reasoned kind of basis, and say to everybody, look, land use 
conflicts are real. There are regulatory issues. Let us try to 
work them out, rather than having kind of a potlatch with the 
bill to the Federal Government.
    We have had a little to-and-fro in this committee about 
that, and I am not going to say a word about the Headwaters 
deal, except to say that I did not negotiate it. The price tag 
is, just for the edification of this committee, $500 million.
    Mr. Kingston. Mr. Chairman, I had some more questions, but 
if I need to wait for a second round----
    Mr. Regula. Yes, I think so. We are starting a round, with 
Mr. Dicks.

                         indian trust accounts

    Mr. Dicks. Mr. Secretary, I want to go back to the contempt 
order. This problem has been around for a number of years. I 
know from my talks with Mr. Berry that you are making a very 
legitimate effort to try and find a solution. But if in fact we 
cannot put together these records, from some date, 1985 back, 
as I have been told that there is a problem with, are we going 
to try to make some effort to settle this with these people?
    To me, a situation like this, where the Government clearly 
does not have the records, I do not see how you resolve this, 
other than entering into some kind of a settlement.
    Secretary Babbitt. You are exactly right. It is almost 
impossible to conceive of a traditional settlement to this. We 
would spend $200 million, $300 million, $500 million working 
records, only to hit a dead end, because a lot of records will 
not be there.
    The logical thing to do is to try to construct a 
statistical sample of the history and account profile of 
different classes, then err in favor of the trust account 
beneficiaries by throwing on another 25 or 30 percent, or 
whatever. In doing that, you can reach a near statistical 
certainty that all of the account holders are getting at least 
their legal entitlement.
    Mr. Dicks. How many account holders are there?
    Secretary Babbitt. 300,000 I guess.
    Mr. Dicks. And the records for all 300,000, we do not have?
    Secretary Babbitt. Most of these are the so-called 
fractionated heirships. There will be records on the more 
recent ones, but they go back to the Dawes Allotment Act in 
1887, and in some cases to 1850.
    Mr. Dicks. So there are some of the 300,000 that we can say 
with precision, this is how much money is in their account?
    Secretary Babbitt. Yes.
    Mr. Dicks. Do they get money out of the account now and 
then? Is there a stipend paid out?
    Secretary Babbitt. Oh, sure. These accounts are being 
operated. You bet.
    Mr. Dicks. Do we have a better number on the revenue that 
is coming in in total?
    Secretary Babbitt. That is coming in now, sure.
    Mr. Dicks. We do not have, that is the problem----
    Secretary Babbitt. Not entirely. Let me describe a typical 
account for you, and then I am going to remind you that we have 
two pieces of legislation before the Congress to deal with this 
issue. Basically, what happened under the Allotment Act of 
1887, which was designed to break up reservations and convey 
things out, was an allotment was made in, say, 1899, of 40 or 
160 acres to a named member of that tribe. The allotment was 
made.
    Mr. Dicks. Right.
    Secretary Babbitt. It is probably out there, covered with 
cheat grass, in a semi-arid climate in the middle of a railroad 
checkerboard holding or ranch or reservation, in which the 40 
acres literally has no market value.
    That guy who took title in 1899 has had an average of five 
children in four to five generations that have elapsed since 
then. The Bureau of Indian Affairs is stuck with trying to keep 
continuous track of several hundred thousand people who have an 
undivided common interest in that 40 acres, which is worth in 
many cases, nothing, and which under current law cannot be 
alienated in any way.
    In addition to maintaining the records, the Interior 
Department has a probate office which in an average year is 
going to be dealing with two or three probate cases at 
Government expense. It is horrendous.
    There are two pieces of legislation before this Congress. 
One is to deal with what we call fractionated heirships. It is 
intensely complicated. Believe it or not, we were not the first 
ones to try to deal with this. There have been two previous 
attempts, both of which went all the way to the Supreme Court, 
and both of which were invalidated on constitutional grounds by 
the Supreme Court.
    In round three, I think we got it correct, but we need to 
help the Congress in getting it passed.
    We have settlement legislation as well. The first round of 
settlement legislation is directed only at tribal accounts, and 
I think most of the tribes are comfortable with it. There are 
558 recognized tribes. If we could get that passed and in front 
of the tribes, it would really be a tremendous breakthrough, 
because I have told you about 300,000 individual accounts. That 
is on the individual side. Then we have these tribal accounts. 
What we decided to do was break them apart and put up a 
settlement model for the tribal model, which is the easier of 
the two, because there are several hundred.
    It would be really great to get that legislation.
    Mr. Dicks. Is that in the Natural Resources Committee?
    Secretary Babbitt. That is correct, yes.
    Mr. Dicks. Thank you.
    Mr. Regula. Mr. Hinchey.

                      national park service budget

    Mr. Hinchey. Thank you, Mr. Chairman.
    Mr. Secretary, this may have been discussed when I was out 
of the room, forgive me if it was. It has to do just with the 
National Park System. The operations part of your budget 
request this year is up somewhat. But the piece that relates to 
major construction, major maintenance, rather, and 
construction, is down a little bit. We do know of course that 
there is a very substantial backlog of work that is to be done 
in the parks. I am just wondering about the long term plan for 
dealing with that backlog and what we need to do here, and what 
this subcommittee ought to be doing to address that very 
significant problem.
    Secretary Babbitt. Congressman, we worked out with this 
committee a five year plan for construction and maintenance. It 
involves the expenditure of several billion dollars. We worked 
out a whole bunch of criteria and an order ranking system. We 
are on track.
    One of those accounts is down, the construction account, 
but the other side is up, the maintenance side. You have to 
look at both figures together. I think they fit into the five 
year plan. That really is, I think, going to take care of the 
most urgent problems.
    In addition, we have about $140 million a year coming in 
through the fee program, which is available for maintenance and 
repair. About 70 percent of it is being used for that. That 
figure is, I think, going to continue to go up. Now, if we can 
keep these programs on track, I think we are okay.
    The other thing that we should pay attention to, all of us 
together, obviously, is the rise of the National Park 
Foundation. This is serious stuff. If you want to see what they 
are doing, go look at the Washington Monument. That is being 
done off budget, in the private sector, under the leadership of 
the Park Foundation. They are doing a great job.
    Mr. Hinchey. There is some concern with regard to the fee 
schedule and the revenue from the fees that those revenues 
might be used to offset appropriations which would have gone 
for those purposes, and there will be no net increase.
    Secretary Babbitt. It has not happened so far. It really 
has not.
    Mr. Regula. I made a very strong statement during all the 
fee negotiations that we would not use that fee money to offset 
what should be done. I think our budget will reflect that we 
have not done that.
    Mr. Hinchey. Thank you, Mr. Chairman. I did not realize 
that.
    Thank you, Mr. Secretary.
    Secretary Babbitt. It is about time that I visit your 
district. I have not been up there for a couple of years.
    Mr. Hinchey. You had better come back soon, we miss you.
    Mr. Regula. Mr. Nethercutt.
    Secretary Babbitt. Having visited the Chairman's farm in 
recent years, having seen the efforts going on, there are a lot 
of great things in that district. Maybe I should volunteer Mr. 
Nethercutt a visit.
    Mr. Nethercutt. You are always welcome, sir.
    Mr. Regula. I told you, we have not spent a dime in my 
district. What has been spent is private money. [Laughter.]

                         dam removal authority

    Mr. Nethercutt. Mr. Secretary, I want to ask a couple of 
questions to follow up on our prior line of questioning 
relative to dams. I heard you say that you are in agreement 
that it would take Congressional approval to pay for and 
authorize the funding for removal. Would you also agree that it 
is a Congressional decision to approve the removal, not just 
the funding, but the decision itself, of removing those four 
Federal dams?
    Secretary Babbitt. Mr. Nethercutt, that is kind of a 
philosophical question. I had not thought about it. The answer 
is, thinking about it, I do not know. I do not know what the 
laws are. But with all deference, it is a purely abstract 
question, because those dams are not coming down until this 
Congress puts up the money.
    Mr. Nethercutt. I understand the money side of it. My 
question was with regard to the decision itself.
    Secretary Babbitt. You will have to ask the lawyers. I 
honestly do not know.
    Mr. Nethercutt. So would it be your sense also that you do 
not know the answer to whether the President might have the 
authority to remove them by executive order? I assume you would 
defer that or would you be willing to say that the President 
does not have that authority?
    Secretary Babbitt. I just have not entertained this 
question. My ignorance is not to be construed either way. I 
just do not know.
    Mr. Regula. If you will yield, could we get an answer for 
the record?
    Mr. Nethercutt. Sure. That is my next question.
    Mr. Regula. From the legal department.
    Secretary Babbitt. I will--Mr. Chairman, I do not know, I 
will be happy to explore it. I do not know.
    Mr. Nethercutt. You do not know that you can or cannot 
provide an answer, or that you will or will not provide an 
answer?
    Secretary Babbitt. Whether I can or not.
    Mr. Nethercutt. I would ask, just for the record, that you 
do provide an answer, and that with all the good lawyers I am 
sure you have in the Department, that they would be able to be 
responsive to the question.
    Mr. Regula. In exchange for which you will thoughtfully 
consider the Solicitor's budget for the coming year. 
[Laughter.]
    Mr. Nethercutt. Well, I will have to get a legal opinion on 
that.
    [The information follows:]

       Presidential Authority To Remove the Four Snake River Dams

    The four Snake River dams were constructed and are operated 
by the U.S. Army Corps of Engineers under authorizing 
legislation governing that agency; questions regarding that 
legislation should be directed to the Corps. However, after 
consultations with the attorneys in the Department of the 
Interior Solicitor's Office, it is the Department's 
understanding that actual removal of the dams, or significant 
alteration of their physical characteristics, would require new 
Congressional authorization. It is also the Department's 
understanding that Federal law provides authority to modify 
operations of the dams, short of removal or significant 
physical alteration, to meet a variety of purposes and 
statutory mandates, including numerous authorities relating to 
fish and wildlife conservation and restoration. After 
modifications are made, the dams must continue to meet project 
purposes.

    Mr. Nethercutt. Would it be helpful to you, sir, to have 
the Congress pass legislation which would clarify any ambiguity 
that might exist relative to the Department's authority to deal 
with the dams, non-Federal or Federal?
    Secretary Babbitt. No, because what you are going to do is 
stir up a fight, and I will be on the other side. It is a 
purely kind of theological fight. The fate of these dams is in 
the hands of the Congress. Now, if we want to get into a sort 
of abstract fight about authority or hypothetical authority, I 
just do not think it is very productive. I do not see any 
reason to do it.
    Mr. Nethercutt. I am not trying to be hypothetical about 
it, I am trying to be honest and realistic about this. I sense 
a real reluctance on your part to be clear. You are ambiguous 
about what your authority is or what your interests are, or 
what your desires are relative to non-Federal dams. If you do 
not have a problem or any desire or interest or----
    Secretary Babbitt. You are talking about non-Federal?
    Mr. Nethercutt. I am talking about non-Federal dams, I am 
talking about Federal, too.
    Secretary Babbitt. It will take us a hundred years to 
render an opinion. Let me explain why. Every single dam in this 
country, 75,000, has been built at different times under 
different legal regimes with different interaction between 
State and Federal law. There is not even codified general 
reclamation laws. You could start into the reclamation laws, 
and you will go crazy after you have read non-stop for two 
years. The answer is, there is not going to be an answer. I did 
not realize you were talking about non-Federal. It is 
impossible.
    Mr. Nethercutt. I am talking about both, Federal and non-
Federal.
    Secretary Babbitt. That will take, now that I think about 
it, look at the reclamation laws. Incredibly enough, there is 
no organic act for the Bureau of Reclamation. None, zero. You 
want to know about the authority of the Bureau of Reclamation? 
Have fun. Because it is embedded in a separate statute, over 
100 years for virtually every dam.
    Now, that does not even get you to the Corps of Engineers. 
I do not know if they have an organic act which deals with 
these issues. I do not have any idea.

                     ducks unlimited representative

    Mr. Nethercutt. Well, I appreciate your doing your best to 
provide us with a response. Let me ask you, in terms of 
responses, I wrote you a letter a couple of months ago 
regarding a decision at the time by the Director of the Fish 
and Wildlife Service not to reappoint a representative of Ducks 
Unlimited to the North American Wetlands Conservation Council. 
I understand that the Director has since reversed her decision 
and will reappoint the most successful member of the council.
    Do you have any objection to appointing a Ducks Unlimited 
member to that board, especially since Ducks Unlimited has 
contributed a lot of money over the years to enhance or acquire 
habitat? Do you have any problem with that?
    Secretary Babbitt. Mr. Congressman, it is my understanding 
that that representative has in fact been reappointed.
    Mr. Nethercutt. And you are satisfied with that?
    Secretary Babbitt. Well, we could have a theological 
discussion about that, because it is a serious, serious problem 
under this issue of the North American Wetlands Conservation 
Council. If you want to discuss it, I would be happy to discuss 
it. Here is the issue. Since the North American was set up, it 
has been hugely successful, and it was done with Congressional 
legislation.
    I have been advised by the lawyers that the statute setting 
it up clearly contemplated that the two seats in this category 
would be rotated among different groups in the waterfowl 
conservation community. There is a long line of them, and they 
are effectively being frozen out by advocates who want to 
transform that statute, with its premise of diversity and 
rotation, into a vested seat for one or two organizations.
    That was not the intention of the statute, and frankly, 
that representative was reappointed because of Congressional 
pressure. I frankly think it would be much better simply to 
amend the statute, because that was not the intention. We caved 
in to a national lobbying campaign from Ducks Unlimited. We 
caved.
    Mr. Nethercutt. You do not have any problem with Ducks 
Unlimited, do you, in terms of their mission and the 
suitability for them to be on this board, do you?
    Secretary Babbitt. The statute contemplates rotational 
representation. The Nature Conservancy accepted that argument 
in graceful and forthright fashion.

                      caspian terns and sea lions

    Mr. Nethercutt. Well, that is great, and I commend them for 
it. I think the representative will be fine.
    Let me ask you a question about the issue of Caspian terns 
and sea lions. They are predators of juvenile fish at the mouth 
of the Columbia and cause estimated mortality on the smolts 
that come through the system of about 25 percent. That is what 
I understand. What is U.S. Fish and Wildlife Service doing 
about that aspect of salmon recovery, to your knowledge or at 
your direction?
    Secretary Babbitt. Sea lions belong to the National Marine 
Fisheries Service. With respect to Caspian terns, there are a 
variety of strategies that are being worked upon.
    Mr. Nethercutt. Like what?
    Secretary Babbitt. There was a discussion among the 
biologists of some theory that they could set up 
someinducements to relocate them.
    Mr. Nethercutt. I think that is advisable, given the 
mortality rate and the record on the river system of recovery. 
I do not think it can be ignored. It sounds like the Fish and 
Wildlife Service and I hope National Marine Fisheries Service 
is looking at that as an option for increasing recovery 
efforts. I take it you would support that.
    Secretary Babbitt. National Marine Fisheries Service is 
looking at the problem. Fish and Wildlife Service is looking at 
the problem.
    Mr. Nethercutt. You are satisfied that they are looking 
adequately?
    Secretary Babbitt. Yes.
    Mr. Nethercutt. No more questions. Thank you.

                     reordering funding priorities

    Mr. Regula. Thank you, Mr. Secretary. Mr. Kingston, I am 
going to have you take the chair as soon as I give a comment 
and question. Then you can finish up and adjourn the meeting.
    The Lands Legacy Initiative. As you know, this is 
predicated on a very substantial bump in the amount that we 
have available. Just as a comment, we checked it out and every 
State has surpluses. Alaska has 300 percent of their annual 
budget in the treasury, as surplus.
    I have a little problem of saying that we are going to take 
the Federal taxpayers dollar to give to the States and/or the 
local communities, when we have these billions in backlog 
maintenance, when we have inholdings that we should purchase as 
they come available, when we have things like the CUT Ranch 
that need to be added to the land base to enhance an existing 
facility.
    As a policy matter, to send money out to States that are 
already flush, and we have the list here, and it is surprising 
how flush they are, does not make a lot of sense. Now, it might 
be all right if we had a lot of money. But that is just an 
editorial comment.
    What I really wanted to say, and by the way, I want to 
commend you for your efforts on the Indians. That problem has 
been around for a long time. I think you are making a good 
faith effort to try to resolve it, and we will support you in 
any way we can. This is extremely difficult.
    We are going to get a 302(b) allocation here at some point, 
which will be the real world in terms of what we have 
available. What I would like to do is come back to you at that 
point and say, given the real number that we have to work with, 
what are your priorities. Because I am sure that establishing 
priorities in light of what the President is talking about in 
terms of dollars will be somewhat different than they will be 
if a 302(b) allocation is substantially less. And of course, 
the issue of caps gets injected into this whole equation.
    I would like to get back to you. We are interested in 
knowing what your priorities are. You are responsible directly 
for the management of this Department, and we want to work with 
you to manage it in the best way possible, so that we can leave 
a good legacy for future generations. Would that be agreeable 
to you?
    Secretary Babbitt. Mr. Chairman, I understand the dilemma. 
I am here to work together. I recognize that the President's 
budget and the way that it deals with the caps and the offsets, 
and the issue of the 302(b) allocations, are above my pay 
grade, and at least partially beyond your control, although I 
suspect you are a member of the cardinals who----
    Mr. Regula. Ultimately, we do not have a lot of say, 
because the Chairman of the full Appropriations Committee has 
to make the call. He has 13 subcommittees, and he has to start 
out with what the Budget Committee does. It is beyond the 
control of both of us.
    But I still remember the picture in the Post of Speaker 
Gingrich, President Clinton, John Kasich all embracing each 
other about this great balanced budget, which is predicated on 
the caps. So we have to have some adjustment in thinking.
    Secretary Babbitt. I understand.
    Mr. Regula. Ultimately, when we get a number we know we 
have to deal with, I would like to come back to you and say, in 
the real world, what are your priorities. They may not be 
identical to ours, but at least we want to cooperate and 
communicate and do what we hopefully can agree on is the best 
thing to do with what we have.
    Secretary Babbitt. I believe we have had some success doing 
that in the past.
    Mr. Regula. Yes, we have.
    Well, it has been a good hearing, and I will let Mr. 
Kingston finish it up. We have to deal with some other 
problems.
    Mr. Kingston [assuming chair]. Thank you, Mr. Chairman.
    Mr. Hinchey, do you have any other questions?
    Mr. Hinchey. I am just here to keep you company. 
[Laughter.]

                           ideas on easements

    Mr. Kingston. You would not be keeping your eye on us, 
would you?
    Mr. Secretary, to get back with you a little bit on my 
previous question, I do not need anything right now, but I 
would love a letter from you or someone in your Department with 
your ideas on easements as an alternative to Federal purchasing 
of lands and State purchasing of lands, easements or tax 
credits.
    Secretary Babbitt. I would be pleased to do that. We have 
given this a considerable amount of thought, and I would be 
delighted to do it.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Kingston. Also, the situation similar to Okefenokee or 
Headwaters, I would love to have an idea of what else we could 
do. Because I see that reoccurring. You put it, I like the way 
you said it, having a barbecue and sending the tab to another 
group.
    Secretary Babbitt. I am not sure there is much I can give 
you in the way of additional illumination on that. It is 
basically a political problem that we all deal with. I can give 
you a lot of stuff that hopefully will be illuminating on the 
other issues, on the easement and tax credit stuff.
    Mr. Kingston. Well, that is a bigger issue for me anyhow.

                           amphibian problem

    Another issue, the situation with frogs, is this not a 
broad amphibian problem?
    Secretary Babbitt. Yes.
    Mr. Kingston. So it affects salamanders and toads?
    Secretary Babbitt. Yes.
    Mr. Kingston. What is being done about it research-wise? 
And you say it is more on the west coast than the east coast?
    Secretary Babbitt. No, it is all over. The original 
discoveries of the problem occurred in Minnesota. There is 
documentation of some of these issues among salamanders in the 
Great Smoky Mountains, which is sort of the center of 
salamander diversity on the whole continent. There are problems 
there as well.
    It is in different species in different forms. It is 
nowworldwide. It is extremely puzzling. We have lost apparently through 
extinction a number of species in Puerto Rico. Costa Rica is especially 
hard hit. It is not entirely clear whether that is because there is 
more knowledge about Costa Rica or whether there is something special 
going on in Costa Rica. There is a huge center of decline and 
extinction in Australia. We have had a couple of conferences to discuss 
the research that is going on. It is kind of widespread. There are a 
lot of university centers involved in this.
    The National Science Foundation is going to have a 
conference related to the overall funding of the efforts and 
coordination some time I think in April or May.
    Mr. Kingston. Let me ask you this, the reason I am 
mentioning this, I am not an amateur herpetologist, but that 
was my passion growing up, reptiles and amphibians. I noticed 
living in lowland Georgia, and you probably know, shrimp 
populations actually are tied into the amount of rainfall. 
Because it affects the salinity in the water.
    I have often thought the same with a frog population, tree 
frogs or toads, which seem to explode with rain and then they 
disappear for a year or two and then they are back. Has anybody 
looked at maybe like a hundred year cycle of population? Would 
this be a natural cycle? Do we have any idea?
    Secretary Babbitt. It is a good question. Because 
amphibians, like other species, tend to go up and crash for 
exactly the reasons you suggest. They are uniquely susceptible 
to moisture and weather conditions, so you get these huge 
spikes.
    It could explain local problems, but for the following. It 
clearly does not explain the spasm in extinctions. Because when 
something has been around for a couple million years or more, 
and all of a sudden, they are blinking out along a short 
timeframe, that is suggestive of a problem. You have this 
worldwide phenomenon.
    You also have this deformity problem, which has been 
documented now in Minnesota and California and other places. 
There is something in the developmental phase of these 
amphibians. They soak up everything. You know how they breathe 
through their skin. They are really sensitive.
    Somebody give me the name of the chemical that is in these 
development phases? [Silence.] They have actually isolated a 
particular hormone, which when it occurs in excess in any 
mammal species, creates really serious developmental defects, 
including humans. But it is a part of the natural endocrine 
cycle.
    Lastly, let me just say that you should have a look, in 
response to duration of the cycles, at the stuff from the 
Sierra Nevada in California. It is most interesting. In 
Yosemite, some guy was out there about 100 years ago doing 
baseline studies. They have been done with sphere consistency 
ever since. The yellow legged mountain frogs are disappearing.
    In addition to it, the scientists are finding there is a 
pattern to the disappearance. It is on the west side of the 
Sierra Nevada where Yosemite is, but not yet on the east side. 
The hypothesis now gaining some support is that this is an 
airborne deposition of the secondary and tertiary aerial 
products of pesticides from the central valley. It has a long 
way to go.
    Mr. Kingston. My question in terms of maybe bringing it 
back home, it has struck me that there are less in our area 
than there used to be. And again, I have only been aware of it 
because during my life I have collected them and released them 
properly, of course. [Laughter.]
    I will say, there are still some in my collection that did 
not make it through my childhood with me. But to find out more 
about it, this is where I am interested, in terms of either 
grant opportunities for universities or funding opportunities 
for research, I would like to see something done in our area to 
determine what is going on in our area. I do just know that 
there are fewer toads than there used to be.
    Tree frogs, we still seem to have plenty of them, in my own 
scientific approach here. But I may be totally wrong on that.
    But I would be willing to certainly bet lunch over it. 
Because I have been aware of this for a couple of years, and I 
think they actually started this in South America, did they not 
first notice this?
    Secretary Babbitt. In Central and South America, that is 
correct.
    Mr. Kingston. So how can I raise the visibility on this 
issue in my area?
    Secretary Babbitt. Congressman, this is kind of an 
unprecedented thing here. I must tell you, you are the first 
member of Congress that I have dealt with in seven years who is 
passionate about amphibians.
    Mr. Kingston. I really like snakes better. [Laughter.]
    Secretary Babbitt. Very interesting.
    Mr. Kingston. I would be a Republican.
    Secretary Babbitt. Now, I have two suggestions. One is, do 
not bet a lunch, but commit to a lunch with me and a guy named 
Gary Fellers from the Geological Survey. We will invite you out 
to lunch. We will even come and have lunch with you, and we 
will bring our charts. These guys will be so damned glad. You 
may live to regret this before it is all over. [Laughter.]

                               monitoring

    Number two, and seriously, yes, there are a couple of 
things this committee can do that are very reasonable. The 
first is, monitoring. Baseline studies. This is a proper 
function of the Geological Survey, to make sure that we are out 
there doing the work that will add up in the future to a 
profile that screens out these normal population fluctuations 
and gives us some better data.
    A modest amount of money to make competitive grants to fill 
in areas where there is not enough going on. It is still fairly 
basic stuff, and this is really looking at these developmental 
issues, and the endocrine cycles, and all that type of thing. 
It would be very helpful.
    Mr. Kingston. Well, it really has to affect the food chain. 
Because the reptiles that eat the amphibians and the raccoons, 
it seems like at this point, there would be another species 
that has been affected by this.

                          historic structures

    Let me switch gears with you, and I will look forward to 
lunch or whatever. You have for historically Black colleges and 
universities $6.6 million. I think that is very good, because 
so many of those early buildings were actually built by the 
students, and it is good. But there are other structures that 
are on the historic register that, how are we going to 
distinguish between Black colleges and universitiesand other 
historic treasures?
    One of the questions, for example, is Black churches. Many 
of the Black churches are 150 years old, and at this point long 
overdue for renovation. Maybe they were rebuilt in the 1920s or 
so. And there are a lot of them that do need some funding 
assistance, because they have, just quite frankly, 
economically, they do not have the membership that can raise a 
half million dollars to rebuild the church right now. I have as 
recently as this week met with our NAACP director about this.
    So I know it is a real problem. I guess there are two 
questions. What about other historic treasures in general, and 
then specifically Black churches?
    Secretary Babbitt. The issue with Black churches I think is 
First Amendment. We can provide you some material on it. It is 
a substantial----
    Mr. Kingston. Even if it is an historic building?
    Secretary Babbitt. Yes, it really is.
    Mr. Kingston. Is that true for all grants? There is no way 
they could get----
    Secretary Babbitt. As a starting position, the answer to 
that is yes. There are a few niches here and there, but 
basically the line is fairly clear. If the Old North Church is 
no longer owned by a congregation and used by a congregation, 
that is a different story. But you can see that you have this 
establishment problem, if in fact there is a congregation 
beneath it.
    We have dealt with that issue at the Martin Luther King 
memorial in Atlanta. This is a really interesting one, and 
perhaps we can talk about it. The historic block that we have 
worked with in Atlanta has the Ebenezer Baptist Church on the 
corner. I think finally what we did was struck a deal with the 
congregation that they are going to go build a new church and 
move their entire congregation there. The Ebenezer Church then 
becomes an historic property exclusively.
    Mr. Kingston. As civil rights history gets more written 
into books and becomes more academic than mouth to mouth, 
generation to generation pass on, we have a lot of very 
historic Black churches that will need money in the future. But 
essentially because they are operating churches, they will not 
be eligible.
    What about other structures, 800,000 pieces of property 
here and there?
    Secretary Babbitt. We have a section in the National Park 
Service, a historic preservation section. They put out a lot of 
criteria, and there is some amazing amount of scholarship on 
this. I always thought history was kind of in the eye of the 
beholder. No way. There is a whole industry dedicated to all 
this, led by or at least with the Park Service deeply involved.
    When it comes to the allocation of funding against sort of 
an infinite extension of possibilities, it is frankly a 
judgmental kind of thing. Congressional committees respond to 
shifting concerns among the professionals, among members of 
Congress, and allocate on that kind of basis, as a practical 
matter. The Chairman, for example, is particularly proud of 
President McKinley. We have been swift to do everything we can 
to help with the historic preservation of the McKinley home in 
Ohio. He is not my favorite president, but he was not a bad 
guy. [Laughter.]
    Mr. Kingston. If I were you, my favorite President would be 
the one who offered me the job. That is how I view history.
    Mr. Hinchey.
    Mr. Hinchey. I am very much entertained by the process. 
[Laughter.]
    Mr. Kingston. Well, that is it for me, Mr. Secretary.
    Secretary Babbitt. Oh, no, it is not. I will look forward 
to lunch. [Laughter.]
    Mr. Kingston. Thanks a lot. We are officially adjourned.
    [The following questions and answers were submitted for the 
record:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



=======================================================================


                       Department of the Interior

                       Bureau of Land Management

=======================================================================

      
                                           Thursday, March 4, 1999.

                       GENERAL ACCOUNTING OFFICE

                         MITRETEK SYSTEMS INC.

                       BUREAU OF LAND MANAGEMENT

                               WITNESSES

JOEL C. WILLEMSSEN, DIRECTOR, CIVIL AGENCIES INFORMATION SYSTEMS, GAO
DAVID GILL, ASSISTANT DIRECTOR, CIVIL AGENCIES INFORMATION SYSTEMS, GAO
MICHAEL KIRKLAND, SITE LEADER FOR BLM, MITRETEK SYSTEMS INC.
TOM FRY, DIRECTOR, BLM
NINA ROSE HATFIELD, DEPUTY DIRECTOR, BLM
LAWRENCE BENNA, BUDGET OFFICER, BLM
    Mr. Regula. We will get the hearing started. I thank all of 
you for coming. Our first witnesses will be Mr. Joel Willemssen 
from the General Accounting Office, and with you are Dave Gill, 
and Michael Kirkland from Mitretek.
    Mr. Willemssen. Yes, sir.
    Mr. Regula. Okay. We will have your testimony first, Mr. 
Willemmsen. Your full statement will be made part of the 
record. You can summarize as you choose.
    Mr. Willemssen. Thank you, Mr. Chairman, Mr. Ranking 
Member. Thank you for inviting us to testify today on BLM's 
Automated Land and Mineral Record System, also known as the 
ALMRS/Modernization project. As requested, I will briefly 
summarize our statement.
    BLM has spent over 15 years and estimates it has invested 
over $400 million in planning and developing this project. 
However, the major software component of the modernization, 
known as the Initial Operating Capability, or IOC, still does 
not work. Despite the promise of IOC to significantly improve 
business operations, repeated problems with its development 
over the last several years have prevented its deployment to 
the field.
    For example, testing in October of 1998 showed major 
problems such as very slow response time for system users. 
Because of the significance of these problems, BLM has now 
decided that IOC cannot be deployed to the field.According to 
BLM, it obligated about $411 million on ALMRS between 1983 and 1998, of 
which more than $67 million was spent to develop IOC. The $67 million 
does not include IOC costs that are part of other cost categories.
    We have previously reported on the significant problems and 
risks that BLM has encountered on this project. For example, 
BLM did not develop a system architecture or a concept of 
operations, which increased the risk that this project would 
fail. In addition, BLM has never had a credible project 
schedule, reliable milestones, or a critical path to manage the 
development of the project.
    At this point in time, BLM has made an enormous investment 
in software that does not meet its business needs. At the same 
time, BLM lacks assurance that future information technology 
efforts will not result in similar failures.
    Given this, what should BLM do now? We offer a few 
suggestions.
    First, BLM must thoroughly analyze the software developed 
to date to determine if it can be modified to any extent to be 
beneficial to users. This analysis should be part of an overall 
effort to identify and assess viable alternatives, including 
using or modifying existing software, modifying existing land 
systems, acquiring off-the-shelf systems, or developing new 
systems. This analysis should clearly identify the costs, 
benefits, and risks of these alternatives and should be 
performed only after BLM has fully verified its business 
requirements.
    Second, BLM needs to implement sound investment management 
and system acquisition practices. Senior agency officials 
acknowledge that BLM needs rigorous and structured processes to 
analyze its information technology investments. Without such 
processes in place, BLM cannot be assured that future 
technology investments will be properly selected, managed, and 
evaluated using sound criteria.
    BLM also needs an independent assessment of its system 
acquisition practices. Defined and repeatable processes for 
acquiring software are critical to an organization's ability to 
consistently deliver high-quality information systems on time 
and within budget.
    Before embarking on another large system development 
effort, BLM needs an assessment of its capabilities in these 
areas.
    That concludes the summary of our statement, and I would be 
pleased to address any questions you may have.
    [The statement of Joel Willemssen follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Regula. Thank you.
    Mr. Gill, are you going to testify?
    Mr. Willemssen. He will be accompanying me.
    Mr. Regula. All right.
    Mr. Kirkland.
    Mr. Kirkland. Mr. Chairman and members of the subcommittee, 
I thank you for the opportunity to testify today on behalf of 
Mitretek Systems. I ask that my full written statement be 
included in the record.
    The enclosed testimony contains Mitretek Systems' final 
assessment of the Bureau of Land Management Automated Land and 
Mineral Record System, ALMRS. In mid-1995, Congress directed 
BLM to acquire the services of an Independent Verification and 
Validation contractor, an IV&V contractor. In August of 1995, 
Mitretek was tasked with that responsibility. An integral part 
of our IV&V task was the conduct and analysis of an Operational 
Assessment Test and Evaluation that took place in September and 
October of 1998, and it demonstrated that ALMRS was not 
deployable.
    This assessment focuses on why ALMRS was not successful and 
provides recommendations for future project efforts by BLM. 
Many issues that are raised in this assessment are currently 
being addressed by the Bureau of Land Management, and the 
purpose of this assessment is to describe the leading causes 
for the failure of ALMRS. It is not a review of any current BLM 
activity.
    In summary, the ALMRS development effort is similar to that 
of many other large and complex information systems undertaken 
by Government agencies in the late 1980s and early 1990s. ALMRS 
was conceived in an era that placed strong emphasis on 
standards and software engineering principles and relied on new 
technologies, such as client/server architecture, relational 
databases, and geographic information systems. Many of these 
large projects, including ALMRS, failed.
    The following are the primary reasons why the decision was 
made not to deploy ALMRS: ALMRS was difficult to use and labor-
intensive; the value to the users was limited; the system was 
poorly integrated into BLM's business processes; response time 
was too slow; the project was late and not complete; 
maintenance and operations of the system, had it been deployed, 
would have been difficult and costly; and ALMRS did not keep up 
with the evolution of technology and user expectations.
    The root causes of the deployment problems include many 
engineering and programmatic decisions that were made over the 
course of the project, and the following are problems we 
believe to be key contributors to the failure of ALMRS: over-
optimistic project scope and project schedule; impractical 
technology selection; high-risk technology elements; misfocused 
requirements and contractor guidance; misapplication of the 
traditional ``waterfall'' development methodology; lack of 
conventional project management practices; limited user 
involvement in the development process; inadequate response to 
project slips, problems, and oversight concerns; and inadequate 
testing.
    Also contributing to the failure is a set of underlying 
environmental factors that influenced and affected how the 
ALMRS project was managed and developed: lack of large-scale 
information technology experience and expertise with these key 
technologies; prevailing focus of the late 1980s and 1990s on 
large-scale integrated projects; and the BLM project management 
style.
    Future BLM projects may encounter the same problems and 
results if the underlying environmental factors are not 
addressed. BLM has initiated several activities that will 
mitigate these problems if successfully completed.
    Based on the enclosed assessment, and without evaluation of 
BLM's current progress, Mitretek recommends the following 
courses of action: adopt an evolutionary, incremental approach 
for project definition and management; establish a clearly 
defined management structure for information technology 
projects with accountable responsibilities; augment the current 
program office with experienced information technology 
professionals; and ensure that theprogram office has expertise 
to perform systems engineering and integration activities, requirements 
analysis and business process engineering, and quality assurance.
    Also submitted with this statement is our more detailed 
assessment of ALMRS, which provides further discussion of the 
above causes and contains a more comprehensive list of 
recommendations for future projects.
    Mr. Chairman, this concludes my statement. Mitretek would 
be pleased to answer any questions you might have.
    [The statement of Michael Kirkland follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Regula. Thank you. Was there anything good about ALMRS?
    Mr. Kirkland. The people--the Bureau of Land Management 
professionals that worked so hard to try to make it work. When 
we were in New Mexico during the testing period in October and 
November--or September and October of 1998, as we began to 
discover and the users began to see how difficult the system 
was to use, it was very important that they capture all that 
information in written form so it could be analyzed later. It 
was like bumping your head against the wall, and every day you 
would ask them to do it again, and every day they did it again.
    Mr. Regula. The professionals?
    Mr. Kirkland. The professional users, the individual men 
and women in the field who were participating in this task. 
There were about 80 from all over the Bureau of Land 
Management. So that was certainly positive.
    Mr. Regula. Was this a poor choice of systems initially?
    Mr. Kirkland. There were some problems in system selection 
in the beginning, yes, sir. The UNIX platform, at the time that 
it was chosen for desktops, was probably only found in 
laboratories of academic situations. The servers are still a 
good choice, but the desktop systems--because the Bureau made 
their purchases very early--need to be replaced now in the 
Windows environment, which is where all the money is being 
spent and all the attention is being paid. UNIX platforms are 
poorly supported by the developers.
    Mr. Regula. Is this a brand?
    Mr. Kirkland. No. UNIX is a system. Like Windows is a 
system, UNIX is a system.
    Mr. Dicks. Is that software?
    Mr. Kirkland. No, sir. That is the hardware platform.
    Mr. Regula. Are there any performance warranties that would 
back this up by the vendor?
    Mr. Kirkland. No, sir, not that I am aware of.
    Mr. Regula. Did BLM gain any benefit from the ALMRS/
Modernization? Is it still useful?
    Mr. Kirkland. Well, they gained a lot of insight into a way 
not to do things in the future. They have an infrastructure in 
place in the field. All the BLM users now have desktop 
capabilities for word processing, e-mail, et cetera. It is a 
pretty expensive price tag to pay for an e-mail capability, 
but, nevertheless, there is some capability out there in the 
infrastructure and the architecture.
    Mr. Regula. So for $400 million, there is not a lot of 
value going to grow out of that expenditure that you can 
identify.
    Mr. Kirkland. You say there is not a lot?
    Mr. Regula. Yes.
    Mr. Kirkland. In our opinion, no, sir. The test 
demonstrated that ALMRS didn't provide any value-added to the 
Bureau of Land Management.
    Mr. Willemssen. If I may, Mr. Chairman, there also were 
some data cleanup activities that BLM undertook as part of the 
$400 million that was spent, and those have been beneficial to 
BLM in addition to the infrastructure and office automation 
items that were mentioned.
    Mr. Regula. If you are in charge, what is the remedy?
    Mr. Willemssen. The remedy right now, first of all, is look 
at the existing failed software that was developed and see if 
there is anything that can be salvaged from that; rather than 
totally throwing it away, a quick analysis of that software to 
see if, indeed, there is something of value here.
    Secondly, before embarking on another major system 
development effort, and linking in with what Mitretek said, 
make sure that BLM has the system acquisition capabilities to 
pull this off.
    Mr. Regula. Meaning the knowledge to get the right system 
in place.
    Mr. Willemssen. Knowledge, experience, and processes for 
acquiring major software-intensive systems. Right now there are 
obviously many questions about whether that capability exists.
    Mr. Regula. Was this system proposed to go throughout the 
BLM, to be a systemwide program?
    Mr. Willemssen. Yes, it was intended to go to all the 
offices throughout the country.
    Mr. Regula. Mr. Dicks.
    Mr. Dicks. Who are the vendors here? Who are the companies 
that are responsible for this?
    Mr. Willemssen. Computer Sciences Corporation was the prime 
contractor. I believe the contract was awarded in 1993, and the 
contract was allowed to expire within the last couple months.
    Mr. Dicks. And there is no legal remedy here, do you think, 
for failure to provide adequate equipment? No contracts here at 
all?
    Mr. Willemssen. Well, when you look at it, CSC would argue 
that they have built, in terms of writing of software, exactly 
what the BLM requirements were. Those requirements were very 
detailed, very specific. So I think that would not be an open-
and-shut case. I think there would be a lot of discussion about 
it because it is not just the contractor at blame here. There 
is also blame at the agency level in terms of the requirements 
that were developed and whether, indeed, they were really 
addressing their key business functions.
    Mr. Dicks. So you are saying that what wasacquired--they 
set the specs for it. But if it didn't work, I can't imagine that they 
would acquire a system that didn't work.
    Mr. Willemssen. It didn't work as expected with the kind of 
performance. One thing you have to keep in mind is that this 
project is 15 years in the making. At various points in time 
throughout the life of the project, different BLM officials 
defined the project differently. It was never clear at many 
points in time exactly what this was. Then over time it became 
somewhat of an add-on for many other projects. Over time BLM 
lost sight of exactly what it was we were trying to improve 
from a business perspective. As Mitretek saw when they were 
looking at the testing, indeed, much of the functionality of 
this particular software did not help individuals do their 
jobs. It actually was an add-on to their job. It took more time 
than the existing systems.
    So, again, I think your point is right on, but I don't know 
that it would be a black-and-white issue of assigning blame to 
the contractor.
    Mr. Dicks. I understand that there were a number of other 
vendors besides Computer Science Corporation. Is that right?
    Mr. Kirkland. There were at least two or three others, yes, 
sir.
    Mr. Dicks. Could you give us the names of the major 
vendors?
    Mr. Kirkland. Informix was the database vendor. IBM was the 
hardware vendor. ESRI, which produces geographic information 
system software, was also a vendor, a subcontractor to CSC.
    Mr. Regula. Would you yield?
    Mr. Dicks. Yes, I yield.
    Mr. Regula. Would there be any one company that would be in 
charge, be at the top of the pyramid that would be held 
accountable, or would you say that the general contractor, in 
effect, was BLM?
    Mr. Kirkland. I think the general contractor was BLM. CSC 
was the prime contractor; the Bureau of Land Management was the 
general contractor.
    Mr. Regula. So these vendors that Mr. Dicks----
    Mr. Dicks. It sounds like the B-1 bomber. The Air Force was 
the general contractor.
    Mr. Moran. I don't think you want to go there, Norm.
    [Laughter.]
    Mr. Dicks. Well, with about the same result.
    Mr. Regula. These contractors are operating under the 
supervision of BLM. So, in a sense, responsibility ultimately 
has to rest with BLM for the failure of the system. Is that a 
fair statement?
    Mr. Kirkland. Absolutely.
    Mr. Willemssen. I think that is a fair statement.
    Mr. Dicks. And when did this start, 1982?
    Mr. Willemssen. Approximately 1983, some of the initial 
planning.
    Mr. Dicks. And when were the major expenditures made?
    Mr. Willemssen. Major expenditures were, for the most part, 
probably made in the late 1980s and early to mid-1990s. I know 
that when we initially got involved in this project in the 1995 
time frame, at that point in time a little less than $300 
million had already been spent, obligated. As we know, at this 
point in time it is around $411 million. So many of those 
expenditures and obligations were already in effect at that 
time.
    Mr. Dicks. Mr. Kirkland, you were asked to take an 
independent look at this. Is the BLM just incompetent to do a 
project like this? Do they need to hire somebody outside as a 
prime contractor if they are going to try to do something like 
this in the future?
    Mr. Kirkland. They certainly need that kind of help. Yes, 
sir. The BLM----
    Mr. Dicks. Not to be the prime contractor themselves?
    Mr. Kirkland. No. They need a program office that is headed 
by a member of the Bureau of Land Management. But they need 
expertise in information technologies. That is not an organic 
capability to the Bureau of Land Management. That is not what 
they do. And they don't have that kind of competent, technical, 
developmental capability in the Bureau. And I think they 
realize that. I think that it is unfortunate that we are at 
this point in this project. As we talk to and provide our 
input, our independent assessment to Mr. Fry, the Director, and 
his assistant directors, they understand that the job is larger 
than they can comprehend from a technical standpoint.
    Mr. Dicks. Have you looked at other agencies of the 
Government? Has anybody done this successfully?
    Mr. Kirkland. Well, unfortunately, in the 1980s and 1990s, 
in these huge monolithic systems, there aren't very many 
success stories, no, sir. That is why we recommend and have 
recommended for some time, why the industry recommends more of 
a build a little, test a little, build a little approach.
    Mr. Dicks. Off the shelf?
    Mr. Kirkland. As much as possible, yes, sir. The Bureau of 
Land Management and CSC spent a lot of money trying to develop 
an ad hoc reporting capability. Most projects would have bought 
that off the shelf.
    Mr. Dicks. In other words, you could have bought something 
like this that would have done what they wanted done, off-the-
shelf systems that would have worked?
    Mr. Kirkland. I am not sure that it is that simple, sir, 
but certainly it could have been done in a much more 
incremental manner. The problem with ALMRS was that it was this 
long straight line. It was this monolithic system.
    Mr. Dicks. You say ALMRS. This is their phrase, their 
acronym.
    Mr. Kirkland. Yes, sir. Automated Land and Mineral Record 
System.
    Mr. Dicks. And basically you are saying it has failed, $411 
million has been wasted, and we have got to start over?
    Mr. Kirkland. Well, wasted--again, based on the question 
that I was asked by the chairman before, there are some root 
capabilities that are provided in the system. But does ALMRS 
work? Is it usable in the field? No.
    Mr. Dicks. So most of the $411 million is gone, in other 
words, will not--we are going to have to start over and go out 
and procure something to replace it because it has failed. Is 
that right?
    Mr. Kirkland. Yes, sir.
    Mr. Dicks. Thank you, Mr. Chairman.
    Mr. Regula. What you are saying is that the technology was 
not up to the mission?
    Mr. Willemssen. Before starting on this monolithic project, 
which was a creature of the late 1980s, early 1990s in the 
Federal Government, BLM didn't stand back and say toitself: 
What exactly do we want to accomplish from a business perspective? How 
do we want our workers to do their job quicker, better, easier? And how 
can we use technology to do that? And you really have to answer those 
questions before you take off after a major information technology 
project.
    Mr. Regula. Most of this hardware is sitting idle in 
offices around the field?
    Mr. Kirkland. No, sir.
    Mr. Regula. What has happened to it?
    Mr. Kirkland. It is the desktop. It is being used for 
office automation, e-mail, spread sheets, local----
    Mr. Willemssen. That is why there isn't a total waste. When 
we discussed earlier about the $411 million being a total 
waste, there is some value there. Obviously there is some waste 
in that $411 million, but it wasn't a total waste. There is 
some hardware capability, some office automation, and, as I 
mentioned, some of the data cleanup activities.
    Mr. Regula. So there is a possibility of redemption?
    Mr. Willemssen. Some level of redemption, but probably 
minimal redemption on the software.
    Mr. Regula. Staff says that the estimate is that the loss, 
the real loss in dollars, is $150 to $200 million because of 
the salvage value that you are talking about.
    Mr. Willemssen. That estimate is probably pretty close to 
being right on target.
    Mr. Regula. Are they in the process now of trying to take 
what is there to salvage and making it work? Or do they have to 
step back and take a fresh look?
    Mr. Willemssen. More of the latter, but included in that 
stepping back and taking a fresh look, is there anything we can 
salvage out of this software, which was almost a million lines 
of code, rather than totally throwing it away.
    Mr. Regula. Mr. Nethercutt.
    Mr. Nethercutt. Thank you, Mr. Chairman. Welcome, 
gentlemen. I am not an apologist for BLM, but when I look at 
what has happened in the computer industry from 1983 to 1998, 
there have been multiple changes. I know from my own family, 
you buy a computer and, a year later it is out of date. I think 
I would agree with you there has probably been a lack of long-
term planning that makes some sense or more instrumental 
planning to try to build in when there are technology 
improvements. In the last few years what have they done or not 
done relative to try to make sure they have a system that 
works? I see in the testimony senior BLM officials say they are 
performing an analysis to determine whether ALMRS failed to 
meet users' expectations of the critical business requirements. 
At this point, what are they doing? How much does it cost to 
fix the problem if you did that analysis?
    Mr. Willemssen. Yes, we did. In fact, one thing we would 
reiterate to BLM officials is not embark on any major system 
development effort at all until some of the issues that we have 
talked about have been addressed; that indeed they have the 
capabilities to do this. Secondly, whatever they do embark on 
should be a smaller, modular approach rather than this 
monolithic approach of getting one massive system to solve all 
of our needs. We have to think more incremental, small piece, 
small chunk, and the benefit associated with that so that we 
don't have these huge costs, the huge timeline, and then as you 
mentioned, technology becomes obsolete.
    Mr. Nethercutt. I don't quarrel with you on that. Is there 
a critical time when this decision should best have been made? 
Was it in 1993? I see this segment of 1983 to 1998, and I think 
there was another mention of in 1993 something happened. Would 
that have been the time to just say, wait a minute, let's not--
--
    Mr. Willemssen. That would have been the time, especially 
from the perspective of BLM not clearly understanding what they 
were trying to achieve from a business perspective. When this 
subcommittee and GAO got involved in 1995, as I mentioned, 
obviously at that point in time there had been a significant 
amount of resources expended on this project. So we thought an 
appropriate risk reduction technique should be undertaken. That 
is, before you deploy this system nationwide, get an 
independent verification and validation contractor, Mitretek, 
to make sure that the system is going to work as intended, so 
that we don't proliferate this system throughout the country if 
it doesn't work.
    In fact, that risk reduction technique has worked out 
appropriately in that it has been stopped before the system was 
sent to all the offices across the country.
    Mr. Nethercutt. Speaking as one who serves on the Ag 
Subcommittee and the Defense Subcommittee, this is not unlike 
the problems that occur in the Department of Agriculture, in 
terms of trying to have a system that one office can talk to 
another. What do you expect the cost will be to fix this 
problem or have a system that will eventually work? What would 
be your estimate of the range that you might conclude would be 
needed?
    Mr. Willemssen. I think that it is difficult to put a 
particular price tag on it, but I think the cost that BLM will 
be looking at in the future will be dramatically lower than the 
cost that we have been talking about today, because I believe 
in talking with Interior and BLM officials, they are committed 
to taking a more modular approach and looking at more of a 
segmented aspect of trying to get a smaller system that would 
have associated major benefits. So I would anticipate from here 
on out that the cost that you will be talking about on IT 
projects at BLM will be significantly smaller.
    Mr. Nethercutt. Would you say less than half, would that be 
significantly smaller? I don't want to pin you down, but maybe 
in terms of a range.
    Mr. Willemssen. I think that range would be appropriate.
    Mr. Nethercutt. Thank you for your work. Thank you, 
Chairman.
    Mr. Regula. Thank you.
    Mr. Moran.
    Mr. Moran. Mr. Chairman, thanks for having this hearing. 
This is the kind of thing that, granted, the water is over the 
dam, but we have got to learn from the mistakes of the past. 
There is no question that this was a mistake to spend as much 
money as was spent, but it was not a mistake conceptually to 
try to automate the information that BLM executives need at 
their fingertips. So those people that recognized that are to 
be applauded.
    Unfortunately, I think it was all summed up in that one 
sentence. You said that when they issued the contract and put 
the system together, they didn't have as their principal 
objective to enable BLM employees to work better, faster, 
andeasier. I think you said something to that effect. That is what the 
intent was.
    You know, Norm mentioned the B-1 bomber, and I didn't think 
he wanted to go there because he tends to be a little 
protective of the program itself. [Laughter.]
    Mr. Dicks. But this time the Air Force tried to act as the 
general contractor.
    Mr. Moran. I understand the analogy, and the analogy 
actually has merit. But there are other situations in Social 
Security and Medicare, HCFA, throughout the Federal Government 
where the Federal Government has really stumbled a lot in terms 
of trying to automate its systems. But we know they have to be 
automated, and so now what we have got to do is to figure out 
how to do it better.
    George does make a good point. To some extent, the system 
would have become outdated, anyway, just because of the 
advanced pace of information technology. It is too bad that--I 
don't think much is gained by fingerpointing, but a lot can be 
gained by reflection on how it could have been done better and 
how it will be improved in the future.
    I don't have any questions, really. It is just a matter of 
thoughtfully reviewing the analysis that was done by Mitretek 
and the analysis done by GAO. And that is why I appreciate that 
you are having the hearing, Mr. Chairman. Thanks.
    Mr. Regula. Thank you. And if I might ask, as a follow-up 
to those comments, how do you deal with the fact that 
technology changes so rapidly when you are making such a major 
investment? As George points out, and also Jim, how does a 
major agency like this where you have to address hundreds of 
millions, can you put a system in place and say it is going to 
be there for 10 or 15 or 20 years? Or does the technology move 
too quickly?
    Mr. Kirkland. I think the technology moves very quickly, 
and that is why we are recommending and why the industry 
recommends a more integrated, modular approach to building new 
systems. You don't identify in 1982 a monolithic system that 
requires huge servers and a particular workstation and then be 
forced to make that hardware buy much earlier than anticipated. 
So you rapidly prototype things, you identify what the most 
critical elements of the job are. By the way, the Bureau of 
Land Management, after the failure of ALMRS, began that 
activity by assembling the users from the field and having them 
validate what their critical requirements were in the face of 
the failure of ALMRS.
    And then you identify that smaller bite, that smaller 
chunk, and you build that. And in the course of building that, 
if a new technology comes along that is better, you don't have 
very much sunk cost. You can now migrate to the next 
technology.
    Mr. Regula. I notice one of the computer companies makes a 
big issue that you can trade your hardware in every year or two 
without any substantial expense. But if it is a record system, 
doesn't it have to have some degree of permanency?
    Mr. Kirkland. The databases do, yes, sir.
    Mr. Regula. The databases can be consistent as the 
machinery that is used to put data into that base that needs to 
have a fluid----
    Mr. Kirkland. That and the operating systems and the 
machinery or the software used to get that information out of 
the system, the reporting capability. But the databases are 
constant.
    And, frankly, the design of this database was one root 
cause of the problems associated with performance, with the 
difficulty in being able to get the information out.
    Mr. Regula. You say it is a software more than a hardware 
problem?
    Mr. Kirkland. Yes, sir. Yes.
    Mr. Regula. Mr. Cramer.
    Mr. Cramer. Mr. Chairman, I am following Mr. Moran's lead. 
I am thoughtfully analyzing the material here. [Laughter.]
    At this point I have no questions. I won't subject the 
committee to my meandering.
    Mr. Regula. A valued member of the committee. [Laughter.]
    Mr. Dicks. Would you yield to me just briefly?
    Mr. Regula. Sure.
    Mr. Dicks. Do they have a Y2K problem with this thing, too?
    Mr. Willemssen. One of the things that we had previously 
recommended, prior to the report, was that looking at the 
schedule for this new system, that is, coming so close to the 
turn of the century, we recommended that BLM go into its 
existing systems and remediate those existing systems to become 
Y2K compliant. BLM is in the process of doing that, and I 
understand that at this point in time the testing of those 
changes on the existing systems is taking place. So that is 
something that BLM is on top of.
    Mr. Dicks. How much will that cost?
    Mr. Willemssen. See pages 213-A and 213-B.
    Mr. Dicks. Yes, I would like to know that for the record.
    Mr. Regula. We have to send Mr. Willemssen over to the 
Internal Revenue Service. I see they have some problems with 
their systems. I am sure that if any of our returns are 
involved, they make mistakes.
    Any other questions from members?
    [No response.]
    Mr. Regula. If you will stay for a few minutes, we would 
like to have the BLM, at least the Director, come up and 
comment on the testimony we have had thus far. We are pleased 
to welcome you, Mr. Fry. You have heard the testimony, and I 
think probably before we get into your budget request that we 
should get your observations on what these gentlemen had to say 
and what you see as the way to solve the problem.
    Mr. Fry. Well, Mr. Chairman, thank you very much for, 
again, having this hearing. It is an opportunity for us to talk 
about this issue and try to figure out what we learned in the 
past and see where we are going to go in the future.
    I do not have any quarrel with any of the testimony either 
from GAO or Mitretek. This is a system that was begun in the 
1980s. The system, when we started it, was probably the right 
thing to do. When BLM started it, it started with the right 
kind of equipment, the right kind of software. But when BLM got 
the project, BLM had no internal capability of doing this. So 
BLM went out and hired the contractor----
    Mr. Regula. Are you saying that when you started down this 
road you were doing it the old-fashioned way?
    Mr. Fry. Absolutely. But--no, not at the time. It was state 
of the art at the time. But the state of the art has 
dramatically changed since then, and that was part of the 
comments that I think you heard earlier.
    Mr. Regula. But you felt a need within the agency to have a 
better system of recordkeeping. Am I correct?
    Mr. Fry. Absolutely. We ended up with a bunch of records on 
paper files that people had to go into. That was the original 
idea--when this was started, BLM had very little computer 
capability, so everything was in paper files. You had to go 
into those paper files, and the original idea was to have all 
of these records of land, for instance, who has the right of 
way, who owns the mineral leases, what are the GIS coordinates, 
those kinds of things.
    Mr. Regula. For 270 million acres?
    Mr. Fry. For 270 million--well, more than that. For 
throughout the whole country except for the original 13 States 
and Texas. Even in the 13 original, we manage the minerals of 
the States, so it is the whole Nation. It is basic data for the 
whole Nation.
    The thought would have been that we would have been able to 
go in at some point in time, push a button, and have the system 
take me into New Mexico and then take me to a particular 
township and let me see where the roads are, where the streams 
are. As a matter of fact, Mr. Chairman, this is a document that 
was worked up to show what ALMRS was going to be and the 
different phases of ALMRS as a project. And you will see here 
at the beginning you start looking at just the land. Then you 
start looking at the quadrants, and then you start building on 
top of that. You can see it was going to get very complicated.
    Well, in 15 years, let me tell you what we have gotten. We 
never got past just trying to get the basic records for the 
whole Nation into a system that would allow people to go in and 
access it.
    Now, let me say that there were a number of places along 
the road where someone might have had the opportunity to stop 
this. I am not sure that if I had been acting as Director at 
the time I would have stopped the project, but there were a 
number of signals along the way. There were things that didn't 
work. There were things that went too slow. And maybe somebody 
at that point in time should have said: ``is this thing going 
to work or not?''
    Well, we didn't do that, because I think what happened, 
they started this project, the project moved forward through a 
number of changes, but as so much money had been expended in 
the project, nobody wanted to walk away from it and say, okay, 
let's change technology, because everybody was chasing 
technology, and still is.
    Mr. Regula. So you would agree with the testimony of our 
previous witnesses?
    Mr. Fry. Absolutely, Mr. Chairman. What finally has 
happened is we have gone through this and looked at it on a--as 
we looked at the history of this, I am not sure there was any 
one stopping point, but we did finally hit one, and this was 
last October. We completed a test in New Mexico, and we ran it 
with our users to see if the thing would actually work. And let 
me tell you, it does work. You turn the computers on. It comes 
on and it works. But what happens is that for something that 
people can do manually in 15 minutes, it takes the computer in 
this computer setup about 2 hours to do. Now, that is not 
helping the customer. That is not what the customer needs.
    So that is the problem with the system. Yes, we got the 
software. The software works. BLM made, I understand, over 
20,000 change orders to this project. Every time we wanted to 
hang something new on it, we hung something new on it. All of a 
sudden Windows became the hot thing, so somebody said, ``well, 
we don't have Windows but let's make this look like Windows.'' 
So we made it look like Windows. But it doesn't really look 
like Windows because in Windows you may have one or two, but in 
this program you may have to go to 50 different windows in 
order to accomplish one task.
    Mr. Regula. You agree with Mr. Dicks' analogy about the Air 
Force?
    Mr. Fry. Well, I don't know the Air Force situation, but it 
sounds pretty close.
    Now, let me make one other point here in terms of what we 
got for our money. I don't disagree with the testimony that has 
been given thus far about what BLM received for the dollars 
that have been spent, approximately, in our estimate, about 
$411 million. But when we started this, we had no computer 
capability, so we bought computers. We have hardware. That 
hardware has been used in the field and continues to be used in 
the field. We continue to update that hardware every year. We 
are going to more of a PC environment. I am not sure what the 
percentage is, but I think at least a third of the Bureau now 
is in a PC environment using this kind of system.
    Now, the hardware that is there works for us and continues 
to work for us. It may not be the best. It may have been more 
expensive than others. But that is what was available at the 
time.
    What we do have is about somewhere in the neighborhood of 
$70 million of sunk costs in the software. And that is what I 
am going to call ``ALMRS.'' That is the piece that was for 
development of the software to make this record system work. 
And so it may be higher than that. I am not here to argue 
whether the number is lower or higher in terms of what is going 
to be some sunk costs that we are not going to be able to 
recover. But it is probably somewhere in the range of $70 
million of that software.
    The hardware we bought. We continue to buy it. We will 
continue to have needs to update hardware as technology 
changes. But the software effort on behalf of the Bureau that 
is probably lost is in the $70 million range.
    In Texas, we take things out back and shoot them. Well, 
that is what I am going to do today right here before this 
committee. As far as the BLM is concerned, the days of ALMRS 
are over.
    Now, we have got a cadaver. We are going to go look at that 
cadaver. We are going to see what is inside that cadaver and 
see what can still be used. But we are going to take the 
recommendations of Mitretek and GAO.
    Mr. Dicks. Well, let me ask you something. Now, we have got 
a consultant here who looked at this thing in a one-time deal. 
But are you going to get some real help, some people here that 
know this?
    Mr. Fry. Yes.
    Mr. Dicks. Because apparently you don't have that within 
the BLM. I hope we are not going to have the BLM doing the 
autopsy.
    Mr. Fry. The last thing in the world somebody wants is the 
people that are sitting in this room making computer decisions. 
That would be the biggest mistake in the world. When somebody 
comes and asks me what should we do about ALMRS, I just turn my 
head. I have no idea.
    What we have done, first off, you cannot let the IRS have 
Mitretek. We won't let them go. They have been a wonderful 
support for us and given us some very good advice. They are 
kind of the outsider representing the Congress, but we are 
going to use some other experts also.
    Mr. Regula. So you are doing in a sense what Mr. Dicks was 
suggesting in going to a third party to manage your new 
approach rather than try to do it in-house.
    Mr. Fry. We have hired a company called FuGEN. We are not 
going to ever buy any software from FuGEN. We are never going 
to let FuGEN produce anything for us. I look at them as a part 
of the BLM management team. People go today and get Ph.D.s on 
how to develop these systems, and we need that kind of 
expertise to teach us how to go to this modular approach that 
was just discussed and how to implement a system in the future.
    We need a system. The records are there. We have done a lot 
of conversion work. But we think that we can take off-the-shelf 
software, modularly, you know, small bits and pieces at a time, 
and add this thing together to have a system that provides the 
customer something they need.
    That is the only other point I had to make, Mr. Chairman. 
The other mistake that BLM made through this is we didn't 
really involve the customers. The number one customer in this 
case happened to be our employees, and we didn't involve our 
employees in saying here is what our needs are. Also, the 
general public are customers of this, and we didn't involve 
them to the extent that they needed to be involved. So as we 
developed this thing, we kind of developed in a computer 
technical environment as opposed to being driven by users and 
user needs. And we are committed to making sure that that 
mistake is not made again.
    Mr. Regula. Two questions. How soon do you anticipate that 
this system that you are describing would be fully operable and 
how much will it cost?
    Mr. Fry. First off, I have no idea. We are in the process 
of doing that evaluation. When I say evaluation, we are 
evaluating two things: first, how we organize ourselves to make 
sure that we don't make the mistakes of the past. We don't have 
that answer yet. We are still looking at our organizational 
setup. We have brought a group of people together that includes 
a State director who ends up representing users. Somebody also 
represents the user community to be a part of that process. But 
I see us taking another couple of steps in terms of 
organization to make sure that we have the right organization 
in place.
    Then we have got to finish the review of this data that 
came out of the October test and determine how we take what we 
have today, salvage as much of it as we possibly can, and then 
move forward with a system that is, quite frankly, going to be 
substantially less expensive than anything we have looked at in 
the past.
    Mr. Regula. I assume the States have a lot of land 
ownership in the Western States that interfaces with your land, 
and if you are a regional planning commission or county 
government or developer, you would need an information base. Do 
you coordinate with the other land agencies within the Federal 
Government as well as the States and local communities?
    Mr. Fry. Yes, Mr. Chairman, we do. We have an agreement 
with the National Association of Counties where we are sharing 
data and trying to make sure--one thing we are trying to make 
sure with this system is that it interfaces with the county 
systems.
    Mr. Regula. Mr. Dicks.
    Mr. Dicks. What is the name of this company you are going 
to get to help you?
    Mr. Fry. Fugen, F-u-G-E-N.
    Mr. Dicks. Do they have any track record with other 
Government agencies?
    Mr. Fry. Let me ask Ms. Hatfield, who meets with them 
constantly, to answer that.
    Ms. Hatfield. Yes, sir, they do, and they are actually 
specialists in databases, complex databases. And, of course, 
the ALMRS--the data that we are dealing with out of these 
public land records is very complex. You know, there are a lot 
of them, millions of records, and their specialty is dealing 
with the data. And so they started working with us in terms of 
our data conversion problems, and we have now asked them to 
look at the software code. They actually are, I think, spawned 
from a company that developed the code that we were using, and 
so they are experts in that code. They also have----
    Mr. Dicks. Wait a minute now. They are spawned from a 
company----
    Ms. Hatfield. They know about the basic code, so they could 
go in and look at the code that our contractor had developed 
and tell us what----
    Mr. Dicks. I thought you were telling us here today that 
the code, the software code, didn't work.
    Ms. Hatfield. The way that the contractor used----
    Mr. Dicks. It sounds like we are going to go try to make 
this thing work again.
    Ms. Hatfield. No. The way that the contractor used the code 
did not work. So we need somebody that has the knowledge about 
that to help us with the analysis. They are helping us with the 
analysis. They are helping us look at how we should manage the 
problem, the issues that both GAO and Mitretek have raised for 
us. And they do have experience. I don't happen to have that 
with me, but we can provide it for the record.
    Mr. Kirkland. Excuse me, sir. I think the confusion is that 
FuGEN is an expert in Informix, which is the database structure 
that is used for this complex database. Theydidn't have 
anything to do with the development of the ALMRS code or the 
application code that has not proven to be satisfactory. They are 
Informix experts.
    Mr. Dicks. Do you agree with this approach, this strategy 
that they have got?
    Mr. Kirkland. Yes, sir.
    Mr. Dicks. I would like for you to put in the record 
something about the background of this. Was this competitively 
picked, or did you do sole source?
    [The information follows:]

    Terwilliger & Associates was founded in 1991 as a sole 
proprietorship registered in Maryland, owned and operated by 
Martin Terwilliger. The business expanded to include employees, 
independent consultants and clients. Terwilliger & Associates, 
Inc., was incorporated in May 1995 as a Maryland ``C'' 
Corporation with Martin Terwilliger as the President/CEO and 
sole stockholder. Martin Terwilliger created FuGEN, Inc. as a 
Delaware ``C'' corporation in October 1997. FuGEN acquired 
Terwilliger & Associates, Inc. in October 1997. ``The mission 
of FuGEN is to assist large organizations in building a 21st 
century information infrastructure that supports enterprise-
wide database systems and knowledge management applications.''
    FuGEN has provided systems audits for several government 
agency applications including the Internal Revenue Service, 
Bureau of Land Management, the city of Palm Beach, Seminole 
County, Florida. In addition, FuGEN has provided the Federal 
Bureau of Investigation with a prototype system designed for 
Corporate Data Management of over 88,000 scanned documents (2 
million pages). The prototype enables users to retrieve 
documents through a search capability as well as coded meta-
data.
    IRS has contracted with FuGEN to provide expert technical 
guidance, facilitation, and solution analysis of the century 
date change conversion efforts and the development of the 
requirements for migrating and loading the ``Totally Automated 
Personnel System'' (TAPS) databases to a Sun Microsystem 
server. This project is expected to be completed by early 2000.

    Ms. Hatfield. No, they are not sole source. They are a 
competitive GSA contractor.
    Mr. Dicks. So you just took them off the list or was there 
a competition to do this particular----
    Ms. Hatfield. It was not a sole source contract, and they 
are a competitive vendor to the Government.
    Mr. Fry. We did not compete this contract.
    Ms. Hatfield. Right.
    Mr. Fry. This came off, as you suggest, the GSA-approved 
list.
    Mr. Dicks. Okay.
    Mr. Fry. What they are doing for us now is helping us go 
through the same thing that Mitretek is helping us do, go 
through the autopsy process.
    Mr. Dicks. Let me ask you this: How much are you spending 
this year on this effort? We have 411 that we have put in the 
tank here. Now, how much more are we going to invest this year 
to try to rejigger this thing?
    Mr. Benna. We have a total of $45 million in funding 
available in 1999. A portion of that is carryover from the 
prior year, from 1998. We are anticipating using most of that 
for several things, a lot of which is the maintenance of our 
existing systems. It is also tied in to some Y2K issues. A 
portion of it is projected to be used for development of a 
system, as Mr. Fry mentioned, a modular-type approach. So it is 
a combination of system development, but a lot of it is for 
maintenance and development of our existing systems.
    Mr. Fry. Mr. Dicks, the ultimate answer is we don't quite 
know yet until we get through this process of analyzing it.
    Mr. Dicks. What I am having trouble with is this idea that 
if you are using this system and it takes you three times as 
long to do the work as you could do it manually, why would you 
use the system?
    Mr. Fry. We are not using the system.
    Mr. Dicks. I would like to know what is dead and what is 
alive.
    Mr. Fry. First off, the number one thing is we did not 
deploy the system. When we realized that it was not going to 
provide the users' needs, take care of the users' needs, we did 
not deploy this system. Each State had their own system in 
place, some of which are fairly good, some of which are pretty 
old. They were waiting for conversion to this ALMRS system. 
They all have systems in place to do the basic day-to-day work.
    Mr. Dicks. And it is done manually?
    Mr. Fry. Well, it is not as bad as the situation I 
described back in 1983. It is done by computers, but it doesn't 
give the ability to people to jump in and do all the things 
that ALMRS had thought it was going to do for somebody at one 
workstation. But the work still can get done, and it is capable 
of being done.
    You did ask about the Y2K issue.
    Mr. Dicks. Right.
    Mr. Fry. Based on advice from GAO and also as we look at 
it, as soon as we realized in October that the ALMRS system was 
not going to be in place Bureau-wide by the 1st of January of 
this next year, we stopped all operations on ALMRS. We would 
have stopped doing it anyhow even if we thought ALMRS was going 
to continue. We stopped all applications there and went to make 
sure that all the current systems that we were using for land 
records management were Y2K compliant, and we expect to certify 
that compliance by the end of this month. It is in the test 
phase now.
    Mr. Dicks. So you have got FuGEN, and you are not trying to 
develop a plan?
    Mr. Fry. That is correct.
    Mr. Dicks. Thank you, Mr. Chairman.
    Mr. Nethercutt [presiding]. Thank you, Mr. Dicks.
    Let me ask this, ladies and gentlemen: $45 million expect 
to be spent, give or take? I won't pin you down, but that is 
what you think is going to that?
    Mr. Fry. I don't think we think we are going to expend 
that. What Mr. Benna was saying is we have that available. And 
I don't want to make any commitment today as to what amount of 
money, but I think if we look at this down the road, there are 
going to be some things we are going to be able to salvage out 
of the software. But we are going to be looking at a lot of 
off-the-shelf software. I can't imagine that the kinds of costs 
for the software side of this that we have experienced for 
doubling the software that we are going to have those kinds of 
expenses in the future.
    We have got this money that is there and available right 
now to take us forward over the next--certainly through this 
fiscal year and into the next fiscal year.
    Mr. Nethercutt. How many computers are involved in this 
effort?
    Mr. Fry. We would have to get you something for the record, 
Mr. Nethercutt, but most BLM-ers have a computer on their desk 
or within shouting distance of their desk.
    [The information follows:]

    A total of 6,865 computers (286 servers and 6,579 
workstations) were purchased using these funds.

    Mr. Nethercutt. How many BLM-ers are there?
    Mr. Fry. We are talking about somewhere in the neighborhood 
of about 9,400 full-time.
    Mr. Nethercutt. Somebody has got to know, $411 million over 
the last 15 years, thereabouts. Are you in a position to come 
to any conclusions relative to whether you got sold a bill of 
goods, or can you go that far? Maybe that is something that the 
other panelists should have answered. Did anybody take 
advantage of BLM in saying you really need this when, in fact, 
maybe you really didn't need that but something else? Or are 
you in a position to do that?
    Mr. Fry. I am not completely in a position to do that. I 
think if--I don't want to place blame today. I think there is 
plenty of blame to go around. BLM certainly had its fair share 
of it.
    If you looked at this contract--to kind of follow up on the 
question Mr. Dicks asked--the contractor did what we asked them 
to do. Now, the contractor can just sit there and do that all 
day long and maybe know that there might have been another way 
and you might be able to go to another vendor and get something 
cheaper. But as long as you keep asking them to do it, they 
will keep right on doing it. And I think BLM may have been 
somewhat naive, at least during some portion of this time, 
thinking that because we had a contractor who was doing this, 
they would be telling us--you know, they would suggest to us, 
``no, you are going in the wrong direction'' when we made a 
request. I am not sure the contractor did that.
    Mr. Nethercutt. That was my point. I assume you sought 
advice as to whether this was a good system or bad system, is 
going to meet our needs or not meet our needs, rather than just 
say, you know, I want the blue Chevrolet with bucket seats and 
they give it to you.
    Well, Mr. Dicks, any more questions on this subject?
    Mr. Dicks. No, Mr. Chairman. I have no further questions.
    Mr. Nethercutt. With that, we will proceed to the 
testimony, Mr. Fry, that you intend to present on substantive 
grounds.
    Mr. Fry. Thank you, Mr. Nethercutt.
    First, I have already introduced Ms. Nina Hatfield, who is 
the Deputy Director of the Bureau, and Mr. Benna, who is the 
budget officer of the Bureau. Let me very quickly ask the 
Assistant Directors of the Bureau, who are sitting right behind 
me, to stand and introduce themselves. We would start down here 
with Mr. Doyle.
    Mr. Doyle. Bob Doyle, Assistant Director of Business and 
Fiscal Resources.
    Mr. Johnson. Good morning. Warren Johnson, Assistant 
Director, Human Resources.
    Mr. Finfer. Larry Finfer, Assistant Director for 
Communications.
    Ms. Gordon. Gayle Gordon, Assistant Director of Information 
Resources Management.
    Mr. Culp. I am Pete Culp, Assistant Director for Realty, 
Minerals and Resource Protection.
    Mr. Bisson. I am Henri Bisson, Assistant Director for 
Renewable Resources and Planning.
    Mr. Nethercutt. Welcome to you. We are glad to have you.
    Mr. Fry. We also have Mr. John Tresize here at the end, who 
is the Department's budget officer. We are glad to have him 
with us today also.
    Mr. Chairman, I would like to ask that my written remarks 
be made part of the record. I only have a few brief comments 
generally about BLM and the BLM mission.
    As you are aware, BLM's job is to provide for the health 
and diversity and profitability of public lands. As we look at 
what we are doing over the next year, that is going to be our 
theme. It is kind of a theme of back to basics within BLM. We 
have lots of things, lots of requirements that we put on our 
employees, but as our number of employees has substantially 
shrunk over the last few years, we have found the need to look 
back to the basics of what BLM does every day, and try to give 
our employees the necessary tools to do the day-to-day job.
    One of the primary areas that we are going to spend time on 
is the whole area of grazing and grazing permits. Based on a 
court decision it was determined that we were not doing enough 
environmental compliance on grazing permits. And based on that, 
we have asked for additional funds in the year 2000 in order to 
enhance that effort.
    The reason the additional funds are needed and the 
enhancement of that effort is needed is that, unfortunately, 
after this decision, we had about 3,500 permits come due this 
year and another 2,500, I think, come due next year, which puts 
a major strain on the Bureau in terms of trying to get these 
permit renewals taken care of. So that will be a major effort 
of the Bureau over the next couple of years.
    That really falls in, though, with our overall interest in 
making sure that the standards and guidelines that have been 
developed by the Resource Advisory Councils are implemented in 
the field because that is ultimately where the rubber meets the 
road. It is where we find out whether or not we are providing 
for the health of the land. One of the other things we want to 
make sure we do is cement into our process this Resource 
Advisory Council process. It is a process that involves the 
public, involves environmental groups, involves the extraction 
industry, involves the cattle industry, involves State and 
local governments, and provides an opportunity to be advised by 
groups like that about how we should best manage the land. That 
is another way that BLM is very much a local operation, with 
only 300 people here in Washington and a cast of about 9,000. 
We are a very localized operation. We want to make sure that we 
continue to be very much land-based and use the Resource 
Advisory Councils for that kind of work.
    The other challenge for us over the next few years is the 
fact that our workforce is changing. The average age of BLM-ers 
is somewhere in the neighborhood of 47 years of age. We are 
going to have a dramatic turnover within the agency. It gives 
us an opportunity to do a lot about improving our diversity, 
but it also presents some challenges for us as we try to hire 
and train a new workforce.
    The last thing I would like to mention, Mr. Chairman, is 
our involvement in partnerships. Partnerships are the only way 
in these days of constrained budgets for us to do our business. 
An example of a partnership--it may not be the best, but one 
that just happened this last weekend--is the Headwaters 
purchase where the State of California came together with the 
Bureau of Land Management--or the Department of Interior--to 
purchase the Headwaters Forest, and we will be entering into a 
joint management agreement with the State.
    Additionally, we have a major cost-share program, where the 
Federal dollars are matched one for one with dollars from 
either State and local governments or from other entities. It 
is a way to leverage the Federal dollars in order to do 
riparian work, to do work on the ground, to provide for 
recreation, and do the other things that BLM has to do on a 
day-to-day basis.
    We appreciate the fact that this committee has allowed us 
the opportunity to do that, and we look forward to expanding 
that program of cost-sharing with other entities and agencies.
    We also look forward to continuing progress that we have 
made in terms of working with other agencies. We have a very 
successful program in Colorado and in Oregon, something we are 
calling ``Service First.'' It was the old Trading Post 
Initiative wherein you go into an office and you want a permit 
to go on Federal land, and you get a permit and it will apply 
to BLM land, it will apply to Forest Service land, and in some 
places it will apply to whatever State and county regulations 
may be in force and in effect.
    We have been able to reduce the number of supervisors in 
one section of Colorado from five to three just because we are 
working together. So, again, it is the partnerships that are 
going to make it possible for BLM to do its job in the future.
    With those comments, I would be happy to receive questions 
from the committee, Mr. Chairman.
    [The statement of Tom Fry follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Nethercutt. Well, thank you very much, Mr. Fry. We are 
delighted to have you here, and your statement will be made a 
part of the record.
    With regard to the Headwaters that you mentioned, public 
access I think is an important part of the Headwaters Forest 
acquisition. What is the status of the Headwaters plan as it 
relates to public access?
    Mr. Fry. Mr. Chairman, I wish Mr. Regula were here. I could 
point out to Mr. Regula that the road that he used when he 
walked into the Headwaters and tromped around that area is the 
road that will be the access road. And as a part of the 
closing, we did receive an easement from the seller to use that 
road. That road will probably not be available to us for about 
6 months, so even initially we will have access to the northern 
side. That is more difficult access for the public. Six months 
from now, the regular access will be available through an 
easement which will allow the public to have access to this 
property.
    Mr. Nethercutt. The public had input to that, I take it, in 
terms of the access issue, and you are satisfied that it is 
addressed?
    Mr. Fry. Yes. If you have been there, you will know that in 
terms of being able to get there, the southern access is the 
one that is closest to highways. It is the one people know 
about of how to get into this property, but you had to go 
across a piece of someone else's property to get there. But we 
took care of that at the closing of this transaction.
    Mr. Nethercutt. Mr. Dicks, I will defer to you in case you 
have another hearing to go to. I have more questions, but if--
--
    Mr. Dicks. You go ahead. Why don't you go ahead, Mr. 
Chairman? I am just trying to get through the statement here.
    Mr. Nethercutt. All right. In the fiscal year 2000 budget 
request, you requested an additional $700,000 for FERC 
relicensing efforts. You know the Pacific Northwest has several 
hydroelectric facilities that need to go through that 
relicensing in the coming years.
    Of the 43 projects on BLM lands, how many are in the 
Pacific Northwest, if you know?
    Mr. Fry. I do not know. We will provide you that 
information for the record, but I think that we will find that 
in terms of the FERC relicensing, most of them are going to be 
in the Northwest.
    [The information follows:]

    Of the 43 active FERC re-licensing projects, will be a 
total of 11 re-licensing projects in the Pacific Northwest; 
seven are on-going and four will be started in FY 2000 or 
shortly thereafter. They are:

                       Project name and location

                  On-Going Re-licensing Projects (PNW)

    Cushman 1 & 2--North Fork Skokomish River, OR.
    Glines Canyon--Elwa River, WA.
    North Umpqua--North Umpqua River, OR.
    Cowlitz River--Cowlitz River, WA.
    Condit--White Salmon River, OR.
    Powerdale--Hood River, OR.
    Rock Creek--Powder River, OR.

              Projects Commencing in 2000 and Beyond (PNW)

    Priest Rapids--Columbia River, WA.
    Rocky Reach--Columbia River, WA.
    Oak Grove Fork River--Fork River, OR.
    Swan Falls--Snake River, ID.

    Mr. Nethercutt. Is the Bureau studying any reservoir 
withdrawals in the Pacific Northwest that you know of?
    Mr. Fry. Not that I am aware of.
    Mr. Nethercutt. If there is contrary information, for the 
record I would appreciate having a response.
    [The information follows:]

    It is possible that there could be future reservoir 
withdrawals as a result of re-licensing activities. However, a 
determination is not possible at this time. Before a decision 
is made the BLM must complete the appropriate interagency 
reviews, including the mandatory environmental assessments. 
These analyses take up to five years or more to complete.

    Knowing that BLM works in coordination with the other 
Federal agencies in the relicensing process to provide input on 
the impact of the hydroelectric facility on the surrounding 
natural resources, you state that the Bureau's biologists will 
be spending up to 25 percent of their time working on this 
process. As more projects come up for relicensing over the next 
few years, how have you prepared for the increased burden on 
the biologists? And have you evaluated your needs in the 
upcoming years as more projects come up for relicensing? And I 
took to heart your comments about your workforce and the ages 
and so forth. How are you going to prepare for the increased 
burden on the staff?
    Mr. Fry. Part of our request for this year is also--not a 
dramatic but a small FTE increase of about 300, and these are 
people that we are going to need on the ground to do this kind 
of work.
    Anytime something new comes up, whether it is new gas wells 
in Wyoming or new grazing permits all over the country, those 
require additional funds. We are kind of at our base level now, 
so we will be looking to hire the appropriate biologists with 
part of the funds that we are requesting.
    Mr. Nethercutt. One of the dilemmas, I think, that the land 
management agencies face, you know, people who deal with 
natural resources, is having good, experienced people. And I 
think that the old forester has gray hair and has some sense of 
history. With all due respect to the young biologists, they 
don't.
    How do you translate--or I should say transfer that 
experience into your new people so that they have an 
appreciation of the history of your agency and, again, a little 
gray hair and not just the fresh-faced perspective of a college 
grad who wants to conquer the world? That can cause your agency 
some problems as it deals with people who have been associated 
with your agency and have potential conflicts?
    Mr. Fry. I couldn't agree with you more. The question will 
be a major problem for us to tackle. One of the things we have 
done is we have initiated a program that in the past was called 
The Caldron. We have a sort of tradition in BLM, and we changed 
the name of it and called it Pathways. What it is is an 
opportunity to bring the new employees together sometime within 
their first 4 to 5 years of employment and bring them together 
for a week, a group of about 100, and we bring in retired BLM 
employees, we bring in seasoned BLM employees to talk about not 
only the history of BLM and the culture of BLM, but what it is 
that they have learned, what it is they have done on-the-
ground.
    So that is one way in which we are trying to make sure that 
our employees understand BLM's culture. Somebody that works in 
Oregon, they think they know what a tree is, and they have 
decided what a tree is, and those people in New Mexico don't 
understand that to be a tree. And so we are trying to make sure 
that we get those folks together to make sure they do 
understand some of this culture.
    It will continue to be a problem in the Bureau, but we are 
trying to institute some programs like that. We also have tried 
to institute a mentoring program where we take the opportunity 
for seasoned people to mentor new staff and bring them along.
    Mr. Nethercutt. We in the West deal with that right here in 
Congress. We have people who don't know what trees are. They 
think they do, and they want to make decisions about what is 
good for us in the West. I notice there is no opposition to 
that. [Laughter.]
    In any event, I worry about it a little bit simply 
because--whether it is agriculture or whether it is natural 
resources policy--that experience has value because you have a 
certain perspective. But at least you are addressing it and are 
aware.
    Let me ask you a question about wildland fire management. 
The Bureau has requested an increase in funds for the wildland 
fire management program of $13.4 million. In some cases, States 
such as ours are requiring farmers to reduce agriculture 
burnings, yet Federal agencies are using burns for wildland 
fire management at their discretion. And in our State, it poses 
a dilemma because there are severe restrictions on burning, 
lands for stubble burning and bluegrass burning and so on. Yet 
we see controlled burns on Federal lands by Federal agencies. 
And so I am wondering to what extent there is some coordination 
of these kinds of efforts where it is okay for the Feds but not 
okay for the private landowner to do this kind of burning.
    I know it is not the same, but the concept and the practice 
of burning, I should say, is what is at stake.
    Mr. Fry. Mr. Chairman, the Feds really are subject to the 
same rules that the locals are, whether it is the county that 
wants to do a burn or whether it is somebody in their backyard 
that wants to do a major burn. BLM is regulated just like any 
other entity, and we are subject, in most cases, to clean air 
standards. The enforcement of clean air standards has been 
delegated to the States, and we have to go in and get a permit 
just like anybody else. And we are finding what you have just 
suggested, that in some locales there may only be a window of 
one or two days each year where it would be acceptable for us 
to have those burns.
    The other thing that we have worked real hard to do is 
coordinate with the counties using our contacts with NACO. Last 
year we had a major conference with NACO when they were in town 
to talk about fire and how to handle fire together, to work 
closely together to make sure that as we do these programs. 
They make a lot of sense.
    Now, there are some who just think burning is not the way 
to go. I would agree it is not the only tool. There are other 
tools. But it is certainly the tool that, you know, the 
foresters used, the forester understands, and from an economic 
standpoint, it makes a lot of sense.
    We have got a huge buildup of vegetative fuel out there 
right now, approximately 3 years buildup in most of the United 
States. And we have got to get rid of that fuel or else we are 
looking at some pretty nasty fires as soon as we have a real 
dry year. One of the things we are trying to do is to get out 
there and get some of that down so that we can prevent the 
large fires in the future.
    But I think there may be instances where it is not 
happening, but our intent is to coordinate very closely with 
local fire departments and local officials and then burning in 
times of burning.
    Mr. Nethercutt. Well, I appreciate that, and that is 
really--my expectation is that there would be some 
coordination.
    You know, we fight with the issue, too, out West of 
determining whether burning is the best way to clear some of 
this material from the forest or whether you can get some 
economic benefit, the private citizen, the private logging 
industry could get some economic benefit by helping solve the 
problem that you mentioned. I know that is a balance, but I 
think there is some potential there for accomplishing both, you 
know, clearing up the forest but also having some economic 
benefit as well.
    Let me ask you about your budget for noxious weeds this 
year. What are you doing with respect to that, and what 
progress can you provide the committee?
    Mr. Fry. Mr. Benna, can you tell me the numbers--we have 
asked for an increase, again, of $3.5 million in our noxious 
weed budget. As you are well aware, invasive species are a huge 
problem throughout the West. I am told that if you take an area 
the size of the Mall and every two days an area that size is 
infested with new weed infestation.
    We have spent some of our money on research to determine 
what is the best way to deal with those. We are also spending 
money on the ground. The interesting thing, talking to the 
counties and the States, is that their budgets for this effort 
are increasing faster than ours are.
    But it is certainly something that we continue to ask for 
more money on. We have started working with the other agencies 
to see if we can do things across agency lines. We asked the 
USGS to do more research for us to determine how best to handle 
some of these more difficult noxious weeds, and it is certainly 
one of the Bureau priorities, as is evidenced by our request.
    Mr. Nethercutt. Is $3.5 million going to be enough given 
the proliferation?
    Mr. Fry. Any bureaucrat anywhere would always say they 
would be glad to have more money.
    Mr. Nethercutt. Tough question.
    Mr. Fry. But, you know, certainly more money is needed for 
this effort.
    Mr. Nethercutt. Are you satisfied that your budget requests 
have been presented in a fashion satisfactory to you, or has 
OMB dominated your budget activity to the point where you are 
not happy?
    Mr. Fry. In the greater scheme of things, I think BLM has 
fared very well in this budget request.
    Mr. Nethercutt. Because I know in Agriculture, especially 
Ag research, I think those who were testifying--or stuck with 
testifying, I should say, had to stand for their budget. But it 
wasn't their budget.
    Mr. Fry. Secretary Babbitt said, I think, when he was here, 
he has recognized that some of the land management agencies 
have probably taken a bigger hit for the last 6 or 7 years than 
other agencies. People are starting to realize that we are 
there, we have a responsibility to the land, and maybe we don't 
have quite the budgets that we need in order to get the job 
done.
    Mr. Nethercutt. I am told that BLM has more land and less 
money than any of the other agencies that have such land.
    Mr. Fry. Thank you for saying so.
    Mr. Nethercutt. Thanks to the staff.
    Mr. Fry. It is true. And I don't have the numbers, but BLM 
manages dramatically--or at least twice as much land as the 
Forest Service and probably has a budget of about half the 
Forest Service.
    Mr. Nethercutt. Are you able to share research? You talked 
about research. Are you satisfied that there is an adequate 
sharing?
    Mr. Fry. We do share a lot of research. Most of our 
research is done for BLM by the Biological Research Division of 
USGS. Oftentimes we pay for that.
    Mr. Nethercutt. Let me ask you about one of my favorite 
subjects, being the Columbia Basin Ecosystem Management 
Project. I understand there is no additional funds requested 
for this project. What is the current status from BLM's 
standpoint?
    Mr. Fry. I will go back with just a little bit of history. 
Congress expressed some pretty deep concerns about where the 
planning process was going, and the Secretaries of the Interior 
and Agriculture wrote a letter saying that we are going to take 
a new look at this process. And when we look at how best to 
solve the problems that are presented in the Northwest and the 
Columbia Basin, the managers in the area, including BLM, the 
Forest Service, Fish and Wildlife Service, have all taken that 
to heart and have gone back to work to come up with a new plan. 
When I say a new plan, I am talking about a new, draft 
supplemental EIS.
    There have been discussion with Governors' offices about 
that plan for the last couple of months, and I think their hope 
is to have a new draft EIS out sometime this summer, with a 
further hope to have a final Record of Decision sometime next 
spring.
    Mr. Nethercutt. That is what I have heard, too, is the 
expectation.
    Tell me for the record what you see different in the new 
plan versus the old plan, and highlight some areas that you 
might see improvement.
    Mr. Fry. Well, when the Secretaries sent their letter, they 
asked the land management agencies in the area to deal with, I 
think, four different areas: aquatic habitat, terrestrial 
species, landscape health, and also human needs. And I think 
that is a much scaled back approach from the past.
    Now, where the local land management agencies are going 
with that, I could not tell you. We have insisted that this be 
locally run, a local operation. When I say that, the land 
managers in Oregon, Washington, Idaho, Montana, all work 
together to come up with this plan, that it not be Washington-
run, so I am not calling out there telling them what my 
expectations are because this is a local issue, a local 
problem, and we continue to ask them to work through it within 
these parameters set by the two Secretaries.
    Mr. Nethercutt. Some of the concern that came up, as I am 
sure you know, was that the county governments, the county 
commissioners, at least in my region, were very concerned that 
their suggestions and admonitions weren't being adequately paid 
attention to, and so, therefore, they sort of felt like they 
were being shut out of the project when, in fact, they were 
expecting to be part of it and be a partner and that seemed to 
have broken down. And my sense is that that message has come 
through and that those of you who are involved in this are 
willing and understanding about the need to have local 
involvement and local analysis. Is that correct?
    Mr. Fry. It is my opinion, Mr. Chairman, without the 
counties involved, we will not have a plan.
    Mr. Nethercutt. I also want to mention to you, just for the 
record, too, that the social and economic analysis that was 
done, a huge majority of people that I have talked with about 
it felt that it was inadequate and inaccurate. And so we are 
going through that again, we in the Northwest, on the issue of 
the Corps looking at the dam removal, and that is a very 
emotional issue with us out West, and it is a substantive issue 
as well, I think, in my region. And the same analysis seems to 
be going on that seems to be flawed, so there is concern about 
that. And I mention it to you with the hope that attention will 
be paid to that aspect of any analysis that occurs as well.
    I would just say to you that there will be questions, I am 
sure, from other members who haven't been able to get in this 
hearing today. We would ask that you respond to them as well.
    We thank you for coming, and we will look forward to 
working through your budget as best we can and doing what the 
committee can do, as it always does.
    Mr. Fry. Thank you, Mr. Chairman.
    Mr. Nethercutt. Thank you for being here.
    This hearing is adjourned.
    [The following questions and answers were submitted for the 
record:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


=======================================================================


                       Department of the Interior

                     U.S. Fish and Wildlife Service

=======================================================================

      
                                            Tuesday, March 9, 1999.

                     U.S. FISH AND WILDLIFE SERVICE

                               WITNESSES

JAMIE RAPPAPORT CLARK, DIRECTOR
GARY V. CECCUCCI, BUDGET OFFICER
DAN ASHE, ASSISTANT DIRECTOR, REFUGES AND WILDLIFE
MARSHALL P. JONES, ASSISTANT DIRECTOR, INTERNATIONAL AFFAIRS
GARY B. EDWARDS, ASSISTANT DIRECTOR, FISHERIES
PAUL HENNE, ASSISTANT DIRECTOR, ADMINISTRATION
DENISE SHEEHAN, ASSISTANT DIRECTOR, PLANNING AND BUDGET
TOM MELIUS, ASSISTANT DIRECTOR, EXTERNAL AFFAIRS
GARY D. FRAZER, DEPUTY ASSISTANT DIRECTOR, ECOLOGICAL SERVICES
JOHN TREZISE, DIRECTOR, OFFICE OF BUDGET
    Mr. Regula. We will get the committee started at this time. 
We are happy to welcome the director of the U.S. Fish and 
Wildlife Service, Jamie Clark, and the budget officer, Gary 
Ceccucci, the important person in all of this. [Laughter.]
    Mr. Ceccucci. Thank you, Mr. Chairman.
    Mr. Regula. The man with the checkbook.
    We will put your statement in the record, and you can 
summarize as you choose.
    Ms. Clark. Thank you.
    Mr. Regula. Gee, this is a popular hearing today. Are these 
all your staff people?
    Ms. Clark. No, sir. They're all back doing hard work.
    Mr. Regula. Good. [Laughter.]
    I got a little nervous about this.
    Mr. Skeen. That is the kind of boss you are, stand up for 
those folks.
    Ms. Clark. That is right.
    Mr. Skeen. You have got plenty of backing.
    Ms. Clark. I do. All of the time.
    Well, good morning, Mr. Chairman, and to others on the 
subcommittee.
    President Clinton's fiscal year 2000 budget request for the 
U.S. Fish and Wildlife Service is over $1.5 billion, including 
$950 million in annual appropriations and over $632 million in 
permanent appropriations. It is the largest budget ever 
proposed for the Service and provides us with a great 
opportunity to further our Nation's commitment to conserving 
fish and wildlife resources.

                        major policy objectives

    While we have many individual program initiatives, they are 
focused on three major policy objectives:
    First, the Endangered Species Act reform, providing more 
flexible assistance to private landowners and communities in 
dealing with the pressures that arise from having listed an at-
risk species on their property.
    Second, the National Wildlife Refuge System, building on 
our commitments, those of the Administration and your 
committee, to assure that our 516 refuges provide protective 
habitats for wildlife, can be enjoyed by future generations and 
maintain safe environments for our employees and our visitors.
    Third, expanding our partnerships, working with Federal 
agencies, States, local governments, private landowners, tribes 
and international organizations to conserve species and their 
habitats to combat invasive species and to protect migratory 
birds and mammals.
    Over the past six years, the administration and the 
Congress have made great progress in protecting and restoring 
our environment and our natural resources, while sustaining the 
longest period of economic growth in our history. We have 
learned that we do not have to choose between a strong economy 
and a healthy environment. Our budget builds upon our recent 
successes in making the Endangered Species Act work by 
balancing our Nation's devotion to the environment and its 
entrepreneurial spirit.
    The Service is requesting $114.9 million to implement the 
Endangered Species Act. Our reforms for Habitat Conservation 
Plans, Safe Harbor agreements and Candidate Conservation 
agreements encourage public and private landowners to work with 
us in helping to restore declining and listed species.
    The President's Lands Legacy Initiative proposes an 
additional $66 million for the Cooperative Endangered Species 
Conservation Fund to provide new tools to State and local 
governments, including $10 million to develop new Habitat 
Conservation Plans, $18 million to implement Candidate 
Conservation agreements and Safe Harbor agreements for 
protecting candidate and listed species, $15 million for land 
acquisition to implement species recovery plans, and $20 
million in additional grants for States for HCP land 
acquisition.
    Our Nation will celebrate the centennial anniversary of the 
National Wildlife Refuge System in 2003. Both the 
administration and the Congress want to assure that our refuge 
visitors and volunteers will enjoy safe facilities. With your 
support, we have invested an additional $76 million in refuge 
operations and maintenance during fiscal years 1998 and 1999.
    Our fiscal year 2000 budget request totals $265 million, an 
increase of $27 million above the 1999 enacted level, including 
$18 million to support projects at 167 refuges, including 
projects to combat invasive species, protect coral reefs and 
conserve the tundra habitat in Alaska and the tropical habitat 
in Hawaii, and an additional $9 million to address deferred 
maintenance and equipment replacement needs.
    Currently, we have a $433 million backlog in priority 
maintenance needs. The special Title V appropriations, the 
fiscal year 1999 appropriations and our 2000 budget request 
will reduce this backlog by nearly 26 percent.
    We all know that the Federal Government must have support 
from State, local and tribal governments, private organizations 
and individuals, and even the international community to 
protect and enhance the natural resources that we all share.
    Our fiscal year 2000 budget requests additional resources 
to strengthen our partnerships, including restoring habitat and 
species in the populous Mississippi River basin, the 
Southwestern deserts in Arizona and New Mexico, the Mojave 
Desert in California and Nevada, and the grasslands in the High 
Plains region.
    It also allows us to continue to work cooperatively with 
hydropower applicants to design economically viable projects 
that provide fish passage and protect habitat and watershed 
health.
    It improves passage and aquatic habitats for native fish in 
southern watersheds. It strengthens international protections 
for Asian elephants, rhinos, and tigers, migratory birds and 
marine mammals, and the monarch butterfly, and it improves our 
permit process to better support international trade and to 
provide more effective protection against the importation of 
harmful, invasive species.
    In closing, I would like to take the opportunity to invite 
members of this committee to visit our refuges, our hatcheries 
and our partnership projects to see firsthand how we leverage 
these dollars that you so generously appropriate to us to 
accomplish much more than otherwise would be possible.
    Mr. Chairman, that concludes my statement, and I would be 
happy to answer any questions.
    [The statement of Jamie Rappaport Clark follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                          uncontrollable costs

    Mr. Regula. Thank you. I see you have an 18-percent 
increase. We may not be able to get quite that far.
    First of all, in your proposed increases, how much is due 
to uncontrollable costs; in other words, fixed-cost increases, 
pay, rent, et cetera? Of the increase, what portion is due to 
uncontrollables?
    Ms. Clark. The uncontrollables are about $17 million.
    Mr. Regula. Which would be, roughly, what, 4 percent, give 
or take?
    Ms. Clark. About, right.
    Mr. Regula. Four percent. Is the funding of these fixed 
costs your first priority before you get into any program 
increases?
    Ms. Clark. Yes, it is, Mr. Chairman.
    Mr. Regula. How about backlog maintenance, where does that 
come in your priorities?
    Ms. Clark. Well, once we get beyond the fixed costs, 
dealing with our Federal pay, retirements, and our costs to 
others, the program priorities we believe that are in this 
proposed budget represent a balance among all of our programs 
to allow us to achieve our natural resource objectives.

                          maintenance backlog

    Mr. Regula. I thought I heard you say that what you 
requested would get 25 percent of your backlog maintenance 
taken care of; is that correct?
    Ms. Clark. Twenty-six percent. The combination of the 1999 
appropriations, the Title V appropriation from last year, and 
our 2000 request will allow us to address 26 percent of our 
backlog.
    Mr. Regula. So you have a plan to get to the end of the 
road on that one, on maintenance or to catch up?
    Ms. Clark. We have a plan to continue to march towards 
addressing our backlog of maintenance.

                       headwaters asset exchange

    Mr. Regula. What are the key elements in the Habitat 
Conservation Plan you developed as part of the Headwaters Asset 
Exchange in California?
    Ms. Clark. Of Headwaters? I was not personally involved in 
that, but I can tell you some of the objectives and then maybe 
get back to you more specifically for the record.
    Our goal in working collectively with the National Marine 
Fisheries Service [NMFS] was to protect habitat for the 
endangered birds and the endangered fish species. So NMFS is 
primarily working with the salmonids. We were working with the 
northern spotted owl and the marbled murrelet, as well as a 
whole host of declining species. So it was a combination of 
habitat protection and specific priority habitat conservation 
needs in key areas that would be set aside for perpetual 
conservation.
    Mr. Regula. You are comfortable with the HCP that was 
finally agreed upon as part of that Headwaters deal.
    Ms. Clark. Yes. We had some of our best biologists in 
California working on it, and they felt confident in the end 
that species under Fish and Wildlife Service jurisdiction were 
adequately mitigated for.

                        salmon recovery efforts

    Mr. Regula. I was just going to ask one other question on 
salmon recovery, but I assume, Mr. Dicks, you have an interest 
in that.
    Mr. Dicks. Well, yes, we do. We do.
    Mr. Regula. How much is the Service spending on Federal 
salmon recovery efforts, and what are you specifically doing?
    Ms. Clark. As far as the specific costs, Mr. Chairman, I 
would have to get back to you. But we are spending, in a number 
of areas. We are providing a tremendous amount of technical 
assistance to the National Marine Fisheries Service and working 
in partnership with the States. The $20 million in the fiscal 
year 1999 budget has been passed through to the State of 
Washington to work with their salmon recovery objectives. We 
are doing salmon recovery work in our hatcheries program, in 
our fisheries assistance program and in our Endangered Species 
Program.
    In the Department of Commerce's budget, there is a $100 
million initiative to work with the States of Alaska, 
Washington, Oregon and California to further the salmon 
recovery objectives.
    Mr. Regula. You may not want to comment on this, but 
Senator Gorton unveiled a $310 million West Coast Salmon 
Recovery Plan that the news release says would skirt the 
Federal Endangered Species Act and allow State and local 
authorities to determine how best to restore the runs. Do you 
have any opinion, or would you prefer not to comment on this?
    Ms. Clark. I do not know the substance of Senator Gorton's 
plan, but we certainly are not supportive of skirting Federal 
law, especially the Endangered Species Act, but I am not 
familiar with Senator Gorton's initiative.
    Mr. Regula. Well, we will have some questions in the 
record.
    Mr. Dicks.

                   salmon recovery plan in washington

    Mr. Dicks. Thank you very much. Jamie, it is good to see 
you here. We appreciate your testimony.
    The $20 million, I just want to talk about that for a 
moment. That was provided last year and was passed through to 
the State of Washington. It is being used on projects that will 
hopefully help us deal with a listing of Chinook salmon that 
will occur in the Puget Sound area later this month.
    The governor is developing a plan, along with all of the 
counties, to try and deal with the problems of the declining 
habitat for the fish. You can imagine, in a heavily urban area 
with growth and development, a lot of the small side channels 
and rivers have been just literally covered up, andwe have lost 
a lot of habitat over the years. That is, we think, one of the reasons, 
along with a lot of other things, for the declining runs. This effort 
is just getting underway, and it is a very significant thing in our 
State.
    Mr. Regula. Do you have canneries for salmon in Seattle or 
in the State of Washington?
    Mr. Dicks. Yes, we do. We have some. Most of the fishing in 
the State of Washington is trolling, where you go out and troll 
for fish. But we do have some fish that are processed, some 
humpies, the pink salmon, sockeye salmon that are caught in the 
Fraser River. There is some gill-netting and purse-netting. So 
there is some processed fish. Most of it comes from Alaska. 
Most of the canning is in Alaska, but we do have some as well.
    One of the difficulties here is people talk about harvest. 
Well, these fish, if they are threatened, should we harvest any 
at all? That is the distinction between the hatchery fish, 
which you can harvest, and the wild fish, which we are trying 
to protect by releasing them. There are ways to do what we call 
mass marking, where you take the small little smolt that is 
released from the hatchery, and you clip off its adipose fin 
with a machine. Some of them are given a coated wire tag in 
their nose so that when you get them back, you can 
scientifically tell where they came from.
    But with the adipose fin marking, when you catch a fish 
later on, if you see that the adipose fin has been clipped, you 
know it is a hatchery fish----
    Mr. Regula. Which one is that?
    Mr. Dicks. It is the one right on the top of the back of 
the fish. On these salmon, it is just a little, small fin that 
does not seem to have an adverse effect on them, and so they 
are clipped.
    One of the things we are working on with the Fish and 
Wildlife Service, by the way, is trying to work with our 
tribes. The tribes have their own hatcheries, and there are 
national hatcheries, and we are trying to get them to go along 
with the State of Washington and Oregon in this effort.
    So you can identify the wild fish. If you get a fish then 
that has the little fin on the back, you know it is a wild 
fish, and if you go to selective harvest, which is what we will 
probably have to do under the Endangered Species Act, we will 
release those fish.
    The other thing we are trying to do is get the tribes and 
the non-Indian fishermen who use gill nets to consider possibly 
changing gear and going to a smaller mesh net that they use up 
in Canada, where they literally almost get the fish's teeth 
caught in it, but it does not kill it. If you get a gill net, 
its gills get in, and it dies of suffocation, and you cannot 
release it. Then the fish, when you bring them in, they are 
dead.
    So if you could bring them in and they are still alive, 
obviously, then you could take the wild fish, the ones that 
have the adipose fin, that they then properly mark, and release 
them, and that will help build back the native runs because 
genetically you have got to have the wild stock in order to 
save these species, and you cannot do it just with hatchery 
fish. So mitigation and those things.
    And, in fact, there are problems with hatchery fish because 
sometimes they conflict with wild fish when they are released 
in a stream, and so we have to worry about trying to minimize 
the conflict. We try to release hatchery fish at difference 
times from when the natural fish are reproducing themselves, 
when the smolts are starting to come down the river, because 
they conflict with each other. The hatchery fish are bigger 
normally and can crowd out the wild fish. So you have to be 
careful how you even use hatcheries. So there is a lot to this.
    And then you get into hydroelectric power, and you get into 
habitat, and most of the money that we are using that came 
through the Interior bill is being used for restoring habitat 
throughout all of these rivers. There are just literally 
hundreds of them in those ecosystems. It is very positive 
because what we are doing to restore the rivers are also good 
for clean water and other values, and a bull trout will help 
other fish, and bull trout, of course, will be under the Fish 
and Wildlife Service.
    So we are going to have bull trout listed out there----

              salmon listing under endangered species act

    Mr. Regula. Who handles salmon?
    Mr. Dicks. The National Marine Fisheries Service handles 
salmon. But also the Interior Department has responsibility for 
the tribes, and the tribes are also, in our State, very major 
players, co-managers of the resource. So we are going to be 
working with the Fish and Wildlife Service to help the tribes 
play their role in this, too.
    As for the Endangered Species Act, this is the first time 
you really have a major listing like this in an urban area, 
where it is going to affect everything. In construction, people 
are going to have to be very conscious about any project that 
is constructed in the Northwest because of the impact on these 
salmon-producing strains in rivers, and secondary impacts, and 
the so-called nonpoint-source issues, septic tanks, runoff. You 
have got parking lots where people drip their oil, and that 
washes down into the streams and rivers and has an adverse 
effect on fish. All of those things could be regulated.
    So this is going to be a major test. What is really very 
positive, I think, is that, unlike the spotted owl and marbled 
murrelet situation, where the timber industry in the Northwest 
was in complete denial, everybody out there, the governor and 
the county executives, are all trying to work with the agencies 
and come up with a strategy to restore the runs. That is much 
more positive, and much less confrontational so far. 
[Laughter.]
    Now, the listings have not occurred yet, so we will see how 
this works out. By the way, in our State, we are also doing 
literally hundreds of Habitat Conservation Plans. This has 
become one of the great tools for people in the Northwest to 
deal with the Endangered Species Act in a constructive way.
    Mr. Regula. Are you supporting Senator Gorton?
    Mr. Dicks. Well, I have not read his plan yet, but I am not 
for skirting the Endangered Species Act or trying to 
legislative block it. Remember, a couple of years ago on the 
Interior Appropriations bill, Congressman Riggs had an 
amendment which I opposed, and we defeated it rather 
substantially on the floor on the theory that the Pacific 
Lumber Company could do a Habitat Conservation Plan that would 
allow it then to do timber harvesting, but protect the 
environment at the same time. They should not be exempted.
    So I think, having argued that, I would be hard-pressed to 
argue that we ought to exempt others from the ESA. You never 
say never in this business, but so far I think we ought to stay 
with the ESA and try to work with them in doing a 4(d) rule or 
a Habitat Conservation Plan, where that is relevant. So that is 
kind of the story.
    And, Jamie, do you have any comments on this? In fact, we 
appreciate Gerry Jackson, who is going out to the Olympia 
Office. We have asked him to help us work on the regulatory 
side to get the Fish and Wildlife Service and NMFS working 
together on bull trout and salmon so that they will have a way 
of dealing with both of those without having to go through two 
separate processes. So far that looks like it is very positive.
    Ms. Clark. It is quite positive. In fact, Mr. Dicks, you 
would easily qualify for a job in the Fish and Wildlife 
Service. [Laughter.]
    Mr. Dicks. That is called survival politics. [Laughter.]
    Either you learn this stuff or you die. [Laughter.]
    Ms. Clark. We could use the help in Fisheries.
    But one comment I will make about salmon, and Gerry is 
headed out there next week.
    Mr. Dicks. He has been up to the office a couple of times.

                   national marine fisheries service

    Ms. Clark. To clarify what is happening in salmon with us 
and the National Marine Fishery Service, NMFS does, in fact, 
have jurisdiction for the listing process. More and more we are 
working very collaboratively in looking at joint jurisdiction 
for some of these salmon species because of the clear role that 
the Fish and Wildlife Service is playing in so much of the 
restoration through our hatchery programs or our habitat 
program. We are providing a tremendous amount of technical 
assistance.
    Mr. Regula. Is this because the salmon go to sea? Is that 
why the jurisdiction is split?
    Ms. Clark. The NMFS and Fish and Wildlife Service split 
jurisdiction because they deal with a lot of the ocean species. 
But more and more, especially with the salmonids in the 
Northwest, we are looking at joint jurisdiction, so that we 
have the same science, and particularly when they are 
overlapping species like some of the salmonids and the bull 
trout. We are trying to deal with recovery objectives and 
regulatory responsibilities and requirements so that there is 
one-stop shopping, so that we are not double regulating. We are 
working much more closely together.
    Mr. Regula. Mr. Skeen.

                             silvery minnow

    Mr. Skeen. Thank you, Mr. Chairman.
    I have a much smaller problem with the silvery minnow.
    Ms. Clark. It is a smaller fish.
    Mr. Skeen. I do not know whether it has got a back fin or 
what----
    [Laughter.]
    Mr. Skeen. But it is causing an awful lot of problems.
    What is the current status of the Fish and Wildlife Service 
reimbursement to USDA's Wildlife Service in regard to the wolf 
reintroduction programs? We are hearing some complaints that 
the reimbursement has been slow in coming.
    Ms. Clark. I have not been made aware that the 
reimbursement is slow in coming. We have been funding the unit.
    Mr. Skeen. In our part of the country, if you do not get 
paid, you know, the next day, well, they are slow.
    Ms. Clark. I can appreciate that for sure, but we have been 
funding the wildlife specialists for USDA Wildlife Services. I 
would be happy to check into it for you, but I have not heard 
of any kind of delay.
    Mr. Skeen. I would appreciate that, if you would, and put 
out some of the fires if you can.
    Ms. Clark. Absolutely.

                   land acquisition in the southwest

    Mr. Skeen. Does the Service plan any land acquisitions in 
New Mexico as part of the Cooperative Endangered Species 
Conservation Fund requests? You state that there is $15 million 
for land acquisition for implementation of this recovery plan.
    Ms. Clark. There are a couple of opportunities within the 
Cooperative Endangered Species Fund where the Southwest could 
participate. We have the recovery land acquisition. Those are 
monies that would be passed through to the State to purchase 
State lands for recovery listed species, but there is also a 
pot of money in the Habitation Conservation Plan arena that 
will allow for land acquisition.
    Mr. Skeen. Acquisition----
    Ms. Clark. Acquisition or mitigation responsibilities under 
an HCP. Folks have been looking at that for the bigger Sonoran 
Conservation Plan area in the Pima County area. In the $66 
million, there are a number of opportunities where the States 
or local entities or even tribes could participate in 
developing proposals.
    We are not at the point where we have allocated any of the 
monies that we are working on to landowners this year. The 
expansion of that program into the 2000 request for the $66 
million, will provide opportunities for the States and local 
entities to engage in proposals, though.

                         southwest water crisis

    Mr. Skeen. As you know, we are going through a very 
extensive drought, which brings up the question will the Fish 
and Wildlife Service purchase any water for the silvery minnow, 
any additional water that is required?
    Ms. Clark. I do not know the answer to what we are going to 
do about the water situation. I do know that we have just begun 
a lot of discussion. I know there have been discussions going 
on in the Southwest.
    I was in a couple of meetings just in the last week or so 
about the status of Rio Grande silvery minnow. It is a highly 
endangered species. It is in dire straits because of the water 
situation. So we will be working with the State, other Federal 
agencies and the tribes to try to put together a whole menu of 
options to deal with the water crisis situation, which may 
include water acquisitions. I think it is too early to tell 
what kind of course we will have to take. I will be glad to 
keep you posted.

                      law enforcement questionaire

    Mr. Skeen. I would appreciate it.
    Late last year the Fish and Wildlife Service law 
enforcement officials sent hunters into New Mexico, and after 
that this infamous questionnaire basically asking each and 
every one of them if they had shot any one of the wolves. The 
questionnaire was, ``Have you shot a wolf today?'' or something 
like that. And after the uproar, the Fish and Wildlife Service 
said that they would review the results. Who wrote that famous 
epistle?
    Ms. Clark. The questionnaire?
    Mr. Skeen. Yes, the questionnaire.
    Ms. Clark. The questionnaire, which I got----
    Mr. Skeen. Have you shot----
    Ms. Clark. It is an interesting issue, but the 
questionnaire itself is actually an approved interrogation 
technique that was developed by law enforcement experts.
    Mr. Skeen. If you sent it by mail, you did not do it with a 
truth serum or something.
    Ms. Clark. No, we did not inject anybody.
    That questionnaire has been used in a lot of investigations 
to weed out the innocent.
    Mr. Skeen. It provided a lot of amusement.
    Ms. Clark. It did. Maybe it was not the best use of a 
questionnaire or a mass mailing in this case, but we are 
looking to address our serious law-enforcement shortfall 
nationwide. It was used in an attempt to try to deal with our 
shortage of agents and get some kind of understanding of what 
is happening. We had five dead wolves in the Southwest, very 
serious, and still to this day have no leads. So it was used to 
try to get a better handle on what is going on.
    We have suspended the use of that questionnaire 
departmentwide in mass mailings.
    Mr. Skeen. I think it was causing more problems than it was 
producing----
    Ms. Clark. It was not helpful to the investigations. It 
certainly was not helpful to wolf conservation, and it was 
misinterpreted.
    We have since, as you know, sent a letter of clarification 
to all of the recipients of that questionnaire.

                        law enforcement training

    Mr. Skeen. Some of your staff that get into law 
enforcement, have they had background in law-enforcement 
activities?
    Ms. Clark. All of our special agents go through very 
rigorous, specialized training.
    Mr. Skeen. Where do they take their training?
    Ms. Clark. The Federal Law Enforcement Training Center at 
Glynco, Georgia.
    Mr. Skeen. How many enforcement agents have Fish and 
Wildlife----
    Ms. Clark. We are authorized 252, but we currently have 226 
on board.
    Mr. Skeen. You are not way down----
    Ms. Clark. No, we are not way down, but by----
    Mr. Skeen. You are missing about 20 or 30.
    Ms. Clark. And it will get more serious. We are coming up 
on a lot of retirement eligibilities. So we need to put 
together an action plan for the future.
    Mr. Skeen. That is their background--Glynco training and 
then annual in-service training?
    Ms. Clark. It is continuous education. Our law-enforcement 
folks receive very specialized training, not only in criminal 
law enforcement, but in natural resource law. Many of them have 
dual degrees in criminal justice and in the natural resources 
or life sciences areas. Some of them are pilots. They do a 
myriad of work implementing or enforcing all of the Nation's 
wildlife laws, and they also work with our other programs on 
conservation issues.
    Mr. Skeen. I think the idea is to show the people in New 
Mexico that you are using oversight in the Department of 
Interior and your law enforcement agents.
    Ms. Clark. And we are.
    Mr. Skeen. That is all I have.
    Mr. Regula. Mr. Moran.

                   habitat conservation plan program

    Mr. Moran. Thank you, Mr. Chairman. Nice to see you, Ms. 
Clark.
    I have had very good experience with the Fish and Wildlife 
Service. I would, however, like to ask about the Habitat 
Conservation Plan Program. I think it was last year when I 
raised some questions because of the report by Defenders of 
Wildlife, ``Frayed Safety Nets.'' I think that was the title of 
the report. It was critical of the HCPs primarily because of 
the ``No Surprises'' policy that I understand you just 
finalized last month. The report said that when we assure 
landowners their land will not be affected, we sometimes do 
that with insufficient scientific evidence. Sometimes the 
natural environmental changes or the original information is 
flawed. What happens when we come up with new information that 
is more relevant and pertinent but we cannot adjust the plan 
because of this ``No Surprises'' policy that you just 
implemented?
    I have some concern about that. I am glad that my friend 
and colleague is as enamored with the Habitat Conservation 
Plans in Washington State as he is. I am glad to see that 
because they must be working very well. Coming from the East 
Coast, however, the stuff we read seems to be somewhat to the 
contradictory.
    There is a Dr. Peter Kareiva at the University of 
Washington that did a study. This study was very critical of 
the HCPs. I understand that there is a five-point plan that was 
agreed to, but it is only guidance. There is nothing mandatory 
about it, and that the progress they were looking for in 
addressing some of their concerns is proceeding at a glacial 
pace. I think that was Roger Schlickeisen's term.
    So today you are asking for $24 million more in Endangered 
Species programs and another $66 million in the Cooperative 
Endangered Species Conservation Fund to implement the HCPs. I 
guess I would like for you to reconcile some of the information 
we are getting with your very strong support of funding level 
expressed in this budget.
    Ms. Clark. Certainly. First of all, the funding request for 
the operational Endangered Species Program, plus the 
Cooperative Endangered Species Fund increase is for much more 
than just the Habit Conservation Planning program. I wanted to 
clarify that. But I will make a comment about the criticism of 
the HCP program and where we are going with that.
    There has been a tremendous amount of evaluation and study 
about our HCP program. We are expanding the program nationwide. 
There is a huge demand. It certainly is clear that we are not 
going to have more habitat in the United States. We are not 
growing habitat, so we have to find innovative ways to work 
creatively with the non-Federal community to protect some of 
the existing habitat and allow reasonable economic development 
to continue. The HCP program that Mr. Dicks was referring to in 
the Northwest is beginning to spread across the country. This 
is a valuable, good way to address declining species.
    We have learned a lot from the ongoing evaluations. We had 
some very serious disagreements with the Kareiva study, not 
only in their methodologies, but their outcomes. But 
nonetheless they did provide some valuable information to us. 
The Defenders' study also had some good suggestions. The 
nosurprises policy is final policy, and it does say a deal is a deal, 
but there are a lot of opportunities that gave rise to the five-point 
plan where we have more flexibility.
    The five-point plan that you were referring to is a series 
of five objectives that are not guidance. We expect all of our 
employees that are negotiating HCPs to follow. So you can put 
that in the policy category. It deals with expanded 
participation. It deals with adaptive management. Where there 
is not enough biology to make a decision for certain on the 
deal, we incorporate adaptive management strategies to set up a 
mechanism so that when we do know enough, we will know the 
direction that the mitigation strategies should flow.
    And so if the species that are intended to be covered by a 
permit cannot be adequately mitigated for because of science 
gaps, then we develop these adaptive management strategies.
    It is a combination of things like adaptive management, 
more aggressive biological monitoring of the terms of these 
HCPs, expanded public participation, those kinds of----
    Mr. Dicks. Would you yield just briefly for a second?
    Mr. Moran. Certainly.

                             hcp monitoring

    Mr. Dicks. On the monitoring, this is one of the areas that 
I think is very crucial is to be able to assure people that the 
terms of the HCP are being complied with. Can you tell us how 
you do that as part of responding to this question.
    Ms. Clark. Certainly. As the committee knows, we are 
developing and finalizing HCPs at a rapidly expanding rate 
because of the demands. Particularly out West, but certainly 
creeping east through the Midwest. We are working on some of 
the Eastern Shore of Virginia and Maryland today, and part of 
our increase request is to address the monitoring requirement 
as we finalize these plans. There is a responsibility not only 
on us, as the permitting agency, but on the applicants to 
ensure that the terms and conditions of these plans are being 
followed. Not only monitoring the terms and conditions of the 
permit, but evaluating whether or not the mitigation strategies 
that we have agreed upon are, indeed, effective and whether or 
not they are useful to be used in succeeding HCPs.
    The monitoring sometimes is done by the Fish and Wildlife 
Service, sometimes by a third party and sometimes by the 
permittee with a reporting requirement back to the Fish and 
Wildlife Service. So it really depends on the HCP itself. It is 
hugely important to the integrity of the HCPs that we be able 
to evaluate whether or not our science objectives and whether 
or not our mitigation strategies are, in fact, being followed, 
and meeting and achieving real positive results for the 
species.
    Mr. Dicks. Thank you.
    Mr. Moran. Sure. I am glad to yield, and I appreciate your 
response. I do think, in the long run, it is going to be a 
problem when you solidify plans that cannot be changed because 
our environment changes every day. The plan is primarily 
designed to adjust to environmental changes to protect species. 
To solidify plans at one point in time carries with it some 
risk, but I appreciate your response. Thank you.
    Thank you, Mr. Chairman.

                        ``no surprises'' policy

    Mr. Regula. As a followup, are the HCPs subject to change? 
Normally, do they have a provision that allows either side of 
the parties to reopen the matter if conditions, as described by 
Mr. Moran, change?
    Ms. Clark. Well, we have the ``No Surprises'' policy, which 
says a deal is a deal. If we agree that the mitigation for a 
particular covered species is adequate, then we will not ask 
for more land, more money or more whatever from the applicant.
    Mr. Regula. But if they were willing, you could do it.
    Ms. Clark. If they are willing. Each of these plans has an 
implementing agreement which sets out all kinds of legal terms 
and conditions of how the applicant and the permitting agency, 
us or the National Marine Fisheries Service, will behave during 
the implementation terms of the plan. But also, through the use 
of adaptive management and biological monitoring of the setting 
of biological goals, we are getting better and feeling 
comfortable about these deals. If we do not know enough about a 
species to, in essence, make the deal, then we will not cover 
the species in the plan.
    Mr. Dicks. Will the chairman yield?
    Mr. Regula. Certainly.
    Mr. Dicks. One of the important things to remember here is 
that these are voluntary agreements, and we are talking about 
private landowners who are, in essence, setting aside 
significant parts of their property for conservation purposes. 
It is a negotiation, in essence, between the Government and the 
private entity. Now we are moving to do multispecies HCPs. At 
first they were just done on one species, and then the people 
realized, if you are going to do this, you really want some 
certainty, so you deal with all species.
    The reason I have been supportive of this is that, if you 
do not support the Habitat Conservation Plans and the private 
sector does not do it, then the level of conservation is going 
to be significantly less than necessary.
    Now, of course, they do not get the no-take permit or the 
incidental-take permit if they do not get the HCP. So there is 
an incentive on their part to do it.
    Mr. Regula. Mr. Peterson.

                      endangered species workload

    Mr. Peterson. Good morning. I guess the first question I 
have deals with the endangered species. What percentage of your 
workload is dealing with endangered species, in general terms?
    Ms. Clark. It is significant. In my position as director, I 
would say I probably spend a good half of my time.
    Mr. Peterson. In your regional offices.
    Ms. Clark. In the Fish and Wildlife Service?
    Mr. Peterson. In the Service.
    Ms. Clark. It is really hard to say because the significant 
part of our agency is dealing with our land base, our refuge 
system and our hatchery system. But in our ecological services 
function, probably the most visible, most significant workload 
is in the endangered species arena, and it differs in different 
parts of the country, depending on the biological diversity and 
the opportunity for conflict. But it is significant and 
growing. We have 1,200 listed species on the domestic list 
today.
    Mr. Peterson. Now, you end up with a biologist who reviews 
all of the plans and how the other groups are going to deal 
with a list of endangered species that possibly is inthat 
region; is that not correct?
    Ms. Clark. We have biologists at our seven regional offices 
and scattered throughout our field offices that deal with the 
whole gamut of endangered species issues; from evaluating 
candidates for listing, to preparing the science documents to 
add species to the list, to federal agency consultation 
activities under Section 7, to the HCPs that we were talking 
about earlier, to developing and implementing recovery plans 
for listed species. So they have a whole myriad of actions and 
activities that they are engaged in for endangered species 
recovery.

                     endangered species litigation

    Mr. Peterson. I guess the problem area that I see is that 
so many of the suits and cases are organizations who are using 
the Endangered Species Act fraudulently to stop other 
activities.
    And when that happens, the agency that is affected has to 
develop a plan of how they are going to deal with these 
species, and then it goes to your shop where those plans are 
approved and so forth. It seems like you have so few biologists 
that have that role, that it is a very untimely process.
    Ms. Clark. I will agree with you that the Endangered 
Species Program has become extremely litigious. And as a 
biologist myself, I spend much more time on litigation than I 
care to, want to or admit to. I will not place a value judgment 
on the rationale behind the litigation, but I will tell you 
that we spend a lot of time challenging the litigation and 
trying desperately to work within the biological priorities 
dictated by the species status.
    Fortunately, we have a tremendous team of lawyers at the 
Interior Department who are quite helpful in the courts at 
helping us keep with our biological priorities.
    But I expect the biologists of our agency would express 
frustration at the amount of time they spend on litigation 
defense as well.
    Mr. Peterson. I guess it makes it very difficult for them 
to respond to other agencies who have developed a plan of how 
to deal with these species and how to approve or disapprove or 
alter it in a timely fashion.
    Ms. Clark. Well, we do try to focus who and how deeply we 
address litigation. Our biologists, particularly at the field 
level, we try to leave in the field to interact, develop 
partnerships, respond to federal agencies, respond to the 
private landowners on the whole gamut of endangered species 
responsibilities.
    I will say, however, in my time with the Fish and Wildlife 
Service, that our biologists are clearly and eminently 
qualified stick to the biology. They do a really good job of 
keeping blinders on when it comes to litigation and doing what 
is right for the negotiation and doing what is right for the 
biology of the species, regardless of litigation. Litigation 
certainly is a large, loud, background noise, but we try to 
shield them from that as they work on the biological needs of 
the species.
    Mr. Peterson. The problem I have run into, we have five 
endangered species that are active; two mussels, a chub, a 
floral, and an Indiana bat. And every bridge that is built on 
two of my rivers has to have mussels--they are actually moving 
all of the mussels up- and downstream, not trying to get the 
endangered ones, but moving them all. It is very time 
consuming. But with all of these bridge construction projects 
that are pending out there being held up year after year, we 
have the Allegheny National Forest issue where we have had all 
of the lawsuits, and you have less than one full-time biologist 
at the State College office that serves three States I think. 
We were able to negotiate another biologist to be paid for 
because their bridges were not going to get done if they did 
the Allegheny National Forests.
    But it just seems to me there is a bottleneck in the 
system. I know I read an article someplace that they felt 75 
percent of the actual legal suits utilizing the Endangered 
Species Act were to stop some activity that had nothing to do 
with the species, but they were using it.
    How do we somehow get that percentage down so that your 
system is not log jammed with these lawsuits? They also know 
how to plug up the paperwork system by requesting all of this 
other stuff that it takes the same biologist to do, so they do 
not have time to review the plans put out by the Forest Service 
and by the Department of Transportation for their bridges and 
how they are going to build them.
    It seems like we have a bottleneck that we cannot get 
around.
    Ms. Clark. Well, I really can't speak too eloquently about 
how we can control litigation. I can tell you that it is 
rampant, and certainly some of it justified because our 
plaintiffs are frustrated with our inability to move the 
program forward sometimes as well. But you certainly have 
provided good justification for our budget increase request. 
[Laughter.]

                               biologists

    Mr. Peterson. Are you going to hire biologists?
    Ms. Clark. Yes, we are.
    Mr. Peterson. Are they going to review plans?
    Ms. Clark. Yes, Congressman. The endangered species request 
focuses primarily on trying to fuel our on-the-ground 
activities, so that we can provide more delivery capability.
    The litigation issue is an area that really is focused more 
on the top administration levels of our organization. 
Oftentimes our biologists and our folks in the field get 
dragged into it because of their expertise on the species, on 
the issue, and that is unavoidable. And certainly there are 
enough folks out there who care passionately about 
conservation. They just want their objectives, ideas, and 
priorities known to us. And that is fair. But, clearly, the 
program has grown, the demand has grown, whether it is on the 
Federal agency side or the private, State side, for us to 
respond and provide technical assistance, and there are areas 
of the country that really do need support. Yours is certainly 
one of them, and that is clearly behind the justification for 
the program increase.
    Mr. Peterson. What percentage of your staff currently works 
on the team like I just discussed? I just sense it is a very 
small part of your operation, yet it may be a fourth or----
    Ms. Clark. Oh, no. It is 25 percent of our budget, but----
    Mr. Peterson. So 25 percent of your personnel are working 
on it?
    Ms. Clark. Easily. we have folks that are funded out of our 
endangered species program that are clearly working on the 
regulatory aspects of the Endangered Species Act. We have a 
number of our folks within the refuge system, our refuge 
biologists, and managers who are working on endangered species 
recovery initiatives. Many of our fish hatcheries are aimed at 
recovery of endangered species. A lot of our fisheries 
management folks are developing partnership agreements and 
working on endangered species coordination and endangered 
species partnerships.
    The folks in our habitat conservation arena and our private 
land program in the Partners for Fish and Wildlife Program are 
providing technical assistance.
    Recovering listed species and restoring declining species 
is very much at the forefront of our mission, the integral 
mission of our agency, and so it is a responsibility of all of 
our employees, and we take it very seriously. The endangered 
species workload is in pockets all over the agency.

                            farmland habitat

    Mr. Peterson. You made a statement, and I can't quote you.
    Ms. Clark. Okay.
    Mr. Peterson. I want to talk to you one on one some time 
about the endangered species because I have several questions.
    Ms. Clark. Certainly.
    Mr. Peterson. You were saying something about the fact that 
we are not getting more habitat. I think there is something 
happening in rural America that people are not really thinking 
about. I grew up in rural America, and the open fields that I 
hunted and spent a lot of time in as a youngster are either 
heavy brushlands today or are forests today. In fact, I hunted 
when I was a kid, and the fields today are six, eight, ten 
inche timber.
    To give you some evidence, in Pennsylvania, I was in State 
government for 19 years. Twenty years ago, we had 14 million 
acres of commercial forest in Pennsylvania. We now have 16 
million acres of commercial forest. That means a forest that 
can produce quality saw lots----
    Ms. Clark. Sustainable.
    Mr. Peterson. And that number is continuing to grow because 
America's rural farmland is going back to nature. When it is 
not farmed, they tell me that in 8 or 10 years it is brushland. 
You know, you have to go out with some kind of a cutter to cut 
the brush every other year or your fields are gone. They just 
go because of the seeds and the birds dropping the seeds and 
the brush that comes first, and it is a regular process. I have 
watched it happen.
    But we are getting more habitat in America, and I think 
that is not ever talked about.
    Ms. Clark. Well, maybe in certain areas of the country we 
are, and it is heartening to hear about the kind of habitat 
conversion in your part of the world. But in many parts of the 
world, especially with the population increases and the urban 
sprawl that is across America today, we are seeing the 
conversion of land uses like farmland to asphalt.
    Mr. Peterson. Absolutely.
    Ms. Clark. I think the overall net effect is a reduction in 
the types of habitat essential to some species.
    Mr. Peterson. I don't think in rural America. See, I think 
the urban sprawl issue--you know, 95.1 percent of America is 
undeveloped. I read that figure from a pretty good source just 
this last week--95.1. See, I come from rural America, the most 
rural district in the East, and rural America is changing 
because, you know, what we did for a living is changing, and it 
has declined. And so rural America is becoming much more 
natural.
    Of course, there are those who don't want us to do anything 
out there that we used to do for a living, whether it is cut 
down trees or drill for oil or dig for coal or--you know, all 
the things that made rural America--or farm--made America 
strong is kind of under attack, but that is how we live in 
rural America. And rural America is providing more habitat 
today for our species than they did in the past, and I think 
there is no discussion of that.
    In fact, I would be willing to bet, without having evidence 
to prove it, but I would be willing to take a bet--I am not 
normally a gambler--that there is more rural farmland going 
back to brush and woods than there is developed land around our 
cities that is being cut and diminished from having anything 
growing on it except a house and shrubs in the yard. But I 
think there is more of our natural rural land going back to 
nature than we have urban land that is being what you might 
call----
    Mr. Regula. You might want to put some statistics in the 
record.
    Ms. Clark. I am not a gambler either, but I would like to 
see statistics.
    Mr. Peterson. Yes. I don't hear much discussion of that, 
but it is happening. All right? I see it happening before my 
eyes.
    Ms. Clark. It would be a great debate.
    Mr. Regula. Mr. Cramer.

                     delhi sands flower-loving fly

    Mr. Cramer. I am not going to yield you any of my time, but 
that is a good conversation to keep going. I am fascinated by 
that.
    I would also like to build on Mr. Peterson's comments about 
the Endangered Species Act, and I would like to talk about 
enforcement of the Endangered Species Act. And I would like to 
use an example of one endangered species, the Delhi sands 
flower-loving fly. You are familiar with that. My colleagues 
might not be. But in San Bernardino County, California, we had 
an amazing impact there. This flower-loving fly lives in the 
ground in larval stages for 11 months and then comes out for 
about a month, and I assume eats flowers and then dies. But we 
have had a hospital that has had to be redesigned in San 
Bernardino, California, at a cost of $6 million, I think, over 
maybe eight flies, and the city of Fontana in that same county 
is now at risk of defaulting on infrastructure bonds for a 
housing program there.
    Could you talk to me about what can be done to help 
communities like that that suffer those kind of consequences 
and have to halt and have to have the domino occur that way? 
How can we help those communities and at the same time preserve 
the endangered species that appear?
    Ms. Clark. There are certainly a number of options, 
Congressman. I have listened to the debate on the flower-loving 
fly for a couple of years now and was somewhat familiar with 
the hospital issue. I know that we were providing a lot of 
assistance and technical support to the highway issue and the 
construction issue for the hospital expansion. This is a fly 
that certainly raises the eyebrows of a lot of folks regardless 
of how pretty it is.It is a fly that depends on a dune system, 
a Delhi sands dune system that we have lost almost all of in the State 
of California. So it is really a habitat-dependent species. It is a 
sentinel for an area, a kind of habitat that we have almost lost the 
entire remnant examples of.
    Our 2000 request for the cooperative endangered lands 
legacy initiative is perfect for those kinds of challenges and 
those kinds of conflicts.
    Mr. Cramer. The process you are talking about?
    Ms. Clark. The Habitat Conservation Plan process is the 
process to deal with the conflict, but our budget request 
addresses financial incentives, as well, for the counties or 
the State or local communities to engage in the HCP process, 
and land acquisition dollars to help offset, help purchase some 
of the mitigation needs.
    Mr. Cramer. Will that help in this case with the flower-
loving fly in San Bernardino County?
    Ms. Clark. It certainly should. I mean, that would be a 
good example. It certainly would be a good candidate.

                          MAINTENANCE BACKLOG

    Mr. Cramer. Surely. I want to switch now and ask you about 
your backlog maintenance problems. I have the Joe Wheeler 
Natural Wildlife Refuge in my congressional district, and you 
are providing an allocation of about close to a million dollars 
in your budget. That is obviously not adequate there or 
elsewhere with similar situations for the budget to meet all 
its operational and maintenance concerns.
    How do you plan to assist with refuges like Joe Wheeler to 
address their backlog maintenance problems?
    Ms. Clark. We have one of the best accountability systems 
to identify and address our maintenance needs for both our 
refuges and our hatcheries in the Fish and Wildlife Service. 
And we have a plan to address our backlog of maintenance over 
time. And certainly it is a pretty healthy backlog. The 
maintenance dollars are allocated every year based on the 
priority needs.
    Certainly right now we are focusing primarily on health and 
safety issues. We have got to be able to provide safe visits 
and safe employment for our own folks. And we are also focusing 
on critical resource protection needs, issues that are 
absolutely essential to the continued health of the critters 
that we are entrusted to protect.
    We have certainly addressed the maintenance backlog in our 
budget with a $9 million increase request in this year's budget 
for refuge maintenance. And I believe the committee has been 
very supportive in the last number of years. With the 1999 
enacted level and the Title V appropriation and the 2000 
request, we are able to make a dent of about 26 percent in our 
deferred maintenance backlog, which is quite impressive.
    We also have a great accountability system. What is really 
important is that we know that the monies are actually going to 
the project, and we have a nationwide accountability system 
that is evaluating and ensuring that the projects that are 
being funded are actually getting done.
    Mr. Cramer. Do you feel like you are gaining on the problem 
issue?
    Ms. Clark. Yes, we are.
    Mr. Cramer. I am a new member of the committee and----
    Ms. Clark. Yes, we are, and I would be happy for myself or 
some of the folks on staff to come up and chat with you in a 
more involved fashion about our maintenance issue. But we are 
making it.
    The other issue that has actually gone a long way to 
helping us was last year's Transportation reauthorization, TEA-
21. We got $20 million a year for the next 5 years, to address 
road maintenance and some of the backlog in our road systems, 
which is quite significant. So the additional $20 million to 
address our roads has really freed up additional money to be 
able to place on facilities and critical resource needs.
    So we absolutely do believe we are making progress. We have 
a lot of progress yet to go, but we are moving in the right 
direction for sure.
    Mr. Cramer. I am glad to hear that. Thank you, and I would 
love to have more information.
    Thank you, Mr. Chairman.
    Mr. Regula. Mr. Nethercutt.

                       HCPS FOR SMALL LANDOWNERS

    Mr. Nethercutt. Thank you, Mr. Chairman, and I welcome you 
to this hearing. I had a nice meeting with Ann Badgley last 
week, I think it was, and her team, and she was very gracious 
in coming in and talking about issues that affect the eastern 
side of the State of Washington and the Pacific Northwest in 
general.
    We talked a little bit about habitat conservation plans in 
the Northwest, and I appreciated the Fish and Wildlife Service 
working to solve the Caspian tern problem that affects salmon 
recovery in Rice Island. I understand there is some movement, 
literally movement----
    Ms. Clark. Literally, right.
    Mr. Nethercutt [continuing]. To remove those wonderful 
birds to other places where they don't feed on the smolts, and 
I am glad you are working on the problem.
    With regard to HCPs, I missed your earlier testimony, and 
if you have already covered this, forgive me. I don't want to 
have you repeat. But I am wondering what improvements you are 
looking at in the HCP process to help small landowners. How has 
it gone so far? What do you expect in terms of addressing the 
HCP for the small landowner as opposed to the major companies 
that are involved?
    Ms. Clark. Well, in the habitat conservation planning 
handbook that was developed jointly by us and the National 
Marine Fisheries Service, we tried to categorize different 
groups of HCPs depending on the effect. We have low-effect 
HCPs, which usually relate to small landowner issues, and we 
have developed expedited review procedures, expedited 
processing requirements, and the ability to group and lump some 
of those to move them through the system at a much more 
expedited pace than some of the large regional, comprehensive 
HCPs that we are working on.
    We have also tried in some of the further policy work that 
we have been doing to look for ways to not only streamline the 
process but to lump some of the biological objectives and goals 
together for small landowners in a specific geographic area, to 
help them move through the process in more of a cookie-cutter 
fashion. Those are my words, nobody else's. Plus we have in the 
budget request a private landowner incentives fund initiative 
that will provide financial opportunity to help them get to the 
process, whether it is in the development of the plan and the 
program or implementing the mitigation strategies. We are very 
sensitive to the small landowner issue.

                   LANDOWNER INCENTIVE GRANT PROGRAM

    Mr. Nethercutt. You received $5 million last year for the 
small landowner incentive program.
    Ms. Clark. Correct.
    Mr. Nethercutt. Have you used any of that money?
    Ms. Clark. Last month we sent out the request for proposals 
articulating the kinds of activities that are eligible for 
these funds. We have sent out a base of operation to each of 
our regions to allow them to provide the technical assistance 
to solicit and develop the proposals. We expect that feedback 
later this month, and we expect to have the dollars allocated 
by mid to late spring. We would be glad to provide you a report 
on that at that time.
    Mr. Nethercutt. I would appreciate it.
    Ms. Clark. But this funding, this $5 million, has generated 
a significant amount of interest, and we are excited about the 
opportunity to provide a monetary jump-start on some of these 
planning projects as well as on-the-ground mitigation. We are 
really looking at getting a lot of those dollars granted to 
provide on-the-ground results.

                  NUMBER OF HABITAT CONSERVATION PLANS

    Mr. Nethercutt. I understand there are around 500 HCPs at 
some stage in this small landowner process. Am I right on that?
    Ms. Clark. There are 500 plans in the entire HCP program. I 
am not sure how many of those are actually small landowner, 
low-effect HCPs.
    Mr. Nethercutt. How many of those are waiting to be 
finalized, would you say? And how many have you finalized?
    Ms. Clark. We have finalized probably about half of those, 
and when we say 500, many of those are in the early stages of 
development, some in the early discussion and negotiation 
stages. So they are not far enough along the trail to be in a 
permit processing stage. Many of those are in development.

                       DEMAND FOR HCP ASSISTANCE

    Mr. Nethercutt. Conceptually, it seems to make some sense, 
but, in fact, it seems to be terribly expensive, and my sense 
is it takes a lot of time. I don't know if that is your 
conclusion.
    Ms. Clark. It really depends. Certainly the low-effect HCPs 
and some of the middle-effect HCPs are not that expensive and 
timely. The frustration is the inability of our folks to 
provide timely technical assistance, which gives rise to the 
2000 budget request issue. The demand has just exploded, and we 
can't process and provide assistance fast enough. There is 
frustration because a lot of times we keep changing players at 
the table to meet the demands of the economic development 
needs.
    Some of these larger regional, comprehensive plans, all-
species plans, covering a large geographic area do take a 
longer amount of time. Certainly there is a concern about the 
cost. But the overall cost of every one I have ever evaluated 
and looked at, is a tiny fraction of the intended development 
objective. So, in the end, while they seem cumbersome and 
costly, the long-term freeing up of the economic development 
objectives clearly outweighs the cost of developing the 
mitigation strategy.

                        LAND ACQUISITION PROGRAM

    Mr. Nethercutt. I would just ask a few questions for 
response for the record, if I may, Mr. Chairman.
    The request for funding for the President's Lands Legacy 
Initiative is, I believe, $73.6 million for land acquisitions. 
Does that comport with your memory of such request, whatever 
the number is?
    Ms. Clark. Yes.
    Mr. Nethercutt. Do you have a list of lands that the Fish 
and Wildlife Service has investigated for this initiative? And 
how much of that land is private land? How much of it is under 
consideration, you know, the Pacific Northwest? And I am 
wondering, too, how many of these lands are considered end 
holdings?
    Ms. Clark. I don't have the specifics. We would be glad to 
get back to you.
    Mr. Nethercutt. If you would, I would appreciate it.
    Thank you, Mr. Chairman.
    [The information follows:]

                  President's Lands Legacy Initiative

    The President's Land Legacy Initiative for the Fish and 
Wildlife Service includes $114.6 million for both federal and 
state land acquisitions. This includes $73.6 million from the 
LWCF Land Acquisition account for acquisitions within National 
Wildlife Refugee boundaries. It also includes $41.0 million 
from the Cooperative Endangered Species Conservation Fund 
account, with $15.0 million for Species Recovery Land 
Acquisition grants to state sand $26.0 million in state grants 
for land acquisitions that support Habitat Conservation Plans.
    Within the Land Acquisition account, the FWS proposes to 
purchase additional lands within current refuge boundaries as 
identified in the following table. All the lands are privately 
owned, would be purchased from willing sellers, and are 
considered in-holdings. For the Pacific Northwest, the FWS is 
requesting an additional $800,000 to purchase 250 acres within 
the Oregon Coastal National Wildlife Refuge.
    The FWS has not yet determined which state or regional 
tracts would be eligible for Species Recovery or HCP Land 
Acquisition grants awarded from the Cooperative Endangered 
Species Conservation Fund. Grants will be awarded based on 
competitive proposals.
    The FWS would award Species Recovery Land Acquisition 
Grants which will help states to acquire lands in support of 
recovery tasks in approved recovery plans. With loss of habitat 
being the primary threat to listed species, land acquisition is 
often an essential element of a comprehensive plan for recovery 
of listed species.
    The FWS would also help state and local governments fulfill 
land acquisition components of HCP conservation programs, 
excluding private mitigation obligations from the HCPs. The HCP 
Land Acquisition program would help states and local 
governments plan for urban development and other economic 
activities while also protecting threatened and endangered 
species.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                    REFUGES WITHOUT FULL-TIME STAFF

    Mr. Regula. Last year you told us that 209 of 514 refuges 
were not staffed. Is that still true?
    Ms. Clark. It is probably still true, but many of those 200 
refuges are not intended to be staffed, anyway. They are 
satellites, and I think well over half of those aren't planned 
to be staffed. But, Mr. Chairman, we are undergoing a staffing 
study today, as a matter of fact, working with Loretta Beaumont 
and others, that will standardize the staffing requirements on 
the different categories of refuges, and we hope to get that 
finalized and analyzed this Friday.

                          BIOLOGY SPECIALISTS

    Mr. Regula. I notice you ask for 500 initial FTEs. How many 
of those are biologists or botanists? There seems to be a 
shortage of those.
    Ms. Clark. I would say the vast majority of those are 
biologists. Increasingly, we are hiring, at some stages in some 
of the programs, land use planners and hydrologists and folks 
with expertise in water management and things like that. But, 
by far, the vast majority are in some form of the life science, 
some expertise with the biological science.

                       SALTON SEA BIOREMEDIATION

    Mr. Regula. The Salton Sea. Are you working with California 
on the Salton Sea issue? And did they come up with the $1 
million that we have provided that they should have?
    Ms. Clark. Late last fiscal year they finally did come up 
with the match.
    Mr. Ceccucci. And, in fact, Mr. Chairman, they will be 
providing staff at the Salton Sea to help us with the cleanup 
of the dead birds this year.
    Mr. Regula. Okay. Does your budget for this year propose 
the continuation of that program?
    Ms. Clark. Yes, it does.

                             palmyra atoll

    Mr. Regula. Palmyra. We gave you $8 million from the Title 
V money for fiscal year 1998. What have you done with these 
funds?
    Ms. Clark. We are currently working with The Nature 
Conservancy to leverage with their land objectives to begin the 
acquisition of Palmyra.
    Mr. Regula. You are going to use the money?
    Ms. Clark. Oh, absolutely. Thank you for your support of 
that.
    Mr. Regula. The money wasn't spent for something else.
    Ms. Clark. No. It is at Palmyra and part of the negotiation 
for specific land acquisition.
    Mr. Regula. And you are working with The Nature 
Conservancy.
    Ms. Clark. Yes.
    Mr. Regula. Staff advises me that we heard that the family 
that owns it wants to back out of the deal. Is there any truth 
to this?
    Ms. Clark. I have not heard, but I would be glad to check 
into that. That is the first I have heard of it. I hope not.
    Mr. Regula. Mr. Dicks.

            cooperative endangered species conservation fund

    Mr. Dicks. I want to go back to the Cooperative Endangered 
Species Conservation Fund. As I understand it, that is being 
increased by $66 million to $80 million.
    Now, this money goes back to the States?
    Ms. Clark. There are a number of pots of money. In the $14 
million that is in the 1999 budget, a part of that money is for 
the HCP land acquisition program where we provide direct 
funding to the mitigation responsibilities of currently 
approved HCPs. Another part of that is our State grant 
cooperative endangered species funds where we provide money 
directly to the States to help them implement their endangered 
species priorities in conjunction with ours, and that is a 75/
25 percent match program.
    Mr. Dicks. Is that the $43 million?
    Ms. Clark. Then the $66 million additional dollars, part of 
the lands legacy initiatives, are aimed at a number of 
categories. An expansion of the HCP land acquisition program, 
$18 million of those dollars are aimed at candidate 
conservation agreements and safe harbor agreements, $10 million 
at the development and implementation of HCPs, and $15 million 
aimed at providing money to the States for land acquisition for 
species recovery.
    Mr. Dicks. Why do we want to give money to the States? Most 
of the States have surpluses, Mr. Regula always points out to 
me. Why do we want to give the States money to do this? And 
then it is State land, right? Then it becomes State land?
    Ms. Clark. It is protected state land. There is a huge 
competition for these dollars, and there certainly is a lot of 
demand.
    Mr. Dicks. There is.
    Ms. Clark. The Section 6 requires a cost share.
    Mr. Dicks. Twenty-five percent?
    Ms. Clark. Twenty-five percent, unless there is more than 
one State involved, and then we reduce it to 10 percent. States 
that have budget surpluses in the competition for these funds 
we imagine could probably choose to increase their cost-share 
capability and, therefore, we would get more conservation on 
the ground. States have a significant role in conservation that 
we are highlighting in the 2000 budget.

                  recreation fee demonstration program

    Mr. Dicks. Let's go to the recreation demo program. This 
year you will collect $3.4 million from the demo effort. Next 
year your estimate is $4 million. As you indicate in your 
statement, about 34 million visits are made annually to the 
National Wildlife Refuge System. The other agencies involved in 
the demo program appear to have a higher ratio of fees 
collected to visits experienced. Obviously, you can't collect 
fees everywhere, especially in a demo program. But I just 
wonder if the Service is really embracing the new fee 
initiative and doing all it can to implement the program.
    Ms. Clark. We are. We have 77 facilities today that do 
demonstration programs, 66 refuges and one hatchery, and plan 
to expand that next year.
    Mr. Dicks. Are you going to go up to 100? Which is what is 
authorized.
    Ms. Clark. We are working in that direction. It won't 
happen next year, it simply won't happen overnight. We are 
enjoying an increase in visitation, and we certainly have had 
no negativity associated with the fee demonstration program. So 
we are looking to expand it. We are embracing it as fast as we 
can, but not at the expense of our biological responsibilities 
on the refuges or the hatcheries.
    Mr. Dicks. Do you think this is a potent tool which, if 
properly used, would make a significant difference in the O&M 
of the refuge system, or as an unwanted and unwarranted 
intrusion into the typical way of doing business?
    Ms. Clark. It is certainly not an unwarranted and the 
typical--in whatever you said, intrusion. [Laughter.]
    I can't remember what you said. It is not one of those.
    Mr. Dicks. Unwarranted intrusion.
    Ms. Clark. Yes. It is not that. We have never looked at 
this as an offset to our operation.
    Mr. Dicks. The Park Service is making a lot of money on 
this.
    Ms. Clark. They are.
    Mr. Dicks. And they are doing a lot of good work and fixing 
up the parks with this. The question I have, I guess, here is: 
Is there some reticence about this by the Fish and Wildlife 
Service?
    Ms. Clark. No, we don't ever expect to have the kind of 
visitation that the National Park System has. It is not that we 
are not encouraging it, but these are land areas where the 
wildlife comes first, and we don't have the visitor facilities 
and don't intend to expand our visitor facilities at the 
expense of our biological programs. But where we do have 
visitor facilities and where we do have education facilities, 
we are encouraging the expanded visitation.

                       habitat conservation plans

    Mr. Dicks. I want to go back to the HCP issue again for one 
last effort here. I have been a big supporter of it. But if you 
read what Defenders of Wildlife says and what the University of 
Washington, my alma mater, says and these other scientists that 
gave information to Senator Chafee, it sounds as if all the 
scientific community feels that HCPs are inadequate, are not 
properly done.
    Now, is there any scientific testimony on the other side of 
this equation that says that these HCPs are being done 
properly?
    Ms. Clark. There certainly is. In fact, I recently was down 
in Brunswick, Georgia, along with the Environmental Defense 
Fund and some of the bird groups, celebrating a 5-million acre 
habitat conservation plan done by International Paper for the 
red-cocaked woodpecker. So there is a lot of science that says 
yes.
    Can we do better? Do we need to continue to look for 
creative science interaction on these HCPs? Yes. And we are 
looking to expanded participation, the specific articulation of 
biological goals, the monitoring program, which is hugely 
important, and the adaptive management techniques that we 
discussed earlier to further enhance and bolster the HCPs and 
the deals that we are making today.
    Mr. Dicks. Give me an example of adaptive management, of 
how that would be done to bolster the biological objectives.
    Ms. Clark. I will give you just a fictitious example that 
will illustrate the point.
    Let's say we are in the State of Washington and you have a 
timber company that is developing an HCP, and they have 20 
species that they want covered by the incidental take permit.
    Mr. Dicks. Right.
    Ms. Clark. For 15 of those species, we know what the 
mitigation requirements, are and we know that the evaluation of 
the land and the evaluation of the project is sufficient so 
that we can, with a high degree of confidence, declare and 
articulate the conservation requirements to minimize, mitigate 
and offset the intended take of the project. But for five of 
those species, we don't even know enough about the species or 
don't know enough about the interaction of the project with the 
habitat or the species to specifically make the deal for all 
time. So what is often set up is a series of survey 
requirements or monitoring requirements or habitat objectives 
that will guide the decision over time. The resulting 
offsetting mitigation responsibility will be dictated by the 
outcomes of the biological monitoring and the biological 
studies, and that becomes part of the plan.
    So the species are covered as long as the applicant or the 
permittee agrees to the outcome of the science evaluation and 
biological studies.
    Mr. Dicks. So then it will depend upon the information that 
is gathered further----
    Ms. Clark. Correct.
    Mr. Dicks [continuing]. What steps are going to be taken--
--
    Ms. Clark. Right.
    Mr. Dicks [continuing]. On the remaining five.
    Let me ask you one other thing. If there is a jeopardy 
opinion at some point, does that still--does HCP still stay in 
effect? Are there still no surprises if there, in fact, is a 
jeopardy opinion?
    Ms. Clark. When we are evaluating a habitat conservation 
plan, if we can't write a non-jeopardy opinion before we issue 
the permit--is that your question? We don't issue permits based 
on the jeopardy opinion, but we also have a much bigger problem 
if through the interactive negotiations we haven't successfully 
negotiated an HCP with the applicant that is non-jeopardy to 
the species. This is why more and more we are trying to get 
involved early in the process and work along with the 
applicants and why the bulk of our budget increase request for 
operations is in the consultation arena. The consultation line 
item of our budget deals both with Section 7, the Federal 
agency interaction, and the HCP program. We don't issue HCPs in 
a jeopardized species, and we don't issue permits for habitat 
conservation plans that cause jeopardy to the species.
    Mr. Dicks. I guess what I am trying to say is that if at 
some later point for some reason a jeopardy opinion came down 
in a State where you had both--like say you have in Washington 
State where you have Option 9 and you have got these HCPs, and 
for some reason there is a jeopardy opinion, that would still 
not affect these HCPs.
    Ms. Clark. This is the hypothetical?
    Mr. Dicks. Right.
    Ms. Clark. Now I get it. We have always believed that there 
are either land exchange opportunities or other Federal 
authorities or other ways to address the needs of the species, 
that we would never allow a species to decline to the jeopardy 
level. So there is enough creativity out there to deal with it.
    Mr. Dicks. Thank you.
    Mr. Regula. Mr. Skeen.

                         southwest water crisis

    Mr. Skeen. Thank you, Mr. Chairman. One last quick 
question. You know what the drought conditions are. Is there 
any plan by the Service to acquire some more water rights to 
keep the habitat in good condition?
    Ms. Clark. Not to my knowledge, but I would be happy to 
look into that. I am just not familiar----
    Mr. Skeen. I would appreciate it.
    Ms. Clark. I think we have a water crisis in the Southwest 
and all of us are working together to try to figure out how to 
deliver it to the communities and to the tribes and to the 
species. This year we are profiling the Southwest initiative in 
the budget. The Southwest is, from my perspective, one of the 
most ecologically challenged parts of the country today, and 
the 2000 budget increase, primarily aimed at dealing with the 
endangered species issue, is to address the high degree of 
conflict and the high degree of ecological sensitivity in the 
Southwest.
    Mr. Skeen. I appreciate that. Thank you. You have been 
aware of what the situation is. I don't have any solutions, and 
I don't think the Department does either. Maybe together you 
can come up with something.
    Ms. Clark. Absolutely. We would be glad to work with you on 
that.
    Mr. Skeen. There have been more problems over water rights 
than there ever was anything else. They go to war over that 
quicker than anything.
    Ms. Clark. They do. It is very serious. Water is liquid 
gold in the Southwest.
    Mr. Skeen. I wouldn't want to see anybody from the 
Department injured over this period of time nor----
    Ms. Clark. Nor would I.
    Mr. Skeen [continuing]. Any of my constituents.
    Ms. Clark. I agree.
    Mr. Skeen. Thank you.
    Ms. Clark. Thank you.
    Mr. Regula. Mr. Peterson.

                    great lakes research laboratory

    Mr. Peterson. Yes. Do you have a research laboratory that 
works kind of specifically on Great Lakes issues, on the 
recovery of our Great Lakes?
    Ms. Clark. The U.S. Geological Survey has a number of 
research facilities that work on the Great Lakes. In fact, we 
work very closely with those labs in recovering the Great 
Lakes.
    Mr. Peterson. Do you know which laboratory is specifically 
working on the Great Lakes?
    Ms. Clark. We have--I call it the Great Lakes lab in Ann 
Arbor, Michigan, that works very directly with the Great Lakes 
recovery effort, some of the research on the invasive exotic 
species, some of the evaluation of what is going on.
    Mr. Peterson. I have one in my district at Wellsboro. It 
was built about 12, 15 years ago. It was under your--not yours 
but your Department's rule for a while. Now it is under U.S. 
Geological Survey's. But it is a pretty sophisticated 
laboratory. We have had some universities look at it, and they 
were taken aback by the quality of the equipment and the 
capacity that is there. It is probably athird utilized, at 
most. The raceways are sitting unused. They haven't been used for a 
number of years. But the internal part is still highly underutilized.
    Do you have need for that kind of capacity to deal with the 
issue?
    Ms. Clark. Well, we have 66 hatcheries today in the system 
that are primarily working on restoration and recovery 
activities for native fishes, and we are working very closely 
with the USGS on research objectives and monitoring objectives 
for native species. I am not actually familiar with the one in 
Wellsboro, but we can look into it.
    Mr. Peterson. I guess there are those who think that you 
are not supportive as well as you used to be when you had your 
own system, when you were under control of these research labs 
that were meeting your needs. But it seems such a waste for 
such a high-tech lab, a quality lab built 12, 15 years ago. It 
is so underutilized today. I guess I would like to further 
explore that with you.
    I guess the other issue, having a district that is very 
close to Lake Erie, I wondered if we were doing adequate work 
or if this laboratory maybe could be funneled towards Lake Erie 
work--or not just Lake Erie but all the Great Lakes.
    Ms. Clark. It would certainly be worth exploring with USGS, 
but I will tell you that USGS is providing a tremendous amount 
of science and biological expertise towards the Great Lakes 
recovery activities, and we have a significant effort in that 
area as well. I sit as the Federal Commissioner on the Great 
Lakes Commission, and we are dealing with some pretty serious 
issues with invasive exotic species and have requested a budget 
for us to deal with that.
    In places like the Great Lakes, the march of exotic species 
and invasive species is overwhelming in their effects on 
natural communities, and it is something we really all need to 
pay attention to. But the Great Lakes is a prototype for 
collaboration and recovery and restoration of not only a 
tremendous fishery but a tremendous recreational area.
    Mr. Peterson. We would like to explore that with you 
because it is a great Federal resource.
    Ms. Clark. Sure, we would be happy to.
    Mr. Regula. Mr. Kingston.

                      savannah river port project

    Mr. Kingston. Thank you, Mr. Chairman.
    Ms. Clark, let me ask you one question of local concern. I 
represent Savannah, Georgia, and we have the Savannah River 
where the port in the State is interested in dredging the river 
to make it deeper, I think moving it down from approximately 42 
to 48 feet, something thereabouts.
    The project has concern from the environmental community 
and Fish and Wildlife, and actually the industry along the 
waterfront is split on it as well. But it is something of very 
major importance to the State. The Governor, for example, put 
$10 million in the budget, in the State budget, and it has got 
a lot of bipartisan support, got a lot of Chamber of Commerce, 
industry-type support, big jobs issues, lots of unions are 
interested in it. But at the same time, there are very 
legitimate concerns about the salt water intrusion that could 
result from it. There are concerns about the sturgeon and the 
striped bass population.
    We have worked with your folks down there, and let me 
commend them, Sam Drake and Sam Hamilton, first class. We have 
enjoyed working with them. A little disappointment, though, in 
terms of the Fish and Wildlife decision to withdraw from the 
process at this point, and the process called for what we 
deemed a stakeholders group that was a collaborative effort of 
the Georgia Ports Authority, the municipalities who wanted to 
participate, Fish and Wildlife, EPA, the State counterpart, 
which is the Environmental Protection Division in Georgia, 
Sierra Club, people who have interest in the waterfront, 
businesses and so forth. So, you know, kind of the mixed 
assortment of people.
    We wrote language in the legislation last year which would 
have been part of WRDA, and even though WRDA did not pass, the 
language still stands that set up this collaborative, but it 
was called the Stakeholders Evaluation Group, SEG.
    Fish and Wildlife worked with us constantly in that 
process, writing this language, and in the language are a 
number of kill switches that if the science proves that it is 
harmful to the species or the fresh water or whatever, then the 
kill switches really just stop the project right there and 
then, at the point where the science says this is a bad 
project.
    Much to my extreme disappointment and somewhat surprise, 
Fish and Wildlife has withdrawn from the process now, and, you 
know, my feeling is that it is real disingenuous for us to put 
in the time that we did with your folks to draw up language and 
check it with them and massage it and tweak it here and there 
over a period of months, and then have them pull out.
    Now, I would expect that from certain other groups. There 
is one environmental group, for example, who does it because 
they want the press hit, and I understand that. The Sierra 
Club, incidentally, has not. They are still at the table. But I 
was really surprised when the governmental agency did that, and 
then cited a conflict of interest. I was thinking, you know, 
next time don't come to call on our office if we are just going 
to play games about it.
    You know, again, I would expect a citizens group to do that 
but not a Government agency, particularly one that we think 
highly of. Your personnel are very professional. They do have 
some grave concerns about the project overall, which I see. But 
at this point, we are not talking science. We are talking 
process and to some degree politics. And, you know, when we 
come to the point where, yes, it is going to hurt the striped 
bass, then walk, raise Cain, pull all your kill switches, do 
whatever it takes. But until we get to that point, I feel like 
it is the responsible thing for you guys to stay at the table.
    Ms. Clark. Mr. Kingston, this project has just recently 
been brought to my attention by both Sams, actually, and you 
are right, the Fish and Wildlife Service does have grave 
concerns about this harbor-deepening project. From what I was 
told about the project, the last deepening of the channel wiped 
out one of the most significant striped bass fisheries in that 
part of the world and impacted several thousand acres of the 
refuge. So I think our folks' concerns were clearly articulated 
in the debate.
    There had been some concern--you are probably aware of it--
that there is an inappropriate, premature race to get the 
project authorized in the Water Resources Development Act 
legislation, and our folks were very concerned that there was 
an intent or a desire to not even complete the National 
Environmental Policy Act compliance process. And so they were 
raising those objections and those concerns at the meetings.
    That doesn't mean that they didn't want to continue towork 
along with the folks on the group, but from what Sam Hamilton was 
sharing with me, there didn't seem to be an interest in evaluating the 
alternatives.
    Now, the project was going forward. They were getting the 
authority in WRDA, and they were going to go after trying to 
mitigate impacts that many believe, including us, to some 
degree, are unmitigable. But I would be happy to talk to Sam, 
certainly given your perception of the project and your 
perception of the process, and see if there is a way that we 
can contribute in some kind of valuable fashion. But if the 
notion is to move this project through an authorization process 
without completing compliance with applicable laws, then our 
folks have already registered and documented the concerns about 
this further deepening of the channel, not only to an important 
fishery but to one of our significant coastal refuges. Our 
folks are going to better put their efforts on providing fish 
and wildlife coordination advice and other processes to 
document the concerns about fish and wildlife resources.
    But I am happy to talk to Sam about it. That is the 
briefing that I got.
    Mr. Kingston. And I think what you are saying is 
legitimate, although let me say in terms of the previous 
projects and salt water intrusion and the impact on the striped 
bass, I think Fish and Wildlife was not out of that process. 
You know, there was an inexact science that involved a tide 
gate, and I think if we look back at that fairly and honestly, 
we would say that the Fish and Wildlife did not protest the 
tide gate being constructed. I think the results of it were 
certainly unintended on everybody's measure, but it didn't mean 
that Fish and Wildlife wasn't, you know, a tad little bit 
responsible there. I would just say that they weren't totally, 
you know, the purest of the waterfront.
    Again, I am saying this respectfully, but I am saying that 
everything that you have just said, which is what Sam Hamilton 
has said also, you know, was known in April when Fish and 
Wildlife worked with us on this language. And so I think--and 
another thing is the facilitator has been switched. We can 
work--if the process needs to be improved, we can work with the 
Governor's office to try to get the process to have the 
integrity the Fish and Wildlife thinks that it is lacking, or 
whatever may be the process problem, we can try to repair that. 
And I am--you know, right now we have our Democratic U.S. 
Senator and our Republican U.S. Senator 100 percent in support 
of this project. And ours is the only office who is trying to 
say, okay, let's do this process and kind of look at it very 
slowly because we are going about it cautiously and felt a 
little bit abused when, you know, we found out that you all 
were out of it.
    I don't want to see a hardball-type approach here where you 
have one side versus the other. You know, I am a believer that 
if everybody is at the table, something can be salvaged here 
and there to make everybody happy. But, you know, ultimately I 
do realize that the project probably has less than a 50 percent 
chance of ever getting done. But it is not going to be without 
a lot of screaming and crying when that comes. But when that 
comes, we will face it.
    Ms. Clark. Well, I tell you, I would be happy to talk to 
Sam. It is seldom when alarm bells on something like this come 
so fast to Washington, and they did on this particular project 
and it was just brought to my attention. Sam is out of town 
this week, but I will be happy to get with him next week----
    Mr. Kingston. Yes, and let me just say----
    Ms. Clark. I know the frustration. There certainly was no 
disrespect or intent to abuse, but it is an issue that is of 
significant concern. Whether we were complicit or knowledgeable 
in the previous project, maybe there were some lessons learned 
that we don't intend to repeat again.
    Mr. Kingston. Also, one other thing for background. The 
Georgia Ports Authority, since they are, I guess--they enjoy a 
widespread amount of support, bipartisan. I think they, too, 
were shocked when this thing just didn't go through. And so on 
one side, you have a good sense going through too fast, then 
you have their perspective, which is, well, how dare you 
question this?
    So, you know, we are trying to get two reluctant dance 
partners to come to the floor. One wants to fox trot, one wants 
to jitterbug, and you have got little kinks to work out.
    Ms. Clark. I tell you, when Sam gets back in town, I will 
get some better information. I will be glad to come up and chat 
with you about it personally in the next few weeks.
    Mr. Kingston. That would be very, very helpful, and I 
certainly would appreciate that.
    Mr. Chairman, I have a couple other questions, if you want 
to go around, because I see Mr. Dicks has got his time button. 
I can look in his eyes.
    Mr. Dicks. You know I have an appointment at 11:30.
    Mr. Kingston. I appreciate that.

                     travis county land acquisition

    Mr. Dicks. I will take one question. This is not for me. 
This is for Congressman Doggett.
    Last year under Section 6, habitat conservation funds, the 
Fish and Wildlife Service made $2 million available for 
purchase of the 490-acre Vista Point tract in Travis County, 
Texas, which is critical habitat for the golden-cheeked warbler 
and the black-caped virio.
    Ms. Clark. Black-capped virio.
    Mr. Dicks. Virio, a native species of bird. However, 
approximately 5,000 acres must still be obtained to protect the 
remaining habitat.
    The Congressman would like to know what the Fish and 
Wildlife Service's intentions are concerning putting options on 
the remaining critical parcels.
    Ms. Clark. We are continuing to work with Trust for Public 
Lands and some of the other groups in the greater Travis County 
area, and certainly looking to continue to use some of the 
dollars, indeed, seeking land acquisition funds to explore 
willing-seller land opportunities. And so it is on our radar 
screen, and both Dave Frederick, whom you know, and the 
regional director are continuing to work with not only the 
local groups but the interested community in shoring up the 
terms of the refuge.
    Mr. Dicks. Thank you very much.
    Thank you, Mr. Chairman.

                        pandas for national zoo

    Mr. Regula. What is the Service's involvement in the 
National Zoo's effort to obtain two new giant pandas from 
China?
    Ms. Clark. Well, certainly we would be the permitting 
authority, and I know that we have been working very closely 
with them on their desire to bring pandas into the country.
    Mr. Regula. Do you think there is a possibility of this 
happening?
    Ms. Clark. I am not real sure. We have Marshall Jones, our 
Assistant Director for International Affairs, here who has been 
working on it personally. He would be glad to respond for the 
record.
    Marshall, this is the work with the National Zoo on pandas.
    Mr. Jones. Thank you, Jamie.
    Mr. Chairman, the National Zoo has submitted an application 
for a permit to import giant pandas. It is not complete yet. 
They have only submitted a part of it.
    Mr. Regula. They have to get a permit from you to do that?
    Mr. Jones. Yes, sir, they do.
    Mr. Regula. Do they have the pandas signed up if they can 
get the permit?
    Mr. Jones. I believe they do. They have had discussions 
with China.
    Mr. Regula. What is the hesitancy of giving them a permit? 
People are thrilled to have the pandas.
    Mr. Jones. Mr. Chairman, we would be thrilled for them to 
have them, but we do have a panda policy which we published 
last year which outlines the conditions which would have to be 
met under the Endangered Species Act and under CITES, 
Convention on International Trade in Endangered Species. And we 
don't have the full application from them yet. They haven't 
given us all the details. So we haven't really been able to 
start the full process.
    Mr. Regula. Well, I just hope this doesn't get bogged down 
in bureaucratic legalese because people enjoy the National Zoo 
and having the pandas there. It would be a nice addition. I am 
assuming there would still be some left in China. So it is a 
win-win.
    Mr. Jones. Mr. Chairman, we will process it promptly when 
we get all the information. There are high standards, and so we 
have been working with the zoo and will continue to do that. 
But we can't actually start the full process until we see their 
entire proposal.
    Mr. Regula. Okay. Thank you.
    Mr. Kingston.
    Mr. Kingston. Thank you, Mr. Chairman.
    Mr. Chairman, I hope when they get that panda, they get one 
with a little more showmanship than what we have now. 
[Laughter.]
    Mr. Kingston. My kids have been to the National Zoo five 
times, and they have yet to catch the pandas. They are 
introverts.
    Mr. Regula. We would welcome, some other characteristics 
too, so we can have more pandas. [Laughter.]

                            brown tree snake

    Mr. Kingston. Let me ask you about the brown tree snake. 
Are you aware that USDA has trained Jack Russells to identify 
brown tree snakes?
    Ms. Clark. No, I am not. Jack Russell terriers?
    Mr. Kingston. Yes. They have 14 of them.
    Ms. Clark. To identify them or to----
    Mr. Kingston. I guess identify, seek, and destroy.
    Ms. Clark. Hunt them down, yes, I was getting ready to say.
    Mr. Kingston. But just as you are looking at invasive 
species, you may want to--and I don't know if it is APHIS or 
ARS.
    Ms. Clark. I just was told that the USDA is training those 
dogs to inspect cargo. That does make sense to me, to look at 
incoming cargo and luggage for the presence or absence of 
snakes--like bomb-sniffing dogs or trained dogs in a particular 
scent--to ensure that we are not spreading the brown tree snake 
problem. I didn't know they were Jack Russells.
    Mr. Kingston. Yes. They are probably very expensive. They 
have 14 of them.

                            longhorn beetle

    Also, on your invasive species, you don't list the longhorn 
beetle. Is that something that you are not doing, insects, or--
--
    Ms. Clark. No, we do evaluate insects for sure, but there 
are a couple of different issues. Our invasive species issue 
not only deals with plants, but other species that affect the 
natural biological community. So our budget initiative is not 
necessarily by list, though we have a number of specific 
projects that I would be happy to provide you for the record of 
what we intend to do with invasive species.
    Mr. Kingston. Well, some questions have come up about Asian 
longhorn beetles, and it is interesting. The inspection of 
products coming from that part of the world has changed--it 
used to be fumigated stateside. Now it is being fumigated 
elsewhere and it seems maybe that is leading to the problem, 
but it involves methylbromide and we are all trying to get away 
from that. There is no substitute yet, but that is the 
effective way to----
    Ms. Clark. They treat it over in the country of origin.
    Mr. Kingston. Yes, but they don't seem to be doing as well 
as we did, and I am sure overall they are not treating----
    Ms. Clark. That is a species that is considered an invasive 
exotic. We would agree with that.
    Mr. Kingston. If you have anything you want to share on 
that, fine. If you don't, don't worry about it.

                          duck stamp revenues

    On land acquisition, the $73 million that you are 
requesting, how does that tie into the duck stamp money that 
you use? And you do get duck stamp money, correct? And you have 
your own authority to purchase land with that.
    Ms. Clark. Right, we have the Land and Water Conservation 
Fund authority, which allows us to purchase lands for addition 
to the National Wildlife Refuge System. We also have the fee 
income from the duck stamp program that, through the Migratory 
Bird Conservation Commission, allows us to add valuable wetland 
and other kind of migratory bird habitat to the refuge system 
as well. So they complement each other.
    Mr. Kingston. Do you know how much you get from duck 
stamps?
    Mr. Ceccucci. About $24 million.
    Ms. Clark. About $24 million.
    Mr. Kingston. So you have about--I will say, last year 
about $50 million from----
    Ms. Clark. LWCF.
    Mr. Kingston. Yes. Is that correct? And then another $25 
million from duck stamps?
    Mr. Ceccucci. Yes, that would be about right.
    Mr. Ashe. A little more than that. We get about $24 million 
from the sale of duck stamps, and then we get another about $20 
million from import duties on arms and ammunition. The duck 
stamps and the import duties on arms and ammunition constitute 
the migratory bird fund. And then a small amountof revenue from 
entrance fees at refuges, but it is very small, so about $40 million is 
added to our land and water fund appropriation.
    Mr. Kingston. Okay. On that money, you have your own 
discretion on what to purchase; whereas, land and water 
conservation you have a congressional sign-off. Is that----
    Ms. Clark. The duck stamp dollars, for want of a better 
word to call them, are used for habitat acquisition or land 
acquisition with the approval of the Migratory Bird 
Conservation Commission, a commission that has two sitting 
Senators and two sitting Congressmen.
    Mr. Kingston. Who appoints those?
    Mr. Ashe. The congressional Representatives come from the 
speaker of the House, and the majority leader in the Senate. 
They come from Congress.
    Mr. Kingston. I think Curt Weldon is one.
    Ms. Clark. Yes, he is.
    Mr. Kingston. Who is the other one?
    Ms. Clark. Congressman Dingell.

                           amphibian decline

    Mr. Kingston. Okay. The next question: Are you doing 
anything about this apparent world crisis with amphibians?
    Ms. Clark. Yes. The amphibian decline.
    Mr. Kingston. What are you doing? Because I don't see 
anything listed here.
    Ms. Clark. In our Environmental Contaminants program, we 
have the modest increase of $500,000 for addressing the 
amphibian decline issue, primarily on our refuge lands. But it 
is a very serious crisis worldwide, certainly within the United 
States, and we are seeing it on the endangered species side of 
the house as more of these amphibians are beginning to decline 
and become candidates for listing.
    Mr. Kingston. Do we have any idea how bad it is right now? 
Because I think the difference between the ordinary endangered 
species list and this is happening a lot faster in terms of the 
decline in their population.
    Ms. Clark. It is happening a lot faster, and there are a 
lot of folks that are beginning to finally pay attention to the 
amphibian decline.
    We have 16 species that are currently listed as endangered 
or threatened, and we have additional ones that are up for 
listing. So that is sending a pretty strong signal that the 
unfortunate opportunity is certainly increasing.
    The fact that there is now a multi-agency task force to 
deal with amphibian decline I think is very important, and we 
are all exploring not only our own authorities but our 
respective expertise to bring to bear on this. It is a big 
science question.
    Mr. Kingston. I would like to get something from you on 
what you are doing----
    Ms. Clark. Okay.
    Mr. Kingston [continuing]. Some information on that.
    Now, you have an endangered species background.
    Ms. Clark. Yes.
    Mr. Kingston. And, you know, one of the unintended 
consequences of our endangered species policy is landowners who 
have habitat who really should be partners with Fish and 
Wildlife now in many cases have become adversaries because, if 
you know, you find the red-cockaded woodpecker, they don't want 
to have anything to do with you anymore.
    Realizing that that is out there, on the amphibian 
question, do you think it would be possible maybe to try a 
different approach in terms of landowner cooperation to get 
them involved in this?
    Ms. Clark. Well, this administration has really worked hard 
over the last few years to incorporate more incentives into the 
Endangered Species Act. And every time we have gone at the 
reauthorization of the ESA, we have tried to incorporate 
incentives. Absent reauthorization, we have launched a number 
of administrative reforms to address the kind of fear factor of 
private landowners and endangered species. In your part of the 
world, we launched the Safe Harbor program, and it has done 
tremendous things for reducing the fear for private landowners 
with the red-cockaded woodpecker. That is where we launched the 
whole project. Safe Harbor is a program under the Endangered 
Species Act that provides incentives and removes that fear of 
future regulatory intrusion, if you will, for activities above 
what the private landowner currently has in their baseline.
    So, for instance, if somebody currently has no woodpeckers 
or two woodpeckers and decides they want to grow their timber, 
they can do that through an agreement with us without fear of 
future regulation for additional woodpeckers that come to their 
backyard.
    We have those kinds of incentive programs that are, I 
believe, going a far distance to removing the fear associated 
with finding a listed species in your backyard. I do believe we 
need not only an education campaign, but a better understanding 
of what is causing this amphibian decline, because I imagine 
there is a whole variety of environmental effects that is 
contributing to the decline. And I think through education, and 
voluntary technical assistance programs, habitat restoration 
programs, all the kinds of authorities that you would deploy 
before it becomes an Endangered Species Act issue, that we 
could get some very serious public support for addressing this 
decline. All of the agencies involved in this task force are 
really looking for ways to address this before it becomes an 
Endangered Species Act crisis.
    Mr. Kingston. I think this is going to have some very 
complicated reason that this is going on. You know, what I am 
afraid of is we are going to take the traditional knee jerk, 
you are using too many pesticides, when, you know, 25 years ago 
the pesticide level was a lot worse, but the frog population 
was a lot higher.
    What I would really implore you to do is make sure that on 
the front end the landowners are buying in to the direction you 
are going because I do think it is a great crisis, particularly 
since we just don't have any idea what it----
    Ms. Clark. This is a huge challenge, and I would venture to 
say that it is not a single-faceted problem. It is not a 
single-faceted solution either, for that matter. But we are 
being very careful to not overreact to the crisis.
    Mr. Kingston. Okay. Those are all my questions. We are 
recessed. Thank you very much.
    [The following questions and answers were submitted for the 
record:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


=======================================================================


                       Department of the Interior

                         National Park Service

=======================================================================

      
                                         Wednesday, March 17, 1999.

                         NATIONAL PARK SERVICE

                               WITNESSES

ROBERT G. STANTON, DIRECTOR
SUE MASICA, ASSOCIATE DIRECTOR, ADMINISTRATION
DENIS P. GALVIN, DEPUTY DIRECTOR
MICHAEL SOUKUP, ASSOCIATE DIRECTOR, NATURAL RESOURCE STEWARDSHIP AND 
    SCIENCE
WILLIAM D. SHADDOX, ACTING ASSOCIATE DIRECTOR, PROFESSIONAL SERVICES
C. BRUCE SHEAFFER, COMPTROLLER
DONALD J. BARRY, ASSISTANT SECRETARY, FISH AND WILDLIFE AND PARKS
JOHN TREZISE, DIRECTOR, OFFICE OF BUDGET
BARRY T. HILL, ASSOCIATE DIRECTOR, ENERGY, RESOURCES, AND SCIENCE 
    ISSUES, RESOURCES, COMMUNITY AND ECONOMIC DEVELOPMENT DIVISION, 
    GENERAL ACCOUNTING OFFICE
    Mr. Regula. The subcommittee will come to order.
    First, we are going to hear from the GAO. All your 
statements will be made a part of the record. We will 
appreciate if you summarize for us.
    Mr. Hill, you may proceed.

                         GAO Opening Statement

    Mr. Hill. Thank you, Mr. Chairman and members of the 
subcommittee. Before I begin, please allow me to introduce my 
colleagues. With me today, on my left, is Cliff Fowler, and on 
my right is Ned Woodward, who, together with Paul Staley and 
Frank Kavolic from our staff, performed the work we will be 
presenting today on the Park Service's employee housing 
program.
    It is certainly a pleasure for us to once again appear 
before this subcommittee to discuss the Park Service's housing 
program. The Park Service provides housing for its employees 
when either affordable housing is not generally available or 
staff are needed so that they can be available to respond to 
after-hours incidents within the parks. Over the past 10 years, 
the agency has spent about $175 million on employee housing. In 
addition, the agency estimated that it needs about another $300 
million to repair and replace some of its existing housing 
inventory.
    In October of 1997, we testified before this subcommittee 
about the Park Service's management of this program. At that 
hearing, the Park Service committed to improve its housing 
program by revising its housing policy, and to conduct a park-
by-park assessment of its need for employee housing. My 
testimony today will discuss the progress that the agency has 
made in accomplishing these tasks and identifies some 
implementation concerns we noticed that could preclude the 
agency from fully implementing the intended reforms.
    Let me start by discussing the progress the agency has 
made. To its credit, the Park Service has met both of its 
commitments that it made to this subcommittee. In November of 
1997, the Park Service issued a revised housing policy. The 
stated goal of this policy is for parks to have the minimum 
number of housing units they need to meet their mission. The 
new policy calls for the Park Service to rely on the private 
sector to provide housing for its employees to the maximum 
extent practical, and for Government housing to be provided 
only after all other alternatives have been exhausted.
    The Park Service also awarded contracts to two firms to 
conduct park-by-park assessments of its housing needs. Park 
Service officials said that they used contractors because the 
agency wanted to obtain a consistent and objective review of 
housing needs, and because park staff generally do not have the 
expertise needed to properly analyze local real estate markets.
    The contractors' assessments were conducted by applying the 
agency's housing policy to individual parks. The two 
contractors conducted 145 park assessments, primarily at parks 
with 5 or more housing units. The 145 parks assessed by the 
contractors contained about 4,250 of the agencies 4,400 housing 
units, which is 97 percent of the total units. The contractors 
completed their assessment in November of 1998, and after the 
assessments were completed, the agency permitted individual 
park managers to review the contractors' work and to determine 
their own minimum number of housing units needed for their 
parks.
    Unfortunately, after spending $1.9 million for getting an 
independent assessment of its housing needs, the agency may be 
in no better position to justify its housing inventory than 
before the recent initiatives began. Our concerns about the 
implementation of these initiatives focus on two areas. First, 
there are significant differences between the contractors' 
assessment of the amount of housing needed under the agency's 
new policy and what park managers still believe they need. And 
second, there has been little response to pursuing and 
implementing alternatives to in-park housing.
    First I will discuss the differences between the park-by-
park contractors' assessments and the park managers estimates. 
The contractors' assessments showed that under the housing 
policy, most parks have too much housing; specifically, 522 
units too many. However, park managers say that most parks 
either need more housing or have about the right amount of 
housing. Specifically, park managers say that the agency needs 
760 more housing units than it currently has. In all, the total 
difference between the contractors' and the park managers' 
assessments amounts to 1,282 units, that's about 30 percent of 
the parks' inventories, and in anyone's views is an extremely 
large difference of opinion.
    Our analysis show that the major difference between the two 
assessments was that the park managers did not assess their 
housing needs consistent with the Park Service's own housing 
policy. For example, the current housing policy allows 
volunteers or other unpaid staff working in a park to occupy 
in-park housing as long as the housing is not needed for park 
employees. However, many park managers are providing housing to 
volunteers and unpaid staff even though the housing was not 
considered excess. At the 145 parks assessed, about 830 housing 
units are currently occupied by volunteers and other unpaid 
staff.
    The Park Service's housing policy also does not recognize 
deterrence as a reason to provide in-park housing where it is 
otherwise available. Nonetheless, several parks we visited 
justified additional housing beyond the contractors' 
assessments on the basis of providing a deterrence to crimes 
against park resources.
    In addition, the revised housing policy states that 
providing housing for staff needed to respond to emergencies is 
a criterion that can be used to justify housing, and the 
contractors' considered this in their assessments. However, 
some park managers increased the number of housing units needed 
for such staff far beyond the number of units suggested in the 
contractors' assessments. For example, at Yosemite National 
Park, the contractor determined that, based on agency criteria, 
the park needed 69 units for staff to respond to after-hours 
incidents. However, the park managers' estimate this number 
more than double, to 175 units.
    Another way of minimizing employee housing is to pursue 
other options to in-park housing, such as moving administrative 
functions outside of parks, leasing or purchasing private 
residence in communities, or working with private developers to 
build apartments or other dwellings. However, none of the parks 
we visited could provide us examples where they had pursued and 
implemented alternatives to in-park housing. In addition, at 
the two regional offices we visited, regional officials could 
only provide one example of a park implementing such an 
alternative. These two regions contained over half of the 
agency's housing inventory. Furthermore, agency headquarters 
housing officialswere aware of less than five examples where 
parks had implemented some alternatives to in-park housing.
    While agency officials acknowledge that more could be done 
to reduce the amount of housing provided through implementing 
alternatives, they also indicated that there is frequently no 
incentive for park managers to pursue alternatives to in-park 
housing. In fact, if anything, there is a disincentive to 
implementing alternatives since the funding for many 
alternatives would come from park operating budgets.
    In closing, Mr. Chairman, it has taken an Act of Congress 
to move the agency to revise its housing policies and make 
arrangements to determine its need for its housing inventory. 
However, while the Park Service has taken these steps, many 
park managers appear to be resisting the agency's new housing 
policy. In addition, the agency may be compromising the 
benefits it obtained from its contractors' needs assessments if 
it permits park managers to determine their own park's housing 
needs.
    The factors, combined with the absence of park managers' 
initiatives in pursuing alternatives to in-park housing, raise 
questions to us about whether the agency is positioning itself 
to meet its housing needs in the most efficient and effective 
way. Until this can be determined, any future funding request 
to Congress for additional in-park housing would be 
questionable.
    This concludes my statement, Mr. Chairman. I would be happy 
to respond to any questions you may have.

                         GAO written testimony

    [The statement follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Regula. Thank you very much.
    I have a couple of questions and then we will move to our 
members. You pointed out in your testimony you have been 
working on Park Service employee housing since 1993. Based on 
this experience, do you agree with the Park Service's new 
housing policy?

                      Assessment of housing policy

    Mr. Hill. Yes, we do. The new housing policy is very 
consistent with the recommendations that we made in our past 
work, as well as with the legislation that was passed by the 
Congress in 1996. We believe if this policy were properly 
implemented, the amount of employee housing would be minimized 
and the amount of Federal appropriations needed to support this 
program could be substantially reduced.
    Mr. Regula. Your statement indicates a dramatic difference, 
1200 units, between what is needed according to the 
contractors' analysis versus the housing needs determined by 
the park managers. How do you explain this discrepancy?
    Mr. Hill. The discrepancy is basically caused by the fact 
that the contractors utilized the Park Service's most recent 
policy. They basically followed the criteria set out in that 
policy.
    Mr. Regula. So you are saying the park managers are doing 
it on their own without paying much attention to the policy.
    Mr. Hill. Let's just say that in the park managers' 
estimates they deviated from the policy.
    Mr. Regula. That's putting it politely. Your testimony is 
somewhat pessimistic in that you doubt that the Park Service is 
any better off now in effectively managing its housing needs 
than it was in 1993. Why do you believe this?
    Mr. Hill. Well, as far back as 1993, we stated that we 
didn't believe the Park Service could justify all of its 
employee housing. Here we are six years later, the agency is 
still trying to develop justifications for its housing 
inventory after spending nearly $2 million to do the 
independent assessment, which we believe provides a pretty good 
basis for just what the minimum housing needs for the Park 
Service is. We are fearful that the results of this assessment 
could be compromised in terms of the recent input they've 
gotten from park managers.
    What you have to be careful about here is the new policy, 
which we feel is a good policy, going to be driving the future 
of the housing program, or is the status quo of the current 
housing situation going to be used to perhaps revise and water 
down what we feel is a good policy.
    Mr. Regula. This assessment was done by the Park Service, 
was it not?
    Mr. Hill. The assessment was done by two contractors----
    Mr. Regula. I understand, but contractors employed by the 
Park Service.
    Mr. Hill. Correct.
    Mr. Regula. So what you are telling me is that they are not 
particularly interested in paying attention to what the 
recommendations are of the contractors that they employed.
    Mr. Hill. That seems to be the early indications. In all 
fairness, the job is not done. The situation is----
    Mr. Regula. But the contractors----
    Mr. Hill. Well, the contractor has completed the 
assessment, the Park Service has taken the results of those 
assessments and gone out to the park managers and the regional 
managers and asked for their input, and they have received a 
very different reaction, a different view, from their park 
managers. Final decisions have not been made. It now rests with 
Mr. Stanton and his staff. I think what everyone needs to do is 
pay close attention to the final outcome to this.
    Mr. Regula. I assume the park managers were contacted by 
the contractor and, at least theoretically, had input as they 
were making these judgements.
    Mr. Woodward. Mr. Regula, the contractors did their 
analysis park-by-park. They went into every park that they 
assessed.
    Mr. Regula. Right.
    Mr. Woodward. They talked with the housing people, with the 
superintendents, with the other park managers that were 
available. And the park managers are the folks that provided 
them the raw information the contractor used in developing 
their assessments.
    Mr. Regula. Mr. Wamp.

                          multi-family housing

    Mr. Wamp. Thank you, Mr. Chairman.
    The Park Service manages 5,600 housing units in over 200 
parks; 2,280 single-family homes, 800 duplex or triplex units, 
925 apartments, 390 cabins, 480 mobile homes, and 465 trailer 
pads. Now one of the things we talked about last year is moving 
towards a standardized multi-family approach wherever it was 
feasible. Do you see any proof--I see the broad outlines of the 
Director's three approaches here, and I understand the process 
of working with the park managers and vetting all the different 
details of how to implement these broad outlines, et cetera--
but do you see any proof that we are moving towards any quick 
multi-family standardized housing where you can in some of 
these parks?
    Mr. Woodward. In the last couple of years there hasn't been 
a lot of construction in the Park Service because they were 
waiting, specifically the last year and one-half, two years, 
waiting for the completion of this analysis. However, we went 
to ten parks as part of our review. We weren't looking at new 
construction necessarily. But at one of the parks, Sequoia 
Kings Canyon, they showed us two or three different units that 
I believe are only two or three years old that are single-
family, they are small two bedroom units,and I believe their 
cost with utilities came in at under about $120,000 per unit. So when 
you ask if we found any evidence, we didn't go out to look for that 
specifically, but we did find at least one park where something new had 
been done on a smaller basis and at a reduced cost.
    Mr. Wamp. Over the last eighteen months, the bad examples, 
and there were a few, got most of the attention. When we went 
out to a few parks, and it is very instructive for this 
subcommittee to go out to the parks, we found many cases of 
just the opposite--deplorable housing, from my perspective.

                       Public-Private Partnership

    Given the fact that we have initiatives now within low-
income housing in our major cities--Chattanooga Neighborhood 
Enterprise is an example of a public-private partnership in my 
hometown where in an extraordinary way we are taking low-income 
housing that was hard to maintain, hard to heat and cool 
efficiently, et cetera, et cetera, and turning this completely 
around with public-private partnerships.
    I know Rome wasn't built in a day and this is a problem 
that is going to take some time to address. But do you see real 
evidence of public-private partnership approaches being put on 
the drawing board? Director Stanton is going to come up and we 
are going to ask him all these questions, too. But do you see 
any evidence of the formation or the attempt to form public-
private partnerships to deal with this issue of housing in the 
parks?
    Mr. Fowler. Not as much as we would like to see, no. In the 
legislation passed in 1996, the Park Service was given a lot of 
authority to pursue those kinds of things. In the work we have 
done, in the two regions we went to, they could only provide us 
with one example where that happened.
    Mr. Wamp. They wanted that authority, they wanted that 
authority, they wanted that authority. Now they have that 
authority and that authority is not being used yet.
    Mr. Fowler. We would like to see more.
    Mr. Wamp. Thirdly, Denver Service Center was identified as 
a problem where a disproportionate amount of money was left at 
the service center or filtered through. Have those reforms been 
effective thus far? And can you measure it yet that the Denver 
Service Center is not the problem? It's like an intermediary 
that takes too much of the money out of the construction budget 
before it actually makes its way to housing. Are those reforms 
setting in?
    Mr. Fowler. I don't have a good answer for you, sir. We 
haven't gone back and looked at that particular aspect and its 
impact on this job.
    Mr. Hill. If I might add. We haven't looked at that in 
particular. But this overall housing issue, I think you are 
exactly right, some of the conditions of the housing units out 
there are deplorable. That is why it is important that the Park 
Service identify what its critical housing needs are. The 
current budget cannot sustain this inventory of housing. So the 
housing they do have cannot be maintained and kept up to the 
standards that I think all of us would expect. If they could 
identify what the critical housing needs are and determine what 
is excess, then you could focus the budgeted dollars into those 
units to increase the conditions of those units and allow the 
people who are occupying those units to have better standards.
    Mr. Wamp. Also, as a former developer of housing myself, I 
saw cases where if you could determine quickly, efficiently, 
effectively what the essential personnel were that had to be on 
the park 24 hours a day, and move as many of those that weren't 
absolutely essential 24 hours a day outside of the park 
boundary for housing. You really help solve the problem with 
construction cost, land availability, sewers, infrastructure, 
et cetera. That has got to be the solution. And you are saying 
the same thing, correct?

              construction budget versus operating budget

    Mr. Hill. That is correct. The problem right now, though, 
is there is no incentive to do that. The incentive is geared 
more toward building more units because that money comes from 
the construction budget. To move people out of the parks has to 
be dealt with from their operating budget. And that would, in 
the Park Service's estimation, dilute the money they have for 
operating the park.
    Mr. Wamp. And that incentive, or lack of incentive, is why 
they say they need more units and you say they actually have 
more than they need. Correct?
    Mr. Hill. What we are saying is that incentive right now 
would, given the two choices, it is probably preferable for 
them to build more units because that is coming from a 
different budgeted item, the construction budget, and it 
maintains their operating budget to deal with other park 
matters.
    Mr. Wamp. Mr. Chairman, I will save my other questions for 
Director Stanton.
    Mr. Regula. Okay. Mr. Dicks.

                     need for park-by-park analysis

    Mr. Dicks. I want to make sure I have got this straight. 
Your net is they have 522 units more than they need, not 
necessarily in the right places, because you have to do this on 
a park-by-park basis. Is that right?
    Mr. Hill. That is correct. That is the contractors' net, 
not ours.
    Mr. Dicks. The contractors' number?
    Mr. Hill. Correct.
    Mr. Dicks. And now they have gone back and the park 
superintendents have done a reassessment and their number is 
that they are short 760 units. But don't you have to do this on 
a park-by-park basis?
    Mr. Hill. Yes, you do.
    Mr. Dicks. In your report, is there a breakout that shows 
each park and how many units they have, what is necessary, what 
is excess, and what is deficient? Do we have a chart like that?
    Mr. Hill. We don't have a chart that shows it on a park-by-
park basis. But we do have some statistics in our statement----
    Mr. Dicks. But shouldn't we have one like that? Can you 
guys help us put one together like that?
    Mr. Hill. Sure. We could.
    Mr. Fowler. We have that data and we could do that.
    Mr. Hill. And if I might point out, you are absolutely 
right, the 1,282 number is a net number. If you look on a park-
by-park basis, as the contractor did, what it is going to show 
you, even the contractors' assessment showed that there was a 
deficit in housing in 28 parks of 550 units. So the contractor 
is admitting there is a need for some additional housing units 
at 28 parks. It also identified 106 parks, however, where the 
contractor felt there was an excess of 1,072 units. If you net 
that out, that is the 522 figure that I alluded to in my 
summary statement. When you look what the park managers' 
assessment of that was, they changed those numbers. They felt 
that there was excess housing in only 37 parks, amounting to 
165 units, and that there was a deficit of housing in 64 parks 
of 925 units.
    Mr. Dicks. Did they also look at substandard housing? My 
colleague, Mr. Wamp, I think has got this right. We went out 
and looked at some of this housing and some of it is definitely 
substandard. You wouldn't want your family living in it, I'll 
tell you that. Did we look at of this housing how much is 
substandard?
    Mr. Fowler. We did not. But the point I would make on that 
is that, yes, absolutely, there is some deplorable housing out 
there. It should not be; you need to upgrade it to safe, 
livable, decent conditions.
    Mr. Dicks. And your point is they don't have enough money 
in the budget to do that?
    Mr. Fowler. The issue we are making is, first, you need to 
decide which housing is it that you need. Once you decide it is 
a housing unit you need, get it in good condition. That is our 
point.
    Mr. Dicks. Right. And yet we didn't do a breakout of how 
much of this 5,600 total units is substandard?
    Mr. Hill. No. But I believe that the condition assessment 
is yet to come. I think that is the next step in this process. 
The Park Service plans on looking at the condition issue next.
    Mr. Dicks. But the other important point you made is that 
even with the 5,600 units we have nationwide, we don't have 
enough money in the budget to maintain those 5,600 units, so 
their condition is going to go down. Is that your testimony?
    Mr. Fowler. Our testimony is with limited funds, you need 
to make sure you focus it only on the houses you need and don't 
spend it on houses that may not be needed. The Park Service is 
in the process of determining which ones are needed and which 
ones are not.

                           volunteer housing

    Mr. Dicks. Now it is my understanding that one of the three 
major differences between your estimate and theirs, one of it 
gets to volunteers, correct? In other words, a significant 
amount of this housing is used by volunteers. Now the Park 
Service says, hey, we have no choice, our money is being cut in 
terms of full-time employees (FTE) and we are now having to use 
volunteers, and the only way you can use volunteers effectively 
if you are not paying them anything or are just giving them a 
per diem or whatever is that you have got to provide housing if 
it is available. As you said, their policy is that they should 
not be giving housing to volunteers unless it is excess to the 
people who should get the housing in the first place. And is it 
your testimony that that is not occurring? That they are, in 
essence, substituting volunteers who are using housing that is 
not excess? Or do we know that?
    Mr. Fowler. In some parks, volunteers are in housing and at 
those same parks, according to the analysis that we are talking 
about, the park managers' analysis that they are coming back 
with is they are asking for more housing units. So they are, 
given the fact that volunteers are already in some housing 
units in the park, asking for more housing units on top of 
that. So it gets real fuzzy about what is excess and what 
isn't. And that is part of the whole analysis problem.
    Mr. Dicks. If volunteers become part of the workforce and 
are a crucial element to the workforce, and one way you are 
going to get volunteers is to provide the housing, don't we 
have to then consider that in making a judgement about----
    Mr. Fowler. I think, sir, that is a policy call. If you 
guys want to pay for that housing for volunteers, that is your 
prerogative.
    Mr. Dicks. Do you know what the difference in these numbers 
would be in this 1,262 if you took the volunteers out of this? 
In other words, if you agreed that we were going to house the 
volunteers, how would that change these numbers?
    Mr. Hill. We don't have that information. That is part of 
the problem. Certainly, the contractors' assessment is a 
baseline number that does not include housing for any 
volunteers.
    Mr. Dicks. So, okay, you have got 1,262 but then volunteers 
are a big part of this. I think the Park Service could probably 
give us some more information on that.
    Mr. Woodward. Mr. Dicks, the Park Service told us that they 
have at the parks that they assessed about 830 housing units 
that are currently occupied by volunteers. So that is 830 out 
of the 4,400 units that were assessed. So what's that, 15 or 20 
percent of their existing inventory has volunteers in them at 
this time. So when we talk about a number of 1,282, a big 
component of that would be made up of volunteers. And the 
question we have is at parks where they are requesting 
additional housing, to what extent are volunteers occupying 
some of those housing units. So you folks may be asked to----

                         alternative approaches

    Mr. Dicks. Now another part of this, too, is that others, 
the military, for example, have been a little creative here in 
using build-to-lease programs, where they will get somebody in 
the private sector to build the housing and then lease it to 
the Government. Would that have any applicability here? I know 
that the Park Service people don't have a military housing 
allowance like the military does, but would it have 
applicability here?
    Mr. Hill. That's certainly something--the Act allowed them 
to consider alternatives and to try different alternatives. 
That is something we would like to see happen more.
    Mr. Dicks. And you said that in your investigation you only 
found one park that looked at alternatives.
    Mr. Hill. In the ten parks we visited, we didn't find any 
instances. In the two regions that we did work, they could only 
cite one instance where a park did try an alternative.
    Mr. Dicks. What are some of the other alternatives that 
they could look at?
    Mr. Woodward. A lot of these are not things they need 
additional authority for. Working with private-public 
partnerships, according to the 1996 Act, that is an item they 
needed authority for. But there are some fairly simple things 
that, again, go back to our 1993 and 1994 reports, such as 
moving administrative functions out of parks to communities 
that have plenty of housing. Your budget, your personnel, your 
acquisition people, they may not all need to be housed in a 
park, but a community thirty, forty, fifty miles away that has 
plenty of housing, that may be okay for them. Another example 
would be telecommuting. You can change shift hours so you have 
coverage overnight so you don't need to have people that live 
in the park that are on call after hours. You can move your 
shift work around so you have coverage during those periods. 
Historic leasing, leasing housing units from the private 
market, which is actually the one example that we found was at 
Great Basin National Park in Nevada where to meet their housing 
needs they contract with a couple of motels and lease units 
there for their seasonal staff. The motel likes it because they 
have the Federal Government as a client, and the park doesn't 
have to build any housing units.
    Mr. Dicks. But they have to pay for that out of their 
operating budget.
    Mr. Woodward. That is correct. That is correct. And that is 
part of the disincentive here, because that then competes 
against all other items any individual park may like to 
undertake.
    Mr. Dicks. So, in other words, we have got to try to figure 
out a way to create some incentives rather than disincentives 
for creativity because of the limitations on the construction 
account?
    Mr. Hill. I think that is correct.
    Mr. Dicks. Thank you, Mr. Chairman.
    Mr. Regula. I think Mr. Dicks makes a good point there and 
we need to take a look at whether these accounts could be 
fungible from the standpoint of moving them, because it would 
appear that priority decisions are driven by the account that 
is paying rather than by what necessarily overall represents 
good management. Is that a fair statement?
    Mr. Hill. Yes, Mr. Chairman.
    Mr. Regula. Well, that is something we need to address. If 
you take a house that is in poor condition and rehabilitate it, 
which account would that fall under? Would that be operating 
since it is an upgrading of existing housing, or would it be 
under the construction account?
    Mr. Fowler. It depends on the size of the undertaking. It 
could be a capital item or it could be an operating item, it 
depends on how large it is.
    Mr. Regula. Are there tax advantages to living what I call 
``on-base'' or in the park in park housing for the employee?
    Mr. Woodward. For certain employees, there are. For 
employees that are required occupants, and these would be law 
enforcement rangers----
    Mr. Regula. As defined by IRS, I assume?
    Mr. Woodward. Well, the required occupants would be defined 
by the Park Service. But once they are required to live on-site 
as a condition of employment, according to the IRS Code, they 
can deduct their rental payment from their income and I believe 
it appears at the end of the year as a deduction from their 
income. But that is just for the required occupants, those 
folks that have to respond after-hours to emergency or other 
incidents.
    Mr. Regula. What I would like to do, if you can stay, is 
that we will give Mr. Hinchey a chance with the GAO, and then 
we are going to have the Director--but I would like you to stay 
because we may have some redirect questions here once we have 
heard from the Park Service staff.
    Mr. Hinchey, do you have any questions? We have gone around 
so far.
    Mr. Hinchey. Not at this moment. Thank you.
    Mr. Regula. All right. If you will just stay with us for 
the rest of the hearing on this.
    Housing goes to morale, and it is an extremely important 
subject. It is not the major item financially in the Park 
Service budget, but it certainly would have an impact on the 
retention of good people and attitudes. So I think it is in the 
interest of everybody to solve the housing problem in a way 
that makes good management sense and recognizes these 
extraneous things such as the morale of the employee and the 
ability to attract and retain good people.
    Mr. Hill. Those are factors.
    Mr. Regula. Okay. Thank you very much.
    Mr. Stanton, we now come to the Park Service. Thank you for 
coming, Mr. Director.

  National Park Service and Departmental Testimony on Housing Program

    Mr. Stanton. Thank you, Mr. Chairman.
    Mr. Regula. Your full statement will be made a part of the 
record. We will appreciate your summarizing, and you may want 
to address some of the things that we have just heard from the 
GAO testimony.
    Mr. Stanton. Okay. I am prepared, Mr. Chairman, to address 
GAO's report. But if it is acceptable to you, we could move 
into that now or we could comment on----
    Mr. Regula. I would like you to address the housing issue 
so we don't require that they stay as we get into other 
dimensions of the budget. So let's try to wind up the housing 
policy issues first.

       Remarks on Housing Program By Robert G. Stanton, Director

    Mr. Stanton. Okay. Fine. Thank you very much, Mr. Chairman. 
It is a pleasure to appear before you and the members of this 
committee, and certainly to be accompanied by our Assistant 
Secretary Don Barry.

                  Response to GAO Testimony on Housing

    Let me briefly, Mr. Chairman, respond to some of the issues 
in the GAO testimony on the housing program. For further 
elaboration, Mr. Chairman, we have had the opportunity to visit 
with Mr. Hill and his associates and we have offered written 
comments on their testimony. I would like to offer for the 
record, if permissible to you, Mr. Chairman, a copy of our 
response to GAO.
    Mr. Regula. Without objection, this will be incorporated in 
the record.
    [The information follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                        Housing Accomplishments

    Mr. Stanton. First, I need to emphasize, so that there 
should be no misunderstanding, I committed to you on behalf of 
the National Park Service that we would put in place a revised 
housing policy and criteria and, furthermore, that we would 
conduct a park-by-park assessment of our needs for employee 
housing. We have done that.
    We now have a baseline upon which to build. This is the 
assessment and the data that has resulted from the contractors' 
review of park housing in over 150 parks in the Park Service. 
We have been able to identify areas where we need to focus 
attention. Based on the information now available, we may need 
to make minor refinements or clarification, if you will, of our 
current housing policy which has been in effect since 1997. 
This is a work in progress and we have much more work to do.
    Mr. Chairman and members of the Committee, it was never the 
intention of the National Park Service to have the needs 
assessment results stand alone. The picture of the National 
Park Service housing program will not be complete--will not be 
complete--until the two remaining phases are completed: the 
condition assessment, and the housing business plan. These must 
be accomplished before we make a final decision in terms of 
what the housing inventory will be of the National Park 
Service.

                    Reductions in housing inventory

    Secondly, the GAO testimony does not reflect 
theaccomplishment the National Park Service has made to date in 
reducing our housing stock. The Park Service has reduced the overall 
housing inventory by 270 units since 1997. Let me repeat, Mr. Chairman, 
270 units have been deducted from the inventory of park housing in the 
National Park Service.
    Mr. Regula. Were these taken down, leveled?
    Mr. Stanton. In many instances they have been leveled, in 
many instances they have been used for other purposes and 
employees have found housing in the local communities. In many 
instances, we have not replaced trailers.
    This reduction in housing has occurred even with the 
addition of new park areas being added to the system and other 
park programs expanded.

                  Areas of Agreement with GAO Housing

    Third, while there are certainly some differences between 
NPS and the GAO at this stage in the process, we are in 
agreement over far more than what we disagree about, and we 
have discussed this with Mr. Hill and his associates. The 
contract study found some 3,800 of existing NPS housing units 
to be justified and necessary and recognized a need for over 
550 additional housing units at certain parks to house NPS paid 
employees. Thus, GAO and the National Park Service agree to the 
need for nearly 80 percent of our existing housing stock.
    Certainly, I hope we can quickly reach agreement about the 
importance of proceeding with the necessary trailer replacement 
and rehabilitation of existing housing units in order to 
provide safe living conditions of our employees. Monies 
appropriated in fiscal year 1998 and fiscal year 1999 have not 
been spent while the assessments were conducted, and this was 
an agreement that was reached in our earlier testimony before 
this committee. I hope, however, that we can move in addressing 
some of the more critical needs for trailer replacement and 
rehabilitation of existing facilities where there is a clear 
agreement between our contractors' assessment, GAO's 
assessment, and the National Park Service. There are some dire 
needs, Mr. Chairman and members of this committee, that must be 
met. I feel obligated to underscore the fact that we have some 
deplorable conditions and there is no question seemingly in 
anyone's mind that they need to be upgraded.
    Fourth, the difference between NPS and the GAO must be 
addressed. We must deal with the issue of housing for unpaid 
staff and apply a policy consistently--consistently--throughout 
all of the parks. Certainly, in the case of volunteers and 
other non-paid personnel, our policy allows us to provide 
housing for these individuals which include over 100,000 
volunteers throughout the National Park Service today. The 
benefits that an organization receives from volunteers, 
researchers, and other essential cooperators is invaluable to 
carrying out our programs.
    And the legitimate use of housing after park-provided 
housing for designated pay staff--I need to elaborate on this, 
Mr. Chairman. Under current policy, housing is made available 
to our volunteers when it is in excess of the needs to 
accommodate paid staff. As I have researched the history of 
housing in the National Park Service, we have not built housing 
specifically to accommodate unpaid staff. We are going to 
revisit that policy, Mr. Chairman, in terms of the importance 
of the service provided by volunteers, but I am not in the 
position at this time to say that, in fact, we will change the 
policy or recommend a change of policy along those lines. 
Clearly, it should be understood that we accommodate unpaid 
staff in housing that is excess to the needs of paid staff.
    There is also differences in how the National Park Service 
and the contractors' study look at the use of historic 
structures as well as the issue of incident response time in 
protection of natural and cultural resources and park visitors. 
Again, the contractor looks at these issues using very clear 
guidelines that provided us with a snapshot in time. We must 
now impose the management overlay associated with fulfilling 
our mission responsibilities.

                   Housing construction improvements

    Fifth, we have revamped our approach to construction in 
response to the question I believe Mr. Wamp raised and others. 
We are using, as an example, standardized design to minimize 
design costs, modular construction where possible, and value 
analysis to bring our housing construction costs more in line 
with residential construction in the private sector. In 
addition, we have begun to use the military cost model to help 
us define the reasonable range for the cost of construction. We 
are pursing other alternatives, such as leasing from the 
private sector, investigating the feasibility of providing 
housing allowances to eligible employees, and a study to 
examine the sale of Government housing to a cooperative made up 
of field employees. We are exploring these various options.
    Mr. Chairman, my emphasis on the needs of the National Park 
Service employees of the parks cannot be understated. If 
current policy requires further definition to ensure consistent 
application, then I will, indeed, act upon that. Among the 
factors I must weigh are resource protection, protection of our 
visitors, protection of our employees, our stewardship 
responsibilities, and how best to accommodate unpaid staff 
without compromising housing for paid staff, and the 
availability and the affordability of housing in adjacent 
communities.
    I certainly look forward, Mr. Chairman, to working with you 
and this Committee as we move forward with Phase II and Phase 
III that ultimately will be the basis of our housing stock both 
to meet the needs of our paid staff and unpaid staff that are 
serving the needs of the National Park Service.
    Mr. Barry. Mr. Chairman.
    Mr. Regula. Yes?

    Remarks on Housing Program by Donald J. Barry, Deputy Assistant 
                               Secretary

    Mr. Barry. I would just like to make a few comments on this 
also.
    Mr. Regula. Absolutely.

               Areas of Disagreement with GAO on Housing

    Mr. Barry. I have read GAO reports now for almost a quarter 
of a century and have always appreciated their analysis and 
candor, especially when I worked in the House of 
Representatives for a number of years. But I have to say that 
after having read the draft report and the testimony, I 
probably could not disagree more with the conclusions that they 
leave the reader with. I would urge all of the members of the 
Committee to read the March 15th response that the Director 
alluded to and submitted for the record because there are a 
number of examples in there where the Park Service provided GAO 
with specific examples of things they have done or things they 
have tried to do and have failed to do and why that is not 
reflected in this report.

                  Housing in Yellowstone National Park

    A good example of that is Yellowstone. Yellowstone is one 
of the parks they visited. Yellowstone is one of the parks 
where park managers, that very specifically, tried in detail to 
work out some alternative housing with the private sector. And 
Yellowstoneis one of the parks where park managers failed to 
succeed in getting the private sector interested in working 
cooperatively with the National Park Service in building private 
housing on public lands. So that is an example of where park managers 
have tried one of the alternative approaches authorized under the 1996 
Act but failed, but that is not reflected in the GAO report.
    At the bottom line, I think what a lot of these 
disagreements boil down to is the following. The report that 
came up in 1997 used a fairly focused base for what they 
defined as necessary housing. I think once it was field tested, 
they began to discover that there are other areas that needed 
to be included as well. Volunteer housing is one of those. Now 
as Congressman Dicks pointed out, close to 830, as GAO noted, 
close to 830 of the units in disagreement have to do with 
volunteer housing.
    I have to tell you, as I drive through the National Parks 
these days, I am stunned at the number of volunteers that we 
are dependent upon in order to keep these parks afloat. I just 
came from a superintendents' conference yesterday in 
Charleston, South Carolina, where the superintendent of Natchez 
Trace was telling me that he is 30 FTE short. He doesn't have 
the operational budget to hire the people that he needs and he 
is 30 people short. So the only way that our managers are 
keeping the parks alive and together are with volunteers. And 
as Congressman Dicks pointed out, you frequently need to have a 
place for them to sleep if they are going to work for free.
    So this is one area where I think the original policy ended 
up being narrower in practice than what we really need if we 
are going to continue to promote volunteerism. I think we all 
agree that volunteer work in the parks is really a good thing. 
We have been promoting it, I know Congress has been encouraging 
it, and it is certainly something that we would not want to 
forego because we basically, moved too quickly in deciding what 
we needed in our housing.

                         housing to deter crime

    Deterrence is another example. I think the original report 
was focusing on response time; how quickly does it take to get 
to the scene of a crime if it is occurring in a national park. 
One of the unfortunate things with our parks today is that we 
are finding urban crime is moving into our National Park 
System. And responding to a crime is one thing, but, quite 
frankly, every modern police force that I am aware of uses 
deterrence as a major police enforcement method to prevent 
crime in the first instance.
    I think that is one of the reasons why the Park Service has 
felt it is important to have law enforcement officers, rangers 
in the parks in order to deter crime. Prince William Forest 
Park, which many of us have probably gone to, just down I-95 
heading down toward Quantico, was one of the parks where the 
park managers felt they needed three rangers overnight in the 
park. The park report and the contractors said no, give them 
none. I have to tell you, that whole area is urbanized right 
around the park. You have got Quantico down there, you have got 
a large number of urban teenagers looking for places to party. 
If I knew that that park had nobody there at nighttime, that is 
where I would be going if I was living down in Quantico looking 
for a way to get away from my parents. I think, again, having a 
ranger presence is a reason for protecting those resources down 
there. And being able to say that if somebody breaks in you 
will be able to respond in fifteen minutes, I don't think is as 
good a response for protecting our park resources as having no 
break-in occur from the beginning.

                 private sector involvement in housing

    One of the things that I would like to just also note is 
that I think the 1996 Act which encouraged us to look for these 
alternative approaches with the private sector was based on 
some assumptions that we are now trying in the field. What we 
are beginning to discover is that some of those assumptions are 
not working as well as we thought. In the case of Yellowstone, 
Mike Finley has talked to me at length about his efforts to try 
to interest local contractors and others to build some housing 
on the park. He pointed out to me the land that he was willing 
to make available. And when you add in all of the restrictions 
on rent and things like this, a lot of the other Government 
regulations that go along with it, the contractors just don't 
see the money there to make it worthwhile.
    And the last thing I just wanted to point out was that I 
think Congressman Dicks and GAO, to their credit, really hit 
the nail on the head on one major thing, and that is a lot of 
the alternatives even that GAO suggested have very significant 
budgetary implications. One of the proposals was to move the 
facilities out of the park. Well, that is going to have direct 
line-item construction costs associated with it or other park 
operational costs. And so we are robbing Peter to pay Paul. In 
order to reduce our cost for housing in the park, we may end up 
having a significant enhanced price tag cost associated out of 
the park.
    Another example of that would be to try to find housing 
that we could lease and rent for employees out of the park. 
Now, in the March 15th letter to GAO, examples were made of 
where some of the parks have tried to do that. Grand Canyon, 
for instance, has moved a number of their employees to 
Flagstaff. They are trying to pay for that. They are looking 
for ways of having shuttle services provided. But, again, that 
is going to have direct operational costs. It is not free. So 
as long as it comes out of the park operational budget, if I 
were a park superintendent, I would be sitting there thinking 
``What do I do? Do I put my money into safe trails for the 
visiting public, or do I spend that money to get my park 
employees out of the park?'' That's a terrible choice for a 
superintendent to make.

                        housing analysis process

    And the last thing I would just like to say is that I think 
one of the reasons there has been a slow lift-off in trying 
some of these alternative approaches is that the 1996 Act I 
think operated on the assumption that the Park Service would 
first go through a step-by-step analysis of what do they need, 
what is the condition of it, and then for the shortfall that 
exists try these alternative approaches with the private 
sector. The Park Service has not finished that process yet. So 
I think it is premature to criticize them for not having tried 
these alternatives if they haven't gone through all those 
different steps.
    Mr. Stanton. Mr. Chairman, I would underscore the last 
point that the Assistant Secretary made, because there was an 
understanding, as I recall, that we had made with the committee 
that we would do it in a step-by-step process; that is, to make 
sure that we know what the needs are in the Park Service to 
meet our critical housing needs, and that from that we would 
develop a condition assessment to find out the structural 
condition of the housing units, and then from that, individual 
parks would develop a business plan that would indicate whether 
or not we would want to replace some of those housing units, or 
explore the alternatives ofworking with the private sector, or 
looking at the possibility of employee allowances, and what have you.
    We agreed to do that over a two year period and have a 
final determination and business plan for the benefit of 
Congress and others. And we are almost at the completion of 
just one phase of that two year effort.
    Mr. Regula. So you are saying you haven't completed your 
report?
    Mr. Stanton. No, we have not. We have not.
    Mr. Regula. When will you have it completed?
    Mr. Stanton. The commitment that we made, Mr. Chairman, was 
that it would be completed within two years, with the first 
phase being the assessment, then from the assessment we will 
have the condition assessment in terms of whether or not there 
may be some housing units that we need to meet critical mission 
purposes, but the repair or the reconstruction or the 
replacement may be too costly and we will make a determination 
whether or not to keep that housing.
    So the next phase is to go through that kind of thorough 
analysis of the condition of housing units within the Park 
Service. And then from there, we will develop a business plan 
and the business plan will direct us to look at all other 
alternatives, such as what Assistant Secretary Don Barry 
outlined and others, working with the private sector, working 
with the possibility of employee allowances living outside the 
park, and what have you.
    Mr. Regula. So you are saying that your own personal 
assessment in response to this committee is not complete?
    Mr. Stanton. It is not complete. It is not complete. We 
committed ourselves to that two-year cycle. But I must 
emphasize again, Mr. Chairman, as in the case of reducing the 
housing stock by 270 units during the first phase, I am also 
confident that there is clear indication as to where we need to 
replace trailers or rehabilitate housing where there is 
agreement between the contractor, between GAO, and the Park 
Service housing needs to be done.
    Mr. Regula. I understand. Your report is somewhat similar 
to theirs, but your real problem is implementing it once you 
get the report on the ground.
    Mr. Stanton. Yes. That's right.
    Mr. Regula. Why is that? You are the Director.
    Mr. Stanton. I am the Director, sir, yes. But as I said 
before, Mr. Chairman, it had to go through this process. Again, 
we have committed ourselves to do this in two years, starting 
with the redefining of the policy, the issues of the policy and 
the criteria. It was first submitted to your office I believe 
in May of 1997, and then we got underway earnestly in November 
of 1997.
    Mr. Regula. You have completed your assessment?
    Mr. Stanton. No, we have not completed the assessment 
because we are looking at----
    Mr. Regula. I mean the policy.
    Mr. Stanton. The policy is in place. But as Assistant 
Secretary Don Barry observed, and GAO, when we put the policy 
and the criteria in place less that two years ago, it had not 
been tested, if you will, Servicewide. We have in earnest 
attempted to apply the policy here now and what has come back 
to us is that maybe we need to rethink some things with respect 
to housing. For example, under what conditions are we going to 
use historic structures to accommodate employees, recognizing 
that it may not be needed to meet critical housing needs, per 
se, but at least it provides a significant way of preserving 
cultural resources. There is a policy question in terms of how 
we accommodate that consistently, Servicewide.

                         housing for volunteers

    The other issue is with respect to unpaid staff. As I 
pointed out earlier, our policy does not call for us to 
construct or rehabilitate housing in any large measure to 
accommodate unpaid staff. We need to rethink that. I am not in 
a position to say that we will never ask for money to meet 
needs for sustained volunteer assistance in parks. But our 
current policy does not allow for that.
    Mr. Regula. Mr. Barry, do you agree with his policies?
    Mr. Barry. Actually, I do. Again, I think what Bob is 
saying is that the original when field tested, when they kicked 
the tires and took it out for a spin, we discovered that in 
some areas it probably was too narrow. And we are discovering 
things like volunteers, and I have yet to hear anybody suggest 
that volunteer encouragement is a poor thing or is a bad policy 
for us. What we are discovering though is that especially for a 
large number of your Western parks that are not near urban 
areas, where they can't find readily available housing, having 
an old facility, an old barn, an old building that you could 
fix up for volunteer bunkhouses makes good sense.

                          housing construction

    Let me just mention one other thing. In some of the travels 
that I have had recently, I have gone to parks that have done 
some limited housing construction recently. And Congressman 
Wamp, I would report to you that what I have seen is nothing 
but new duplexes or quadraplexes. In one instance, the Grand 
Tetons, they actually built some log cabins for under $50,000 a 
pop.
    I guess what I am suggesting is I think in some measure 
this almost reminds me of double jeopardy in a criminal case. 
We are trying to prosecute the same person twice for the same 
crime. The Park Service clearly had some problems with some 
park housing construction a few years ago which prompted then, 
I think, a legitimate response from Congress to take a very 
hard look at how the Denver Service Center was running its 
operations. We were convicted, we were sentenced, and we are, 
quite frankly, paying our dues to society by cleaning up the 
way the Denver Service Center operates.
    To the extent that we have this continuing concern about 
park housing, I think some measure of it still stems from the 
concerns of how we used to do things. We are not building 
single-family specially designed houses anymore. That is not 
what we are thinking about. And what you see in the parks are 
quadraplexes and duplexes.
    Mr. Regula. Yes, historic bad experiences.
    Mr. Barry, are you in agreement with the Director's policy 
on the housing issue?
    Mr. Barry. I think it needs to be expanded. I think these 
areas of deterrence and volunteerism, as field tested, suggest 
that there is a value in it being expanded.
    Mr. Regula. You mentioned the rangers and the law 
enforcement. I don't think that is the issue. It is the issue 
of whether people outside of that definition receive housing 
or, if so, how should they be housed? I don't believe there is 
any question on the essential personnel.
    I wonder if the GAO would like to respond to any of this 
testimony?

                         housing of volunteers

    Mr. Hill. Mr. Chairman, that is a lot of testimony to 
respond to. I don't know what part of it you would like me to 
respond to. Let's talk about the volunteers and theunpaid 
staff. I think that is really the issue that is going to have to be 
addressed before we resolve this.
    Certainly, everyone agrees, including GAO, on the value of 
volunteers and unpaid staff to the Park System and no one is 
questioning the important and valuable role that the volunteers 
and the unpaid staff play. The question at hand is--do we--does 
the Federal Government as a policy want to fund and provide 
free housing for this staff? That is a policy call and I think 
that is one that you guys need to come to grips with.
    Mr. Regula. Would you then have to define that depending on 
the nature of the employment? I mean, law enforcement is one 
thing, the bookkeeper at the headquarters is another. So you 
are generally saying it is probably not good policy to feel 
compelled to have everybody housed. But I think probably there 
should be limits by definition.
    Mr. Hill. You know what I think is needed to help you reach 
that decision is how much is it costing us to house these 
volunteers. I don't think that information is available. I 
think the opportunity is here now to get that information. We 
have an assessment that basically considers housing only 
critical personnel, it's the baseline data. From that baseline 
the park managers are suggesting that additional units are 
needed and certainly a portion of that amount is being used for 
volunteers and unpaid employees of the parks.
    So the question I would have is, how much of this 
difference--I would like to see a breakdown of this difference 
from the contractors' assessment to the park managers' 
assessment what makes up this incremental difference, how much 
of that is for volunteers, and what is the cost of providing 
that housing to volunteers. Then I think the agency and the 
Congress is in a better position to say is the value of these 
volunteers worth that cost.
    Mr. Regula. We don't have the assessment on a park-by-park 
basis to try to square it with the overall policy.

               differences in assessment of housing needs

    Mr. Hill. The contractors' assessment does provide it on a 
park-by-park basis. What we have not seen is the park managers' 
estimate. What is the bridge between the park managers' 
estimate and the contractors' assessment, what makes up those 
differences. We know that the park managers are saying, for 
example in the case of Rocky Mountain Park, the contractors 
said there were 18 excess units, the park manager comes back 
and says I need 22 more units. That is a heck of a difference 
there. So the question I have is, what factors are triggering 
that difference? And we happen to know in that particular park 
I believe there are 20 volunteers being housed in the units 
right now. So I think you need that kind of analysis on a park-
by-park basis to say----
    Mr. Regula. The discrepancy is between the park manager and 
the contractor.
    Mr. Hill. Exactly. And a breakdown of why that discrepancy 
exists. And if we want to look at whether we want to house 
volunteers or unpaids, if we can get that kind of data, then 
you can say, okay, how many are we housing, what kind of 
housing are we providing them, what is the condition of that 
housing, what is it going to cost to house those people in 
units that are in good condition. And then I think you have the 
information you need to say, yes, we, the Federal Government, 
want to make that investment because we think those volunteers 
are worth that cost.

                 fund source effect on housing decision

    Mr. Regula. Just one further question. We have understood 
that operating versus construction drives some of the 
decisions. Should there be some way that this is structured so 
that that is not the factor, because it is money either way. I 
think maybe it distorts the decision-making process a little 
bit to say, I am going to do this because I can get it out of 
construction funding when in reality it should probably be done 
in a different way if it were not for that source of money.
    Mr. Stanton. Yes, Mr. Chairman. New housing units are 
funded out of construction. The rehabilitation or replacement 
of trailers with permanent structures is accomplished with 
appropriated funding. But the upkeep of the housing is paid 
for, if you will, by the employees in terms of a payroll 
deduction for the purpose of rental. That has been used to 
maintain the housing. In those instances where the housing is 
occupied by unpaid staff, what we refer to in the business as 
the benefitting account would pick that up. If you have a 
person who is performing some high level maintenance function 
as a volunteer and contributing to that park's maintenance 
program, then the maintenance account, if you will, will pay 
for the housing.
    Mr. Regula. So you don't see any decision-making process 
being distorted by the fact that you have two separate accounts 
here?
    Mr. Stanton. I do not necessarily see a decision, no.
    Mr. Regula. Would you rather have it that you could have a 
little more flexibility?
    Mr. Stanton. With respect to the operating----
    Mr. Regula. The construction account versus the operating 
account?
    Mr. Stanton. The construction account, Mr. Chairman, would 
be used to construct a facility.
    Mr. Regula. But if you rehabbed a facility, you wouldn't 
use that?
    Mr. Stanton. No. We use the rehab account, which is now 
funded under the construction account for repair and 
replacement of trailers, and that is used in instances where 
there has clearly been a need determined for housing and 
housing was never provided, and therefore you use a trailer. 
And now you determine that you do need a housing unit, so 
therefore you construct the housing.
    Mr. Regula. Mr. Wamp.

                      housing policy and problems

    Mr. Wamp. Thank you, Mr. Chairman.
    As I understand and can summarize Director Stanton's new 
policy, first, to explore housing outside of the community 
first; second, define essential personnel and try to have 
essential personnel reside inside the park; and third, begin 
using standardized housing. I find it extraordinary that Mr. 
Barry, from my perspective, just argued against two out of 
three of these particular issues, making excuses, so to speak, 
for why you can't really do this. GAO reported that you are 
having a hard time getting the park managers to cooperate with 
your new policy right out of the box here, but it seems like it 
might not just be the park managers that you are having a hard 
time getting cooperation from.
    I hope that you will come to the Congress more on the 
offensive and not on the defensive on what can and cannot be 
done. Nobody ever said that this was going to be easy. It 
wasn't easy at the Department of Defense where they now have 
multi-family housing being built by the private sector on base 
and off base in places like Texas very successfully. I served 
on Military Construction the last two years. If DOD can do it, 
so can other Federal Government agencies.
    And it is not just going to happen. And I totally agree, we 
asked questions at Grand Canyon. In some places it is going to 
be impractical for the private sector to make a dollar to do 
this, so they are not going to do it. But there are companies 
now emerging that are willing to enter into agreements in a 
macro way with Federal agencies to provide services, capital 
improvements, et cetera, under a long-term contract.
    But you can't just do it in an isolated case. If I was a 
developer in Yellowstone, I would be scared to death to get 
involved in something like this. But if I was more of a 
national company, I would ask who is the czar for housing 
within the National Park Service. Director Stanton, you are a 
great PR guy, you are a nice man, but you have to be the 
beloved boss and you really need to get along with all your 
park managers. Who is the czar for housing that knows how to 
take it apart, put it back together? If GM needs a new car, 
they find somebody that knows where every nut and bolt goes and 
how to take it apart and put it back together. Who is the 
housing czar? Who understands housing? Who can reach out to the 
greatest private sector minds, like Jim Rouse, on how to tackle 
a problem like this?
    Please, man, don't lessen the importance of this housing 
issue just because some good things have been done. I look at 
fee demo as a great new frontier and I want housing to make the 
same kinds of improvements to our parks in this country while I 
am sitting here that we are doing with fee demo on management 
and maintenance of the parks on an ongoing basis. The housing 
issue is a legitimate issue. If you are a volunteer at one of 
these parks and you are asked to live in a pitiful place where 
you have got to go outside to use the restroom, I will 
guarantee you housing is an important issue to you. And I 
totally agree, the volunteers in my opinion need to be 
accommodated.
    But I do believe that if we persist and we don't play 
defense, we play offense, we work together, there is a way to 
improve this situation. I plan to travel more parks, see more 
housing, make more recommendations. But I would just ask, who 
is the czar, who is the housing guy, and what can we do 
globally? I mean reach out to say will you X, Y, Z company that 
is interested in these public-private partnerships take a look 
at the global picture and say where does it make sense, where 
does it not make sense, because there are clearly going to be 
cases like Yellowstone where I know the private sector is going 
to say we are going to pass on this one, it is just too risky, 
there is no upside. But there has got to be a situation where 
you can do what we have done in Lewisville, Texas, in the 
Department of Defense.
    Mr. Barry. If I could just respond to a couple of things, 
and let Bob also add any thoughts. Congressman, I have no doubt 
that the Defense Department has been able to make it work in 
certain places. But I will bet that that was influenced in some 
significant measure by the budget that the Defense Department 
had allocated for that particular activity.
    I think what even GAO is noting is that it is sort of a 
``Sophie's Choice'' here for the Park Service. They don't have 
a budget comparable to the Defense Department. So for the 
average park superintendent, they may be seeing reduction of 
services for the visiting public in order to provide that type 
of alternative housing. So that would be one point I would 
make.
    We are very interested in working together with this 
committee to solve this problem. We don't disagree at all in 
your goals. We are all interested in the same goals. And it 
gets back to my original point about the Denver Service Center. 
I really think what generated the intensity of this discussion 
and the scrutiny of it were some of the problems we have had in 
the past in construction and not giving value for the 
construction that we are undertaking. We have gotten the 
message from the Chairman, in particular, on that point. We are 
interested in trying to make those adjustments. So we would 
welcome an opportunity to work with you in solving this 
particular problem.
    Mr. Wamp. Granted. But the point I am making is that if you 
can do an assessment that says the Great Smokey Mountains 
National Park needs 40 units and here are the 3 options, 
whether we do duplexes, quadraplexes, or we do an apartment 
housing. This is what we need statutorily through the 
authorization and appropriations process in order to 
accommodate this. That is what we are looking for. What can we 
do to make that work? Not this is why it can't work. Get to the 
bottom of it as early as you possibly can to tell us what we 
need to do so that we can try to respond to your needs instead 
of wrestling with you.
    Mr. Barry. The only other thought that I would just add----
    Mr. Dicks. Who is the housing czar? [Laughter.]
    Mr. Stanton. Maureen Finnerty and Donna Compton.
    Mr. Regula. Hold up your hand.
    Mr. Hinchey. Czarinas.
    Mr. Stanton. Maureen Finnerty is our Associate Director for 
Park Operations and Education, and Donna Compton----
    Mr. Dicks. What does that have to do with housing?
    Mr. Stanton. She works under her supervision. Donna Compton 
is housing program officer for the National Park Service.

                          housing construction

    Mr. Barry. Congressman Wamp, the last point I will make is 
that I think with the Park Service's adoption of new budgetary 
cost controls for construction and this process they go through 
of value analysis process, what you see is that inevitably 
quadraplexes come to the top, duplexes come to the top, single-
family housing doesn't anymore. It isn't cost-effective.
    Mr. Wamp. Correct. That is progress.
    Mr. Barry. Yes. So that is what you are seeing coming out 
of this process.
    The only other thing I will just note is that for many 
years the Park Service has had one part of their housing 
program which nobody has ever criticized, and that is a small 
budget item, but it is the repair and rehab of the existing 
houses. They have gone in and rehabbed some substandard houses, 
made them very cost-effective but upgraded the quality of them. 
Nobody has ever criticized that. It was the new construction 
programs where we started getting the criticism. And I would, 
at a minimum, urge Congress to continue to be supportive of 
funding their repair and rehab programs because nobody has ever 
argued that has been part of the problem.
    Mr. Wamp. Thank you, Mr. Barry.
    Mr. Dicks. On that point, Mr. Chairman.
    Mr. Regula. Yes.
    Mr. Dicks. Does that come out of construction or is that 
out of the operating budget?
    Mr. Stanton. It has been in the construction program.
    Mr. Barry. A small sub-item.
    Mr. Dicks. The repair?
    Mr. Stanton. Yes, repair and trailer replacement.
    Mr. Barry. Under special projects. I think this 
Administration is asking for $10 million this year for that 
particular small component.

                             housing policy

    Mr. Regula. Are the managers on board with your goals?
    Mr. Stanton. Yes. As I pointed out earlier, Mr. Chairman, 
we adopted the new policy and criteria less than two years ago. 
We field tested it. And now the question has come back to us on 
how best can we, first of all, address the way in which we will 
provide housing for nonpaid staff; secondly, how will we deal 
with such concepts for law enforcement as deterrence; and 
third, under what conditions will we be using historic 
structures which we are obligated to maintain in any event to 
be occupied by employees as a measure of preservation, even 
though that is not necessarily needed because housing might be 
available in the community, housing might not be needed for 
response time to emergency, but nevertheless, as a measure of 
preserving a historic structure, we may determine it is to our 
advantage to have someone to live in it. We need to clarify 
that as far as policy.
    Mr. Regula. So you are telling me park managers agree with 
your policy on housing?
    Mr. Stanton. They agree with some clarification, as I 
mentioned, Mr. Chairman, about whether or not we will 
ultimately seek funding to rehabilitate or to construct housing 
to accommodate nonpaid staff. Currently, our policy does not 
allow for that.
    Mr. Regula. That is just one facet of it, though.
    Mr. Stanton. The question about the concept of deterrence, 
as Assistant Secretary Barry mentioned, we need to deal with 
that as a policy clarification. And the third one is with 
respect to historic properties. As an example, we have 
employees in 983 historic properties throughout the system.
    Mr. Regula. Mr. Hinchey.
    Mr. Hinchey. Thank you, Mr. Chairman.
    I may ask some questions that you have already responded 
to, but I am only doing it because I am really trying to 
understand this and it is a little bit unclear to me, frankly. 
Just in terms of background, I think everyone can agree that 
some years ago there were some mistakes that were made by the 
agency with regard to housing and those mistakes could be 
characterized by some excesses--excessive expenditures, maybe 
even inappropriate housing. That all has been taken care of. 
That is all behind us now, as I understand it.
    Mr. Barry. True.
    Mr. Hinchey. There was a reaction to that.
    Mr. Barry. That is right.
    Mr. Hinchey. And the reaction, among other places, took 
place in the Congress. That reaction was characterized by some 
new legislation. And you are in the process now of trying to 
respond to that situation.
    Mr. Stanton. Right.
    Mr. Hinchey. You have embarked upon a three-phase program. 
The first phase of that three phases has been or is about to be 
completed. In that first phase, you identify problems in the 
housing area and you identified, among other things, excess 
housing, housing that is being characterized as excess.

                 locating housing in or outside of park

    One of the aspects of that that troubles me is the question 
as to whether or not we are chasing park employees out of the 
park. I don't know if the answer to that is yes or no. But I 
think that ought to be part of the examination. It seems to me 
that we ought to be trying to do everything that we can to keep 
many employees in the park. I think you want the superintendent 
in the park. I think that some superintendents are now living 
outside of the parks.
    I have had an opportunity in the last several years to go 
to Yosemite, to Grand Canyon, and to Yellowstone some years 
ago. I found some of the housing conditions, frankly, a little 
embarrassing; pretty well run-down, old, deteriorated, not up 
to modern standards at all. That I think is troubling and I 
think there ought to be a program to deal with that problem.
    And I think there ought to be a program to deal with the 
question of--well, first of all, this question ought to be 
answered: To what extent do we want park employees living on 
the grounds, living in the parks? I think you want the 
superintendent in the parks, if possible. I think you want law 
enforcement personnel on the grounds 24-hours a day. We had an 
incident recently where a young woman and a mother, a daughter, 
and a friend disappeared. Now that disappearance apparently 
didn't take place within Yosemite, but maybe it did; we don't 
know. In any case, it took place in proximity to the park and 
they may have been on the park grounds when they disappeared. 
We ought to realize that everybody who goes into these parks 
isn't going there just for pure recreation. There are some 
people, admittedly a small number of them, who have some other 
motivation.
    These parks can be dangerous places, just as anyplace can 
be dangerous. And the reason you have law enforcement personnel 
is to eliminate, as much as possible, or, at the very least, 
reduce the potential for danger to the people who are going 
into these parks. So consistent with that objective, we ought 
to be doing everything that we can to keep a law enforcement 
presence within the parks on a 24-hour basis. That means a 
barracks arrangement at least or some other housing 
arrangements for police personnel.
    So I hope that our policy, the policy of this committee and 
working with you, can include those features as well as some of 
the other things that we are concerned about. I think that in 
reacting to the excesses which may have existed, which did 
exist, not may have, but actually we know did exist some years 
ago, we may have moved in the wrong direction or we may have 
gone too far. I think that ought to be considered.
    One of our objectives, Mr. Chairman, ought to be the 
security of the visitors to the park. And I think that we are 
in danger of encouraging circumstances that may to some extent 
lessen the security of visitors to the park.
    I think also that we have an obligation to employees. It 
has been tradition in the Park Service for a long time to 
provide housing for a certain level of park personnel--the 
superintendent, the assistant superintendent, some other 
people. That policy seems to be changing because I have noticed 
that some of our superintendents are now living outside of the 
park. I wonder if that is a good idea, frankly.
    I think that in some cases they have chosen to move outside 
of the park because the housing that was available to them 
inside the park was substandard and was the kind ofhousing in 
which they didn't want to have their families living, frankly. So I 
think that is something that we ought to keep in mind as we continue to 
develop this policy.

                         housing for volunteers

    On the issue of volunteers, we have in recent years 
exploited--I use that word advisedly, it's not necessarily a 
negative word--but we have exploited----
    Mr. Barry. Encouraged.
    Mr. Hinchey. Well, we've encouraged them, and after we 
encouraged them we exploited them. [Laughter.]
    Exploited the labor of volunteers. These are people who are 
motivated out of a sense of patriotism, out of a sense of a 
love of the outdoors, out of a sense of the love of the idea of 
national parks, who are willing to go out there and spend some 
time, usually young people but not always young people, spend 
their time volunteering their labor and their services and 
sometimes their good ideas to how to improve the circumstances 
of the parks. I think that we owe them something. We owe them 
at least a minimal housing arrangement when they are out there. 
We don't want them living in some of the conditions that I have 
seen, frankly, at places like Grand Canyon, Yosemite.
    So those are some of the things that I think we ought to 
keep in mind as we continue to develop this policy. And since 
you are only in the first of the three stages, there seems to 
be time to factor in these circumstances. I hope that might be 
encouraged by our committee, Mr. Chairman.

                    historic structures for housing

    The other question that I would raise with you has to do 
with the use of historic structures for housing. I don't know 
if you have a policy which you can articulate for us in that 
regard, that policy may vary from place to place. But I know 
that in the East, in New York, for example, in the Hudson 
Valley where you have the Vanderbilt mansion, the FDR site, and 
places of that nature, you have housing in historic buildings. 
I am just curious if you could speak a little bit to that.
    Mr. Stanton. Yes. Our policy allows for historic structures 
to be used to house employees. They are used to house employees 
in two categories. One is that in lieu of constructing new 
housing to meet the needs of, say, a law enforcement ranger, or 
as the case may be, and you have an historic structure there, 
you can adapt it to employee needs. That's one category.
    The other category is that we have determined over our 
long-term experiences in managing cultural and historic 
resources that there is a direct benefit to the preservation of 
the structure if, in fact, it were occupied. So you will find 
through the assessment, as an example, that we have housing 
that is occupied even though there may be housing two to three 
miles away in the community. But from a management standpoint, 
it makes sense to have that structure occupied by an employee 
to contribute towards the preservation of that resource. And 
even in those circumstances, the employee pays for the use of 
that historic structure.
    So we need to amplify and to clarify, if you will, our 
policy as it relates to occupying historic structures 
primarily, if not solely, for the purpose of preserving that 
historic structure.
    Mr. Hinchey. We don't charge them a premium because it is 
in an historic structure, do we?
    Mr. Stanton. Well, we are considering that. No, we don't. 
We don't. [Laughter.]
    Mr. Regula. Only if it is in New York State. [Laughter.]
    Mr. Stanton. Okay. Right.

                 locating housing in or outside of park

    Mr. Hinchey. Just to end, I think that it is not 
automatically a good thing to be encouraging park employees to 
live outside of the park in private housing. I don't think it 
is automatically a good thing. In some circumstances, it might 
be a good thing. But I think in many places, in many instances, 
it is a much better thing to encourage employees to live in the 
park so that the kinds of responsibilities that they have been 
given by you, by orders of the Congress, can, in fact, be 
carried out for the safety and security of visitors, for the 
comfort of visitors, and for the ability of visitors to more 
fully realize the benefits of the park during their visit 
there.
    So for those reasons and probably others that I am not 
thinking of, it is probably a good idea to have employees, 
certain level of employees for certain responsibilities, in the 
park and to encourage them to stay in the park, which is 
something that I think we have moved away from in recent years.

                       closing remarks on housing

    Mr. Barry. Mr. Chairman, I see you have the gavel in your 
hand and I know you need to keep moving. But let me just offer 
one last thought, if I could. I want to compliment you and 
members of the committee for having gone out last summer and 
visited some of the parks. I know you went to Grand Canyon, and 
I appreciate you having done that.
    There is one thing I would just leave you with. As members 
of the Committee travel to parks in the future, I think it 
would be worth your while to ask the park superintendents to 
set up a picnic lunch or a luncheon with some of the lower 
graded employees. When I went to Grand Canyon last summer I did 
that, Bob Stanton and I both had lunch with some of the lower 
graded folks. For me, it was an eye-opener listening to them 
talk about the problems that they have at a GS-5 level, GS-3 
level, GS-7 level. I am not as worried about the 
superintendents as I am the people that are in the maintenance 
yards and that because for them they couldn't afford the 
splendid houses that were built that got us in your woodshed in 
the first instance, and, quite frankly, that is why we are 
going to the quadraplexes and other multiple housing units. If 
we are not careful, we will price the houses that we do provide 
for employees out of their reach because they don't get housing 
allowances that people do in the military.
    Mr. Regula. Well, we have a time constraint here. But this 
subject I think deserves some additional attention. Hopefully, 
we can come back to it. I think your policy is just now getting 
out in the field. You have the contractors' report. I am sure 
the managers are responding to that.
    Mr. Stanton. That is right.
    Mr. Regula. Some positive, probably some otherwise. Our 
initial problem is constructing a bill for fiscal year 2000. It 
would be my intention, as we have more time when we get our 
bill completed, to revisit these issues.
    Mr. Stanton. We would welcome that opportunity, Mr. 
Chairman.
    Mr. Regula. I would say to the GAO team, you have done good 
work on this, and we will continue to keep in touch with you. 
We want to do what makes sense in terms of employee morale but 
which utilizes the dollars we have in the mostcost-effective 
way because this problem isn't going to go away.
    Mr. Stanton. We would appreciate that, Mr. Chairman. And we 
are committed to provide, as we had indicated I believe after 
our last testimony, an interim report by the end of this month 
as to where we are and where we go over the next 18 months.
    Mr. Regula. And you will send a copy of that to GAO?
    Mr. Stanton. Yes, sir.
    Mr. Regula. We may want to revisit this subject. Again, we 
thank you very much for coming.

                      national park service budget

    We will now move on to the budget which is of some interest 
to you.
    I want to say to Mr. Nethercutt and Mr. Cramer, we will go 
directly to your questions as soon as we hear the Director's 
testimony on the budget issues.

             Opening Remarks of Robert G. Stanton, Director

    Mr. Stanton. Thank you again, Mr. Chairman. It is a 
pleasure to appear before you and the members of this committee 
on behalf of the Administration's fiscal year 2000 budget for 
the National Park Service.
    I believe you have received a copy of my prepared statement 
and I would ask that it be included in the record in its 
entirety, if there is no objection.
    Mr. Regula. Yes, your full statement will be inserted in 
the record without objection and you can summarize for us.
    Mr. Stanton. Fine.
    A brief overview, if I may, of the year 2000 budget for the 
Park Service.
    The budget request for the Park Service for fiscal year 
2000 totals $2.059 billion in funds subject to annual 
appropriation. This represents an increase of $305 million when 
compared to fiscal year 1999's enacted amount. The largest 
portion of this recommended increase is associated with the 
Administration's proposal, Lands Legacy, a $1 billion effort to 
reinvest and to invest in the protection of America's land and 
resources.

                        lands legacy initiative

    Mr. Regula. Excuse me. Is that money going to benefit the 
parks in any way?
    Mr. Stanton. The Lands Legacy?
    Mr. Regula. Yes.
    Mr. Stanton. Yes. The Lands Legacy is twofold, Mr. 
Chairman. A percentage of it is earmarked towards our in-park 
system, land acquisition; $200 million, however, is earmarked 
to assist States, their political subdivisions and tribal 
governments.
    Mr. Regula. That will not benefit the parks.
    I am sorry to interrupt you.
    Mr. Stanton. No, please.
    Mr. Regula. But you have a $305 million increase and yet 
$220 million of that, two-thirds of it, will not in any way 
directly benefit the parks. Am I correct?
    Mr. Stanton. We believe it is our responsibility, and 
indeed, an opportunity on the Federal Government's part, to 
join with the States, local governments, county governments, 
tribal governments in providing for the protection of this 
Nation's resources, may they be under someone's jurisdiction 
other than the Federal Government. Therefore, we think there is 
a benefit to the American public in administering this program.
    Mr. Regula. You will not have that money that would 
normally have gone to park enhancement and backlog maintenance; 
it will be going to the States and/or local communities, am I 
correct?
    Mr. Stanton. Mr. Chairman, in the formulation of the 
budget, it was not a part of the process to look at the 
participation of the Park Service in the Lands Legacy Program 
in lieu of other needs that need to be addressed with respect 
to managing the national parks and other programs for which 
we're responsible.
    It is our judgment that they are complementary and we do 
have requests for increases to meet some of the more critical 
needs for in-park programs.
    Mr. Regula. Go ahead.

                      Director Stanton's Statement

    Mr. Stanton. As I pointed out earlier, with respect to the 
Lands Legacy Program for the National Park Service--obviously 
there are other land management agencies participating in the 
program. There is $200 million allocated for conservation 
grants and planning assistance, $172.5 million is proposed for 
the acquisition of priority lands within the National Park 
system and $4 million for the Urban Park and Recreation 
Recovery (UPARR) Fund.
    One of my primary objectives during my tenure as Director 
of the National Park Service has been to emphasize the day-to-
day challenge facing our men and women in the preservation and 
protection of our natural and cultural resources entrusted to 
our care. We believe that the budget will assist us in moving 
towards that objective.
    As an example, we are beginning to give much more attention 
to our natural resource management program on the grounds in 
the parks. This is the day-to-day management of the natural 
resources. To that end, we are requesting a budget increase of 
$19.8 million.
    Also, we are requesting additional funding of $25 million 
for our operational requirements, including associated costs 
with managing new facilities and land supported by Congress.
    We are continuing to emphasize safe conditions of our parks 
for the benefit of our visitors and our employees and 
improvement of the infrastructure and an Ongoing Partnership 
Program to extend the benefit of natural and cultural resource 
conservation and outdoor recreation.
    I was pleased, Mr. Chairman, that you and Mr. Dicks, were 
able to join us for the opening of the Temporary Visitor Center 
at the Washington Monument, which is another example of our 
partnership with the private sector.
    All told, our operating budget is proposed to increase to 
$102 million above last year's enacted amount.
    Under the leadership of our First Lady, last year's budget 
proposal included a new program to save America's treasures as 
we approach the new century or if you will, the new millennium. 
Congress, through your efforts and approval of the 
appropriation last year, obviously became a very active and 
supportive partner in this effort, approving $30 million toward 
the preservation of our historic and cultural resources.
    This budget continues the millennium grant program but 
seeks to encompass broader array of perspective Federal and 
non-Federal projects to be eligible for funding. Again, we are 
requesting $30 million in fiscal year 2000 to continue our Save 
America's Treasures Program.
    Our budget request for other program areas continues our 
commitment to be the responsible steward to the highest 
levelpossible for the constructed and land infrastructure. The 
construction appropriation amount is $194 million, a decrease of $35.7 
million below last year's enacted level. This takes into consideration 
the manner in which we develop our cost estimates, applying the 
commitment we made with respect to the implementation of the NAPA 
report.
    The land acquisition account is proposed at a level of 
$172.5 million, an increase of $24.5 million above the fiscal 
year 1999 level. Again, this increase is a part of the Lands 
Legacy Program as it manifests itself with respect to 
supporting units within the National Park system.

             construction reform and denver service center

    I would like just briefly to touch upon a major effort that 
has been underway for the past year with respect to realigning 
the Denver Service Center and adopting many of the 
recommendations contained in the National Academy of Public 
Administration's report, a report that was accepted by the 
Secretary, accepted by this committee and accepted by yours 
truly on behalf of the National Park Service.
    In our response to the report, we committed to implementing 
a major redirection in the way we manage our construction 
projects. The new guidelines apply to all projects, regardless 
of whether they are managed by the Denver Service Center, the 
regions or the parks and encompasses all projects, including 
those added by Congress during the appropriations process. We 
are in the midst of a major organizational and cultural change 
regarding our design and construction program.
    I can report to you that our implementation of the NAPA 
report is ongoing, its recommendations, and we expect to have a 
fully reconfigured Denver Service Center by the end of fiscal 
year 1999, and hopefully by the beginning of this summer. There 
have been numerous details associated with the new way of doing 
business that were not contemplated by the NAPA report or the 
National Park Service managers and even by this committee in 
agreeing to the changes, but we have attempted to deal with 
those changes diligently and forthrightly.
    While it has taken us time to deal with these issues, the 
breadth of their complexity has not precluded us from 
proceeding with our commitment to fully implement the report 
that was approved last fall. Staffing at the Service Center, I 
am pleased to announce, is already down some 201 positions, or 
nearly 50 percent. That is a major effort, to reduce any 
organizational component of the Park Service by 50 percent in 
less than a year. We are presently at 295 positions and we will 
have a work force of 260 FTEs at the Denver Service Center by 
the end of this fiscal year and maybe a few months before.
    I am hopeful that the placement effort can continue to be 
honed without the use of a reduction-in-force but we are 
planning for a reduction-in-force in the event that should be 
the case.
    I should note that we are indebted to you, Mr. Chairman, to 
the members of this Committee and to Congress for authorizing 
the National Park Service to offer to our employees voluntary 
incentives or buyouts, if you will, both at the Denver Service 
Center and at the Presidio, which has eased the number or 
reduced the number that we would have to consider placing 
elsewhere and has been of great assistance to the Park Service 
and certainly has been beneficial to the employees. A total of 
75 employees took advantage of the buyout opportunity, 53 at 
the Denver Service Center, and 22 at the Presidio.
    Among the changes that have been instituted in recent years 
to enhance NPS review of its construction program was the 
establishment of the Development Advisory Board, consisting of 
senior National Park Service officials who examine construction 
projects to ensure that costs are being reviewed carefully, 
that project scope remains true to what is presented to 
Congress, and that project design and function are obtaining 
the best value for the taxpayer.
    I am pleased to report to you that under the process, some 
$30 million in project costs have been avoided as a result of 
value analysis and careful examination by the senior managers 
as these projects work their way through the system.
    This concludes my summary remarks with respect to the 
budget request for fiscal year 2000. I believe Assistant 
Secretary Donald Barry has a comment that he would like to make 
as well.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Regula. Mr. Barry.

     Opening Remarks of Donald J. Barry, Deputy Assistant Secretary

    Mr. Barry. Consistent with the compliments that I wisely 
provided you last year, I would like to suggest that our budget 
continues to reflect your priorities on fixing up the National 
Park system.
    If you take a look at the $441 million that we are 
requesting facility operations and for cyclical maintenance, 
plus add in the line item construction portion of that, even if 
you discount some of that and assume not all of it will be for 
replacing ailing facilities, and then add on top of that, the 
wave of fee demonstration money that is coming into the system 
now, my rough, back of the envelope calculations suggest that 
we're in the range of $700 million and maybe rising.
    Mr. Regula. In backlog maintenance?
    Mr. Barry. For fixing things up, correct, making the park 
look better, providing new facilities, new interpretive 
materials and so on.
    By comparison, if you take a look at the land acquisition 
component that we have in our budget, and if you set aside that 
amount that especially is earmarked for the Everglades, because 
I think everyone recognizes that has been a consistent 
bipartisan special effort, you really don't have all that much 
left for acquisition for the remainder of the park system.
    We have some very targeted proposals, some key civil war 
battle sites, the California desert area and so on, but we 
really only have about $75 million left for buying additional, 
new property in other parts of the Park System. That is almost 
a 10 to 1 ratio between fixing up things and buying new areas. 
I think that is a fair, appropriate balance that reflects your 
priorities of taking care of what we have.
    I think one other thing I would like to highlight and then 
I will quit is that this proposed budget has some fairly major 
important, new natural resource protection initiatives which I 
believe will find or should find broad bipartisan support. We 
all know that invasive species are increasingly causing 
tremendous economic harm. An invasive weed does not care 
whether you are a Republican rancher or a Democratic rancher; 
it basically is going to ruin your property regardless.
    We have a number of our parks that are being affected very 
severely by invasive species, aquatic species, plant species, 
and so on, and money has been requested in this budget to help 
the Park Service begin to assess the nature of the problem and 
to begin to do something about it.
    They also have requested a fairly significant, but I think 
important, increase in inventorying and monitoring. We can't 
manage well what we don't know we have. The Park Service is 
frequently stumbling trying to find out what thedatabase is, 
what the baseline is in order to make wise management decisions. This 
is especially important now if they are going to do a good job of 
implementing Congress' desires under GPRA, the Government Performance 
and Results Act. What the Park Service has done is to develop a GPRA 
program that is based upon knowing what you have, making your decisions 
based on good science and then making the best, most efficient and 
effective choice.
    There also is an important new component for coral reef 
protection with some of our island parks and some other 
components of the park preservation resources program. I just 
wanted to direct that to your attention and to urge you to give 
that some fair consideration.
    Thank you.
    Mr. Regula. Thank you.
    I have a number of questions, but first we will go to Mr. 
Nethercutt.
    Mr. Nethercutt. Thank you, Mr. Chairman.
    Welcome, gentlemen. Glad you are here.
    Mr. Barry, I am going to be going to the Grand Canyon in 
May and I am going to talk to some of those staff folks. I am 
going to hike down the Canyon.
    Mr. Barry. Take lots of water with you.
    Mr. Nethercutt. I saw the video and I am well prepared.
    I appreciate your being here, Director Stanton. You and I 
had a good conversation last week and I am delighted to have 
you here.

                           BUDGET PRIORITIES

    Last year, Secretary Barry, you stated in your opening 
statement that the National Park Service is ``allocating on an 
almost 4 to 1 basis new money for doing a better job of 
maintaining and repairing what we have as opposed to acquiring 
new lands.'' However, this year, as we have talked a little bit 
here today, we have requests in the testimony for $376.5 
million for funding for Federal land acquisition in conjunction 
with the President's Lands Legacy Program.
    I heard your testimony about the 10 to 1 ratio, taking care 
of what you have versus acquiring new lands. I am just wanting 
to be sure that the evidence is clear that it is the priority 
of the National Park Service to maintain current lands before 
acquiring new ones. I am wondering how any justification can be 
made for an increase in funds for land acquisition when you 
still have these backlog problems. I wonder if you could focus 
on that? I am wondering about the pass-through money of $200 
million. That doesn't seem to help the maintenance backlog.
    Mr. Barry. Let me give a couple of examples of where I 
don't view that as being inconsistent at all.
    We look forward to working with Congress to help develop 
some of the criteria that would be used for providing some of 
the grant money, but I can use a couple of examples right off 
the bat. We have a number of gateway communities that are 
increasingly concerned about open space; we have parks that are 
riparian zones where peoples' decisions upstream may affect 
what happens to the quality of the resources in the park.
    What we are interested in doing is working with the States 
and the local communities to let them sort out what is the best 
open space planning efforts that make sense, what are some of 
the best riparian strategies. In the case of the Pacific 
Northwest, Mr. Nethercutt, as you know, there is going to be 
increased attention at the local community level, on the county 
level and State level for trying to respond to the recent 
listings of the salmon.
    This grant program, if applied wisely and carefully by some 
of the States, could not only benefit salmon restoration in the 
riparian zone but also some of our national parks like Olympic 
National Park. So we don't view these as inconsistent and in 
many areas they will actually help benefit the park if some of 
the recipients of these grants or some of the gateway 
communities that are interested in having some adjacent open 
space or are interested in doing riparian zone protection.

                          MAINTENANCE BACKLOG

    Mr. Nethercutt. I hear that and I understand it. I'm just 
worried about the maintenance backlog and the priority that I 
think you have to set relative to maintenance backlog. My 
memory is last year we talked about defining maintenance 
backlog, quantifying it by numbers, by parks, by dollars and I 
don't see that has been done. Has there been a definition 
clearly composed that would let us know what you define as 
maintenance backlog, the priorities, the costs and the 
progress?
    Mr. Stanton. Yes. With respect to maintenance backlog, 
administratively we are using the term ``deferred maintenance'' 
that not only addresses the projects that are carried out 
through the line construction program, repair and rehab, but 
also we benefit from T-21 Transportation Equity Act for the 
21st Century (Public Law 105-178), funding of major road and 
bridge repair, plus we also have some dams in the parks that 
are funded as part of the dam rehabilitation account.
    We have been able to develop some cost estimates based on 
projects that fall in these various kinds of funding categories 
because the magnitude of a line-item construction project may 
differ from what you would fund from a repair-rehab, as well as 
from a fee program.
    Again, I want to join with Secretary Barry in applauding 
certainly your leadership, Mr. Chairman, and this Committee, in 
giving the Park Service the authority to benefit from the 
Recreational Fee Program.
    Our use of a definition of ``deferred maintenance,'' i.e., 
backlog, is applicable not only to the National Park Service, 
but is a term and set of criteria that has been used by the 
Fish and Wildlife Service and the Bureau of Land Management. So 
when we talk about a maintenance backlog program in the 
Department of Interior, there should be some commonality in 
terms of the kind of projects that fall within that category.
    Mr. Nethercutt. So it is basically an Interior definition?
    Mr. Stanton. In terms of our programming, right.
    Mr. Barry. It has now been developed.
    Mr. Stanton. The criteria has been developed.
    Mr. Nethercutt. Since last year?
    Mr. Stanton. It has.
    Mr. Barry. Uniform criteria have now been developed for the 
entire department.
    And we formulate our programs and needs in accordance with 
that. Using that approach, we have a $3.5 billion need and much 
of that has been programmed over a five-year period utilizing 
funding from repair and rehabilitation and line-item 
construction and also the revenue generated through the 
Recreational Fee Demonstration Program is applied twice that.
    However, as I pointed out earlier, with respect to the 
roads and bridges, we benefit at the level of approximately 
$160 million annually over the six-year period of that 
authorization.
    Mr. Nethercutt. I appreciate your response. What I 
wouldlike to see, to the extent that you have it or you are willing to 
provide it, is an actual list.
    Mr. Stanton. Okay, yes.
    Mr. Nethercutt. How many maintenance backlog projects are 
there, especially in the crown jewels? If you have it now, that 
is great. What is the cost on each particular project.
    Mr. Stanton. The list you are speaking of is inclusive of 
these various needs--roads, bridges, other buildings.
    Mr. Nethercutt. Can I look at it, can we see it, can we say 
your number one priority is this particular park for 
maintenance backlog; number two is this; number three is that? 
That has been done?
    Mr. Stanton. Some of these priorities have not been 
established in what we call out years because each project, 
over a period of time, would have to go through the Development 
Advisory Board as I mentioned earlier, to scrutinize the actual 
scope of that project, the criticalness of it as compared to 
another project. So while we have developed a multiyear program 
showing the relative priorities, as you get closer to the need 
for that project, then it would be further analyzed through 
this process. We can give you multiyear programs for repair, 
rehabilitation, line-item construction and the roads and 
bridges funded under the Transportation Act.
    Mr. Barry. Congressman Nethercutt, I testified in front of 
this Committee two weeks ago at the Fee Demonstration Program 
hearing. One of the things the Park Service is doing right now 
is going back, and this will take some time and even GAO 
acknowledged that, over the next year or so to try to update 
and clean up some of the older lists of backlog maintenance.
    A lot of these things evolve and change over time. What we 
need to do is go back and make sure that we are operating off 
the most up-to-date list with the most current estimates. Some 
of those estimates were made a long time ago, the costs have 
changed, needs have changed and so on, and so the Park Service 
now is in the process of doing that, going back and trying to 
ensure that we're working off the best list. That will take a 
bit of time. GAO acknowledged that.
    Mr. Nethercutt. It seems to me you ought to have criteria 
for establishing what is a priority, and what is lower on the 
priority list, when you are going to address the needs on that 
list, how much it is going to cost, and when it will be 
completed and then move down to the next one. It sounds like it 
is a fluid situation.
    Mr. Barry. Not as fluid as you might think. The Department 
and the Park Service do have some general areas of priority--
critical health and safety projects, for instance, are tops; 
environmental compliance. If we have a park, as we did with 
Yellowstone, where the sewage systems are breaking down and raw 
sewage is going out into the river, where they were being 
threatened with significant EPA and State penalties, that goes 
up very quickly to the top of the list. So those three alone--
public health and safety and environmental compliance--are 
considered top priority funding responsibilities and you will 
see the predominance of those on the lists moving forward.
    Mr. Nethercutt. Yes, sir?

                     CONSTRUCTION OF NEW FACILITIES

    Mr. Regula. Maybe I don't understand your definitions, but 
I noted that in this list is a new Environmental Education 
Preservation Center in the Virgin Islands, a new science 
building in the Great Smokies and nine new or expansion of 
visitor centers. It is a bit of a stretch to make those backlog 
maintenance.
    Mr. Barry. I am not sure which list you are referring to?
    Mr. Regula. Your five-year construction plan.
    Mr. Barry. I didn't suggest to Congressman Nethercutt that 
is all we build. In fact, I think if you take a look at what 
Congress has been appropriating, it has been a mixture of 
things--high priority, critical health and safety, some new 
facilities. We don't give a preference to new facilities, but 
we certainly believe in some instances they may be warranted or 
justified.
    Mr. Nethercutt. Were you finished, Mr. Chairman?
    Mr. Regula. Yes.

                          MAINTENANCE BACKLOG

    Mr. Nethercutt. It just seems to me you ought to have some 
clear definition and I am not sure what the definition is. 
Maybe I am just missing it, but I don't sense there is a clear 
definition just sort of an ad hoc policy. Correct me if I am 
wrong, but it seems to me you ought to have some definition 
that directs you all in the operation of your work, which I 
fully support, but it seems like something is going to come up 
on the radar screen, so you are going to deal with that. I want 
to know, how and what it will cost.
    Mr. Barry. Fair enough. Let me go back though. I would 
argue that is sort of apples and oranges in a way because what 
Congressman Nethercutt was asking about was repair and rehab 
for backlog maintenance. Some of those items are new line item 
construction and not all new line item construction has ever 
been suggested by this committee or by Congress or by the 
Administration that it should be exclusively repair and rehab 
projects only.
    For the facility operations and maintenance portion of the 
budget, which is about $441 million, that has to definitionally 
be fixing up and maintaining what you have. A significant 
amount, a very heavy percentage of the Recreation Fee 
Demonstration Program revenue is going into the same category, 
but some of those items I think may be from the line item 
construction program which, in some instances, has always 
included new facilities. We don't make that the dominant 
portion of the list but, in some instances, we believe it may 
be warranted.
    Mr. Nethercutt. One final question, Mr. Chairman. I don't 
want to overtake my time here.
    First of all, when we get the list, the definition of 
backlog maintenance, the priority-setting definition and then 
the list and the cost.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                  listing of pacific northwest salmon

    Secretary Barry, I heard you comment about the listings in 
the Pacific Northwest on salmon. How much of the area that is 
covered by those listings is National Park Service area, if 
any?
    Mr. Barry. Clearly Olympic National Park would be. There 
may be some other smaller units, historic sites, I know that. I 
doubt that is going to be dramatically affected by the listing 
one way or the other, but probably Olympic National Park comes 
to mind as the best example.
    Mr. Nethercutt. That is already in the park so that is not 
going to be a new acquisition.
    Mr. Barry. Correct.
    Mr. Nethercutt. I am wondering about new acquisitions that 
you talked about in the Lands Legacy, the passthrough?
    Mr. Stanton. The acquisition that is in the Lands Legacy as 
relates to the National Park System is to pick up what is 
commonly referred to as inholdings. Those areas, based on an 
evaluative process, that end up in what we call the land 
protection plan would indicate whether or not there is a 
partial private land within an established park that may be 
subject to some incompatible development. Therefore, we would 
strive to acquire those properties. The Land Acquisition 
Program is pretty much dictated by those kinds of priorities.
    Mr. Nethercutt. My question just goes to what lands, 
relative to the salmon listings, might be covered in that 
definition.
    Thank you, Mr. Chairman.
    Mr. Regula. Mr. Cramer.

                      construction prioritization

    Mr. Cramer. Thank you, Mr. Chairman.
    This is an important hearing and I appreciate your 
testimony here today. I want to pick up on a version of Mr. 
Nethercutt's and the Chairman's conversation with you about 
priorities and how you make your decisions.
    You have $118 million in this budget provided for 36 line 
item construction and maintenance projects. How are these 36 
projects selected?
    Mr. Stanton. They originate with the park. We have 378 
parks and they determine what their relative priorities or 
needs are, and they submit those to their respective regional 
director who, in turn, would make a judgment call with respect 
to what the relative priorities are within that region and then 
submit those to the national office.
    In all instances, we are ultimately constrained by the 
level of funding that might be available in a fiscal year for 
which we would be requesting money. We do have a database or an 
information system that includes all of the known needs in the 
parks. It is just that all of the known needs cannot work their 
way into any one given budget because you are constrained.
    Mr. Cramer. Of course and that is part of what I wanted to 
get at. Obviously you have to prioritize and have great 
flexibility for updating and determining what you can't live 
with, what you have to live with, what is almost an emergency 
problem for you.
    Mr. Stanton. That is correct. Then as the projects come 
through the process from the regional director into the 
national office, we establish national priorities that 
hopefully will be accepted by the Secretary and by the Office 
of Management and Budget that ultimately will show up in a 
budget request such as in the year 2000. So there are many 
competing projects.
    Some do not make the final cut, but each project goes 
through a thorough, evaluative process by the Development 
Advisory Board that reports to me with respect to analyzing 
every project that shows up in the line-item construction 
program as having met some critical need in terms of resource 
protection, deferred maintenance, in terms of backlog, 
enhancement of visitor services, and what have you.
    Mr. Cramer. How does the $118 million we are talking about 
for this year compare? Are we gaining on knocking out some of 
the construction and maintenance projects that plague this?
    Mr. Stanton. Yes. The dollar level has stayed pretty much 
the same, although we have been able to enhance it by the fact 
that we are applying different cost estimates per project as a 
part of our compliance with the NAPA report in terms of what we 
build in, in terms of construction supervision as well as 
contingencies. Therefore, the dollar amount has been reduced.
    The other point is that in addition to the line-item 
construction program, there are other programs that meet some 
of the deferred maintenance needs such as the repair and 
rehabilitation program which is not a line item presentation in 
the budget as is the case with the line-item construction. 
Also, we use the Recreational Fee Program to address some of 
the deferred maintenance projects.
    Mr. Cramer. I know we need to address the major maintenance 
concerns at the larger national parks but I would also make 
sure there is a funding mechanism within the budget allocated 
for small national parks and monuments so that they don't get 
overlooked or neglected.
    Mr. Stanton. That is correct.
    Mr. Cramer. You feel like we are accomplishing this?
    Mr. Stanton. I believe we are. Again, it is incumbent upon 
the superintendent of the individual park to document the need 
and then to present that need to the regional director. It is 
up to the regional director to determine whether or not there 
is a different way in which that project could be handled. If 
in fact it falls within a certain threshold in terms of 
complexity and what have you, perhaps it could be resolved 
through a repair-rehabilitation project as opposed to line-item 
construction, or be handled by a fee program allocation.
    I think the small parks as well as the larger parks have 
the same opportunity to compete in the process for funding.
    Mr. Cramer. As you know, with an issue of a small national 
park monument in my district, we have been talking about years 
we have been waiting in line to wait for our evaluation to come 
up in a positive way. I just want to make sure I understand the 
full picture and how you evaluate and set priorities.
    Mr. Stanton. I appreciate your question and concern about 
the park. I have not inquired as to the relative need, the 
specific needs of that park but I look forward to having the 
opportunity to discuss it.
    Mr. Cramer. Your office has been responsive to us and we 
will continue that dialogue.
    Mr. Stanton. What I would like to impress upon you is that 
the small parks have the opportunity to compete. Again, it is 
incumbent upon the regional director to determine the best way 
to respond to the needs of that park. It could be the line-item 
construction, it could be repair-rehabilitation or it could be 
from the recreational fee program.

              historically black colleges and universities

    Mr. Cramer. I want to speak to you also about the Historic 
Preservation Fund. In the fiscal year 2000 budget, you have an 
$8.1 million increase in that fund, raising the funding level 
to $80.5 million. A significant portion of this occurs with the 
historically black colleges and universities. You have 
increased that account by $6.6 million to a total level of $15 
million, right?
    Mr. Stanton. Yes, that is correct.
    Mr. Cramer. As you know, I have two HBCUs in my district 
and their historic buildings have fallen into disrepair due to 
lack of capital resources. I think that is a very good program. 
Could you please comment on the necessity of the new funding in 
general?
    Mr. Stanton. Yes. The new funding would be made available 
to the historically black colleges and universities that were 
delineated in the 1996 Omnibus Parks Act and therefore, these 
funds will be used to further the preservation of some of the 
buildings that are deteriorating.
    We do not have the prerogative, if you will, to delete or 
to add universities or colleges to this listing, so the $15 
million in fiscal year 2000 will be used again to complete, in 
some instances, the preservation of some of the properties on 
these designated colleges and universities. What the future 
will be, I am not quite sure.
    Mr. Cramer. We are working to expand that number and we 
will continue to do that.

                         housing for employees

    I want to make one last comment about the first issue, the 
employee housing issues that I didn't get here in time to be 
involved in the questions. I hope we can move out and settle 
disagreements and at the same time, look at the integrity that 
we are trying to preserve here with the parks and their images. 
So I hope we are settling those differences.
    Mr. Stanton. We are and we have made a commitment to do 
that.
    Mr. Cramer. Good. Thank you.
    Mr. Regula. Mr. Kingston.
    Mr. Kingston. Thank you, Mr. Chairman.
    Director Stanton, Mr. Barry, it is good to see you. I 
certainly appreciate the time I spent with you yesterday. I 
look forward to hearing from you on some of those questions we 
went over. I had one other I wanted to add to it which you may 
know off the top of your head.

                  cumberland island national seashore

    Mr. Chairman, I wanted to say Mr. Stanton and Mr. Barry 
have been very good in terms of working with us through the 
many issues and personalities on Cumberland Island, with full 
understanding that there is a wide range of opinion and 
personalities there.
    Did you sign the agreement yet, do you know?
    Mr. Stanton. We have entered into an agreement with all 
parties with respect to our commitment at Cumberland Island.
    Mr. Kingston. But I think there is an actual agreement. You 
have signed it?
    Mr. Stanton. Yes.
    Mr. Kingston. Okay, because we had some questions whether 
you had or not.
    Thanks for everything. We are going to continue to work on 
it.
    Mr. Barry, you weren't with us yesterday but there were a 
few other things that popped up that I went over with Mr. 
Stanton.

                        historic black churches

    On the fund you were just talking about in terms of the 
black colleges, I have a question I already raised with 
Secretary Babbitt and I know what his answer was, but there are 
a lot of historic black churches that are in need of repair. In 
many cases, they just don't have the funds to get the work done 
and many are on the Historic Register.
    He told me that the First Amendment keeps us from being 
able to do anything in terms of helping them. Is that your 
understanding as well?
    Mr. Stanton. It is my understanding with respect to 
religious services that may be carried out through the use of 
Federal funds, there must be a separation of State and church. 
With respect to the preservation of a historic property that 
may be on the National Register, there are indeed some churches 
that have been designated as national historic landmarks. In 
those instances where they have a need to preserve the historic 
fabric, if you will, they would be eligible to apply for 
historic preservation assistance through their States. Unless 
Congress earmarks a specific recipient, i.e., the historically 
black colleges, then any owner of a historic property must 
compete with other owners as a part of the allocation of the 
historic preservation grants to the States.
    So a given church, if it is on the National Register or it 
is a historic landmark, can compete for those funds in a State. 
We would not be directly involved, per se.
    Mr. Kingston. What is that part of funds called?
    Mr. Stanton. It is the Historic Preservation Fund, 
apportioned to the States annually. We work closely with the 
Historic Preservation Officer that each State has.
    Mr. Kingston. How can I find out more information about 
that?
    Mr. Stanton. We would be more than happy to get the name of 
the State Historic Preservation Officer, the amount of money 
they receive each year, and how they go about considering the 
candidates for those funds.

                    world heritage site designation

    Mr. Kingston. One of the issues I mentioned to you I was 
going to bring up today on the record had to do with United 
Nations agencies. I am going to read something from a magazine 
article that the United Nations agencies have placed 68 percent 
of our national park land into what is known as a biosphere 
reserve. Another United Nations agency concerned with rural 
heritage sites has been allowed to place 21 of our national 
shrines, including the Statute of Liberty and Independence 
Hall, under the direction of the UN scientific and cultural 
organization called UNESCO.
    ``Unknown to most citizens, the biosphere reserve now owns 
and controls 47 U.S. national forests and parks including 
Yellowstone, Death Valley National Park, which has been renamed 
Death Valley International Biosphere. In essence, not only does 
the U.S. no longer own these Federal lands, they no longer have 
control in managing the property.''
    Mr. Barry. If I could jump in on that one.
    Mr. Stanton. I have a response as well.
    Mr. Barry. That could not possibly be farther from the 
truth. I have to tell you that I find the opposition to the 
World Heritage Program in particular, most amazing because the 
irony of it is that in every other country in the world, these 
things are fought for and quite frankly, it generates huge 
tourism benefits for the areas that have been added.
    I headed the U.S. delegation to a World Heritage meeting 
because I wanted to see what these were like. I had heard the 
criticisms, I wanted to go and see for myself what they were 
like. Quite frankly, Germany, England, Australia, New Zealand, 
all these other countries fall all over themselves and are 
proud of world heritage sites and they generate huge amounts of 
money.
    There are tourism groups in Europe that focus on World 
Heritage tours. In this country, we were the ones that 
designated the World Heritage sites ourselves. The regulations 
were issued during the Reagan Administration, certainly not an 
antiprivate property rights group of individuals. I was at the 
Department of Interior at that time. So these are Reagan 
Administration regulations regarding the designation of sites. 
These are our flagship parks--Everglades, Yellowstone and so 
on--and there are tons of European tourists who come over to 
see these sites.
    I am just saying that I can assure you for a fact, having 
been there myself, unless I was totally duped by everything I 
saw, that this is not a United Nations black helicopter plot 
and quite frankly, in most of the countries, they are proud of 
their sites because they generate lots of money for the 
affected communities.
    Mr. Kingston. So it is a designation only? It has nothing 
to do with ownership?
    Mr. Barry. Definitely.
    Mr. Kingston. Nothing to do with control?
    Mr. Stanton. That is correct.
    I would state unequivocally that the management of our 
national parks, as authorized by Congress, is fully vested in 
the Secretary of the Interior, the Assistant Secretary and 
yours truly. It is a recognition on the part of an 
international body that we are very fortunate as a country to 
have some priceless natural and cultural resources that we 
would like to share with the world.
    There is no diminishing of any of our sovereign authority 
on these lands. I think what this points out is that we, the 
Park Service and maybe the Department of Interior, need to do a 
better job of communicating to the public at large the 
significance of these designations to ward off any 
misunderstanding in terms of what these designations entail. I 
think we have an obligation to do that for the benefit of the 
American public.
    Mr. Kingston. I think that would be very helpful and just 
again, no ownership change, no management change; whatever we 
wanted to do, we would continue to be able to do.
    Mr. Nethercutt. Just quickly. Is there a cost associated 
with any such designation?
    Mr. Barry. To the extent that we have had something like 
the Statute of Liberty designated or the Everglades, it really 
doesn't affect the way the Park Service manages those 
properties. Those areas were chosen because the management was 
consistent with the preservation, protection and values that 
are recognized under the Convention.
    Mr. Kingston. I understand the management. I am asking as 
to cost itself, is there any cost? My memory is I had asked 
this question a few years ago and there was some response later 
in the followup written testimony supplied for the record. My 
memory is it was something like $65,000 or something. Am I 
right?
    Mr. Barry. We have an international affairs program that 
the National Park Service operates that is responsible for the 
implementation of these agreements. For instance, I headed the 
U.S. delegation going over to the World Heritage Convention 
site. I can assure you, it was a very small delegation, me and 
two other people. So there are some costs associated with 
participating in an international agreement, but it is, by no 
means, excessive at all. By other international agreement 
standards, I think it is very, very modest.
    Mr. Kingston. Would you kindly submit that for the record?
    Mr. Stanton. We certainly will.
    Mr. Kingston. Thank you.
    [The information follows:]

                         Man and the Biosphere

    The National Park Service contributes $65,000 each year in 
support of the U.S. National Committee for the Man and the 
Biosphere, which coordinates biosphere program activities in 
the United States.

    Mr. Barry. I can assure you, Congressman Kingston, if I get 
any phone calls from Boutros Boutros-Ghali suggesting how I 
manage our national parks, I will seek further guidance from 
Congress but I have yet to get a call on that point.
    Mr. Kingston. I would appreciate that.
    Mr. Chairman, I think also next time Mr. O'Barry comes to 
speak on St. Patrick's Day, he needs to wear something a little 
green. I am embarrassed. [Laughter.]

                  biological resources division (uses)

    Mr. Regula. I have a couple of things. I notice you have a 
$20 million increase for science initiatives. It was our intent 
when we put the Biological Resources Division in USGS that they 
would provide science for all the agencies. I don't want to see 
that policy concept eroded. I understand you may have selective 
issues, but $20 million. It appears to me you are starting to 
go back to doing a lot of this in the park units and not 
utilizing the other resource.
    Mr. Stanton. Our effort is to the contrary. We are 
committed to relying upon the U.S. Geological Survey, their 
branch of Biological Sciences.
    Mr. Regula. You are fully committed to that?
    Mr. Stanton. To provide us scientific data, long-term 
research on issues affecting the management of the natural 
resources in the units of the national parks. Again, that is in 
place.
    What we are proposing here is to increase our on-the-
ground, day-to-day management of those resources entrusted to 
our care, be they whitetail deer to dealing with invasive 
plants or other species, dealing with those on a day-to-day 
basis. Here in the national capital area, there is the example 
of dealing with hydrilla or dealing with kudzu in terms of 
resource management issues. Those are the technical experts, if 
you will, not doing research. We will continue to rely upon the 
USGS to carry forth the research of the National Park Service.
    For instance, we have long-term research underway on the 
grizzly bear as an example, long-term research on the best ways 
to use proven herbicides and pesticides on invasive plants but 
once it is determined what is the best tool to use, then we 
need to have the technical resource managers in the parks 
carrying out those programs on a day-to-day basis. So it is 
complementary, science with USGS; hands-on resource management 
in the national parks.
    We need to really recommit ourselves to assure that the 
national resources that we are caring for, we are doing that to 
the very best of our ability. Unfortunately we have slipped in 
years past and we just don't have the trained technicians or 
the resource management specialists that we need. This is an 
effort to move in that direction.
    Mr. Regula. But overall, you want to use the BRD.
    Mr. Stanton. No question about that and we are using them, 
yes, sir.
    Mr. Barry. One other example of where even though the Park 
Service got the money for a science component, we then worked 
through BRD had to do with brucellosis research with 
Yellowstone. We are very concerned about working with the 
livestock community to help eradicate brucellosis in wildlife. 
I made a commitment to the Governor of Montana to do what I 
could to pull together additional money for accelerated 
research.
    Mike Soukup is probably still bearing the wounds when I 
twisted his arm to get money from the Park Service for that 
effort but the Park Service made a sizable contribution. We 
then sat down with BRD, worked off their list and provided 
flowthrough money to BRD to help do the research on 
brucellosis. That is an example of it being a Park Service 
account but our immediate responses go back to BRD.
    Mr. Regula. You try to avoid any duplication because a lot 
of your lands interface with other public lands. If you have a 
common problem, you don't both invent the wheel?
    Mr. Barry. No, in fact, on brucellosis, just last week 
there was a Federal meeting in Billings, Montana with all of 
the affected Federal agencies--Forest Service, Park Service, 
Fish and Wildlife Service--on brucellosis to coordinate 
research and make sure they are not duplicating each other's 
efforts.

                       tribal ownership of lands

    Mr. Regula. There is a rather precedent-setting deal with a 
California tribe and the National Park Service on Death Valley 
National Park. If the tribe is going to have an element of 
ownership in this, could this cause an adverse impact on park 
resources and could they have a casino, for example?
    Mr. Barry. We are not concerned that either of those two 
events could occur within Death Valley National Park for a 
couple of reasons. First of all, the draft tentative agreement, 
which has been worked out with the Timber Shoshone Tribe would 
result in about 300 acres of land being transferred at Death 
Valley Junction to the tribe in trust, subject to some very 
important restrictions, one of which would be that there would 
be no development, no construction which was not approved and 
consistent with agreed upon, sustainable design guidelines that 
the Park Service itself would be a part of developing.
    So the Park Service would basically be in a position to 
control and veto any inconsistent development which would be 
harmful to the valleys or the park. The park superintendent, I 
should note, is strongly supportive of this effort. He is very 
comfortable and confident that with these safeguards, with 
these restrictive covenants regarding the way the tribe could 
develop their land and the involvement of the Park Service at 
every step, they are very comfortable this will not have any 
adverse effect on the park resources.
    Mr. Regula. I think it is something you have to be very 
careful about.
    Mr. Barry. We are very concerned about that.
    Mr. Regula. There has been a trend for the various tribes 
to assert ownership, and that could create some serious legal 
problems.

                           budget priorities

    Backlog maintenance vis-a-vis the Lands Legacy. The Greater 
Yellowstone Coalition has sent me a copy of the report of the 
National Park environmental condition--ten sewage systems in 
trouble--this goes on and on and on. That is pretty dangerous 
stuff, if you want to be worried about health, safety and the 
visitors' experience. As I read this report, to have all of 
these backlog problems, I find it difficult to talk about 
spending $200 million to buy land outside the Park Service, in 
the States and it could be tennis courts or golf courses in 
local communities. I don't think there is any restriction on 
it. That doesn't add up when you have this kind of problem in 
the existing parks.
    I can understand inholdings, and I have always felt our 
policy has been to support the purchase of inholdings to 
complete the land units, but when you have backlogs that take a 
couple hundred million dollars out of your budget to give to 
the States and add to the land base, it is public lands,the 
taxpayer dollars are taxpayer dollars. How do you respond to that?
    Mr. Stanton. As I attempted to respond earlier, Mr. 
Chairman, it is our belief that there is a role, and indeed a 
responsibility, and opportunities, for us to foster and work 
cooperatively with the States, their political subdivisions, 
and tribal governments in preserving this Nation's open spaces 
and resources.
    Mr. Regula. Let me say that the states have a surplus, so 
maybe they ought to be sharing with us.
    Mr. Stanton. I hadn't thought of that one but I appreciate 
the comment, Mr. Chairman. It is my strong belief that as we 
look at other requests in this budget, both for the land 
acquisition, for the line item construction program, the 
repair-rehabilitation, the natural resource management needs, 
that it represents a commitment to meet the most critical needs 
in the national park system and those programs for which the 
National Park Service has responsibility.
    Mr. Regula. You are saying, in effect, the $200 million 
does not debilitate the efforts you will put into the other NPS 
programs, so there must not be an extra need there.
    Mr. Stanton. We have needs, Mr. Chairman. I will be 
forthright in that respect, but I think our needs are internal 
and external, if you will. Certainly one could argue that all 
funding could go to two or three specific programs of the Park 
Service or it could be used to meet needs beyond those two or 
three in terms of cultural, natural, visitor services, safety, 
whatever the case may be, as well as assisting the States, 
their local subdivisions and tribal governments in carrying out 
some of the preservation measures.
    Mr. Regula. We may have a difference of opinion.
    Mr. Stanton. Yes, sir.
    Mr. Regula. Mr. Skeen.
    Mr. Skeen. Thank you, Mr. Chairman, and no difference of 
opinion yet.

                      vanishing treasures program

    I want to compliment the Park Service on their Vanishing 
Treasures program and their continued commitment to this 
program. It hasn't received widespread attention outside of the 
Southwest because, for the most part, it is a maintenance 
program that has an added benefit, a human resources component.
    Through this program, we are preserving ancient ruins sites 
and missions to our cultural heritage and at the same time, we 
are hiring and training local Native Americans and Hispanics 
from the surrounding rural areas to do the work. What is great 
about this program is that it was developed by the Park 
Superintendent at the grassroots level. It is really a great 
program.

                  cave institute near carlsbad caverns

    The question I have is last year the legislation regarding 
the establishment of a Cave Institute near Carlsbad Caverns was 
signed into law. Recognizing this happened just a few months 
ago, can you give me some idea how you plan to proceed in the 
establishment of this institute? We keep talking about it but I 
haven't seen any concrete plans?
    Mr. Stanton. I certainly appreciate your comment about the 
Vanishing Treasures Program. I would certainly agree that it is 
a marvel in terms of local park management coming together as a 
team to meet some of the critical cultural preservation needs. 
It is a marvel.
    Mr. Skeen. It is a vital program, well done and well 
thought out.
    Mr. Stanton. With respect to the Institute as authorized by 
Congress, it was to be established in the vicinity of Carlsbad 
Caverns and not in the park per se. Furthermore, it is 
stipulated it has to be a partnership between the National Park 
Service and some other public entity, maybe a university or the 
City of Carlsbad or what have you.
    Mr. Skeen. Or both.
    Mr. Stanton. Right. There has been some discussions under 
the leadership of our Regional Director, John Cook, and the 
superintendent of Carlsbad and others with the mayor, who is 
very excited about it, as well as other entities and they are 
trying to come together now with an agreement that would be the 
basis of developing the institute.
    What will come out of that obviously would be a need to 
have a structure, a center or facility to house the institute 
and a question about whether or not that would be a shared cost 
as well. The key thing is to come to a partnership agreement 
with either the city, a university or someone who is able to 
also bring some resources to the table.
    Mr. Skeen. I understand. Are these discussions in progress?
    Mr. Stanton. They are in progress. They are being held in 
the vicinity of Carlsbad Caverns.
    Mr. Skeen. I think this is a great technological project 
and vital to us. I can understand why you are trying to get 
some shared costs.
    Mr. Stanton. I think that was the spirit of the 
legislation, that it should be a partnership with some other 
entity.

                            Closing Remarks

    Mr. Skeen. Once again, I think you folks do a great job and 
you do a lot to earn all that money we are going to give you or 
not give you. [Laughter.]
    Mr. Regula. I assume we are getting a contribution from the 
Agriculture Committee?
    Mr. Skeen. Only if the drought breaks. [Laughter.]
    Mr. Regula. Mr. Moran, how much time would you like? The 
reason I am asking is I want to get over to the House floor to 
make a statement. I will have Mr. Skeen finish up.
    Mr. Moran. Actually, Mr. Chairman, I just came by to say 
hello to the Director particularly and his colleagues and to 
you. I don't have any questions. There are some parochial 
concerns but I have shared them with the Director. I know that 
any question of consequence has already been asked by my 
colleagues, so I will defer. I am sure you have asked the 
appropriate questions in terms of the Park Service housing.
    Mr. Regula. We will have additional questions, and if you 
want to submit some for the record, you may.
    Mr. Moran. That would be fine.
    Mr. Regula. Let me say this. I reserve the right to have 
you come back on two bases. One is that once we get a response 
to our questions in the record, it may trigger additional 
comments and/or questions. Secondly, once we get an allocation 
through the budget process, we may want to reassess your 
priorities to ensure that we are making the best possible use 
of our money.
    We have, as you well know, housing issues. We have 
questions on the Lands Legacy Initiative and so on. So I think 
it is very possible that we will have an additional hearing 
based on question responses and/or the allocation, whatever 
that might be.
    Do you have anything additional, Mr. Hinchey?
    Mr. Hinchey. I don't think so, Mr. Chairman. I came 
backprimarily to keep you company.
    Mr. Regula. I appreciate that. You may want to join me on 
the steel issue that is on the floor right now. I think you 
have some interest in that.

             yellowstone national park wastewater treatment

    Mr. Regula. Thank you very much. Again, we are just trying 
to make the best possible use of the dollars in terms of the 
visitor experience when it is all said and done. I am really 
troubled by Yellowstone, for example, where if you have ten 
systems out there with threatened dumping into the Yellowstone 
River.
    Mr. Stanton. I might add all of those systems are in the 
program. Of course we have a request for this fiscal year and 
Congress made some money available last year and this is the 
second phase, to correct the most critical wastewater treatment 
facility, but all are in the program and there is relative 
priority in terms of level of deterioration. I have not seen 
this particular report, Mr. Chairman.
    Mr. Regula. Mr. Moran.

              concession contracts and marina improvements

    Mr. Moran. There is something I would like to ask for the 
record. I am having increasing trouble with vendors not being 
able to make investments, capital investments in sites, for 
example, marinas. We have Belle Haven Marina and Columbia 
Island Marina in my district. The problem is that no banks and 
no individual in their right mind is going to lend somebody 
capital when they can only get a lease for a six-month period 
or even for a year's period. They really need longer-term 
leases if we expect them to make capital improvements to Park 
Service properties. This is something I really think needs 
review. It is a policy issue that just doesn't seem to fit the 
public interest, particularly when you have vendors that have 
been responsible operators of facilities for 10-20 years. Mr. 
Director?
    Mr. Stanton. I will respond briefly. Policy does not limit 
a concession contract to a six-month or year period. We can 
negotiate. The norm would be ten years, maybe longer depending 
on what kind of up front capital investment would be borne by 
the concessioner.
    Obviously in those instances where a concession contract 
has expired, we may negotiate a temporary extension for six 
months to a year until such time that the new contract could be 
renegotiated, but clearly the terms of a contract must allow 
the private vendor or concessioner to recognize or appreciate a 
return on their investment.
    Mr. Moran. So you do have a number of them as long as ten 
years?
    Mr. Stanton. Yes.
    Mr. Moran. That is what I wanted to hear. Thank you, Mr. 
Director.

                          maintenance backlog

    Mr. Barry. If I could finish one last thing. I wish 
Congressman Nethercutt was still here. The Department sent up 
on February 23 their departmental construction and repair-rehab 
five year list so I would just note for the record that there 
was a fairly significant submission from the Department in 
February which outlined the attempts to develop a uniform 
approach in defining backlog maintenance, deferred maintenance 
and so on. I think there is a fair amount of information in 
that submission which would answer some of the questions that 
Congressman Nethercutt had. We can try to provide more specific 
information for the Park Service record.

             yellowstone national park wastewater treatment

    Mr. Regula. I was troubled too because the five-year plan 
only proposes to replace two of the seven projects on 
wastewater treatment in Yellowstone.
    Mr. Barry. Let me suggest one thing. If there is one person 
who has made an impression in my mind about his wastewater 
treatment project problems it is Mike Finley. He is a very shy, 
retiring person. I can assure you that I have moved up in 
priority and the Director has concurred, with a number of those 
waste facility problems that Yellowstone has.
    As Bob suggested though, not all of those problems are the 
same level of urgency, so we believe we are prepared to respond 
in the out years, fiscal year 2001, 2002 in an appropriate 
manner to address those problems in Yellowstone.
    Mr. Stanton. And the repair-rehabilitation program will 
also deal with the complex issues.

                        construction priorities

    Mr. Regula. We have this information, yet look at all these 
new buildings that you propose.
    Mr. Barry. Was that out of the five-year construction plan?
    Mr. Regula. I believe so.
    Mr. Barry. Again, it is just a five-year plan. We will, for 
each year, sort out the overall priorities. That is right, we 
were given not an immense amount of time to get that list up 
here and we believe for each particular year, we will reserve 
the right to go back and make adjustments based on overall 
priority.

                         housing for employees

    Mr. Regula. Let me just make one last comment on housing. 
We are going to be interested in how you resolve the manager's 
opinions versus the contractor's opinions versus your policy. I 
think there is some discrepancy there.
    Mr. Stanton. We will be giving you a report on that. 
Members of my staff who are with me today and I are meeting 
with the seven regional directors next week and will be going 
through this region by region.
    Mr. Regula. Mr. Hinchey and Mr. Wamp both have expressed a 
real interest in the housing issue.
    Mr. Stanton. We will stay with it, Mr. Chairman.
    Mr. Regula. Thank you. Yes?
    Mr. Skeen. How are you getting along with the bears and the 
Toyota.
    Mr. Stanton. Fine. [Laughter.]
    Mr. Regula. Thank you very much.
    The hearing is adjourned.
    [The following questions and answers were submitted for the 
record:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 WITNESSES

                                  -------


 Ashe, Dan ......................................................  313
 Babbitt, Hon. Bruce ............................................    3
 Barry, D.J. ....................................................  497
 Benna, Lawrence ................................................  171
 Ceccucci, G. V. ................................................  313
 Clark, J.R. ....................................................  313
 Edwards, G. B. .................................................  313
 Fay, Tom .......................................................  171
 Frazer, G. D. ..................................................  313
 Galvin, D. P. ..................................................  497
 Gill, Dave .....................................................  171
 Hatfield, N. R. ................................................  171
 Henne, Paul ....................................................  313
 Hill B. T. .....................................................  497
 Jones, M. P. ...................................................  313
 Kirkland, Michael ..............................................  171
 Masica, Sue ....................................................  497
 Melius, Tom ....................................................  313
 Shaddox, W. D. .................................................  497
 Sheaffer, C. B. ................................................  497
 Sheehan, Denise ................................................  313
 Soukup, Michael ................................................  497
 Stanton, R. G. .................................................  497
 Trezise, J. D. .................................................    3
 Trezise, John ..................................................  313
 Trezise, John ..................................................  497
 Willemssen, J. C. ..............................................  171




                               I N D E X

                              ----------                              

                       Secretary of the Interior

                                                                   Page
Abandoned Mine Lands Program.....................................    80
Additional Committee Questions Submitted for the Record..........    60
    From Congressman Regula......................................    91
    From Congressman Nethercutt..................................   100
    From Congressman Skeen.......................................   103
    From Congressman Moran.......................................    93
Aircraft.........................................................    91
Amphibian Problem................................................    56
Automated Land and Mineral Records System........................    73
Backlog Maintenance..............................................    35
Biographical Summaries:
    Bruce Babbitt................................................    21
    John Trezise.................................................    22
BLM Director.....................................................   104
BLM Riparian Studies.............................................   154
Botanists........................................................    39
Caspian Terns and Sea Lions......................................    73
Construction and Maintenance Plan................................     4
Contempt Citation................................................    77
Cooperative Endangered Species Fund..............................    84
Cumberland Island Project........................................    40
Dams:
    Hydroelectric Dams...........................................    27
    Removal of Dams..............................................    28
    Authority to Remove Non-Federal Facilities...................    29
    Dam Removal Authority........................................    45
D.C. Sparkle.....................................................    63
Denver Service Center............................................     4
Development versus Preservation..................................    42
Downsizing Government............................................    60
Ducks Unlimited Representative...................................    47
Easements........................................................    50
Elimination of the Minerals Management Service...................   150
Elwha Dams.......................................................    23
Endangered Species Habitat Protection............................    31
    Habitat Conservation Plans...................................   100
Everglades.......................................................     7
    Everglades Restoration.......................................    36
    South Florida Restoration....................................    66
FDR Memorial.....................................................    68
Frogs............................................................     8
FTE Increases....................................................     3
FTE Needs........................................................    33
Gettysburg National Military Park................................    64
Grand Canyon Rail System.........................................    39
Headwaters.......................................................    38
Historic Structures..............................................    58
Historically Black Colleges and Universities.....................    70
Indian Trust Accounts............................................ 4, 43
Invasive Species................................................. 7, 35
Kennewick Man....................................................   102
Land Acquisition.................................................   157
    Land Acquisition and Exchanges...............................    33
    Land Acquisition Issues......................................     7
    Major New Land Acquisition Proposals.........................    65
    New Mexico Land Exchanges....................................   103
Lands Legacy Initiative..........................................61, 95
Lands Legacy Program.............................................     6
Law Enforcement..................................................   106
Lifting Moratorium on Drilling...................................    23
Mining Regulations...............................................   101
Monitoring.......................................................    58
National Constitution Center.....................................    70
National Park Service............................................    93
National Park Service Budget.....................................    44
National Spatial Data Infrastructure.............................     8
Natural Resource Damage Assessment...............................    86
Natural Resource Damage Assessment Budget........................    32
    Hudson River.................................................    32
Northern Mariana Islands Covenant Grants.........................    89
Office of Special Trustee........................................    78
Oil and Gas Industry.............................................   152
Oil Valuation....................................................    31
    Oil Valuation Regulations....................................    72
    Oil Valuation Rule...........................................   149
Opening Statement, Summary.......................................     3
Pacific Forest Plan..............................................     6
Recreation Fee Program...........................................     4
Release of Emergency Funding.....................................    84
Reordering Funding Priorities....................................    48
Rocky Mountain Front Range.......................................    81
Royalty In Kind Program........................................103, 151
Sonoran Desert Conservation Plan.................................    25
Statement of Bruce Babbitt.......................................     9
Strategic Petroleum Reserve......................................    82
Tax Credits and Easements........................................    41
Wolf Questionnaire...............................................   118
    Wolf Questionnaire and Related Issues........................   160
Wolf Reintroduction Program......................................   104
Year 2000........................................................     4
Yosemite National Park...........................................    65
    Yosemite Plans...............................................    39

                       Bureau of Land Management

Opening Remarks: Land and Resources Information System..........171-172
GAO Testimony...................................................173-192
Hearing Transcript: Land and Resource Information Systems.......193-194
MitreTEK Testimony: Land and Resource Information Systems.......195-206
Hearing Transcript: Land and Resource Information Systems.......207-223
Tom Fry Testimony...............................................224-230
Tom Fry Biography................................................   231
Hearing Transcript..............................................232-237
    FERC Hydropower Relicensing..................................   233
    FTE..........................................................   233
    Headwaters Forest............................................   232
    Interior Columbia Basin Ecosystem Management Project.........   236
    Invasive Weed Management.....................................   235
    Research.....................................................   236
    Wildland Fire Management.....................................   234
Questions Submitted for the Record:
    From the Subcommittee:
        Additional Questions Submitted by the Subcommittee.......   271
        Automated Lands and Minerals Record System (ALMRS).......   238
        Budget Questions.........................................   253
        Construction/Maintenance.................................   268
        Fire Questions...........................................   253
        General Questions........................................   248
        Oil and Gas Program......................................   270
    From Congressman Hinchey.....................................   275
        BLM Wilderness...........................................   275
        Grand Staircase-Escalante National Monument..............   279
        Recreation...............................................   278
    From Congressman Moran.......................................   280
        Grazing on Public Lands..................................   280
    From Congressman Skeen.......................................   281
        ALMRS/Land and Resource Information Systems..............   281
        Authority for Land Acquisition...........................   302
        Black-Tailed Prairie Dog.................................   287
        BLM Operations in New Mexico.............................   283
        Coalbed Methane..........................................   301
        Employees Leaving the Bureau.............................   286
        Fort Stanton.............................................   307
        Land Acquisition and Land Exchange.......................   290
        Lawsuits/Appeals.........................................   285
        New Mexico Land Exchange.................................   309
        Oil and Gas Program...............................281, 299, 307
        Prescribed Fire..........................................   309
        Water Rights.............................................   291
        Wilderness Inventory.....................................   302
        Wildland Fire Management.................................   298
        Workload and Staff.......................................   284

                       Fish and Wildlife Service

Administrative Request vs. Budget Allocation.....................   356
Amphibian Decline................................................   354
Criteria for Allocating Increases................................   381
Coastal Program..................................................   379
Construction...................................................320, 435
Director, Statement of...........................................   316
Distributions of Endangered Species Funding......................   373
Duck Stamp Revenues..............................................   353
Ecosystem Management.............................................   386
    California Bay Delta Initiative..............................   419
    California/Nevada Office.....................................   386
    Habitat and Fish Pass for Native Fish........................   419
    High Plains Partnership....................................424, 416
    Interior Columbia Basin Ecosystem Management Plan (ICEBMP)...   459
    Mississippi River Basin......................................   417
    Salton Sea Bioremediation....................................   342
    Savannah River Port Project..................................   347
    Southwest Ecosystem...................................423, 319, 416
    Tundra to Tropics............................................   417
Endangered Species...............................................   356
    Salmon Listing Under the Endangered Species Act..............   325
    Delhi Sands Flower-loving Fly................................   336
    Mexican Wolf.................................................   358
    Sea Otters...................................................   462
    Silvery Minnow...............................................   326
    Bull Trout...................................................   459
    Salmon Recovery Efforts......................................   323
    Distributions of Endangered Species Funding..................   373
    Endangered Species Litigation................................   332
    Endangered Species Workload..................................   332
    Possible Delisting and Reclassification Actions for Fiscal 
      years 1999-2000 (table)....................................   359
Endangered Species Act...........................................   317
    Candidate Conservation Agreements............................   317
    Cooperative Endangered Species Conservation Fund......321, 343, 441
    No Surprises Policy..........................................   331
    Safe Harbor Landowner Incentive Program....................370, 318
Extension of Duck Hunting Season in Mississippi..................   451
Environmental Contaminants.......................................   319
Fisheries......................................................409, 320
Fish Passage.....................................................   318
    Dams and Rivers Program......................................   460
Federal Energy Regulatory Commission.............................   378
Farmland Habitat.................................................   334
Five Year Plan...................................................   319
Great Lakes Research Laboratory..................................   346
General Administration/International Affairs...................433, 320
Habitat Conservation Plans...........................344, 457, 318, 339
    HCP Monitoring...............................................   330
    HCPs For Small Landowners....................................   337
    Demand for HCP Assistance....................................   339
    Headwaters.................................................360, 322
Invasive Species.................................................   416
    Brown Tree Snake.............................................   352
    Longhorn Beetle..............................................   352
Land Acquisitions.........................................320, 453, 460
    Land Acquisition Program.....................................   339
    Land Acquisitions in the Southwest...........................   327
    Landowner Incentive Grant Program............................   338
    Travis County Land Accession.................................   350
    Palmyra Atoll..............................................342, 414
Law Enforcement...........................................319, 463, 408
    Law Enforcement Questionnaire................................   327
    Law Enforcement Training.....................................   328
Maintenance Backlog............................................322, 375
Major Policy Objective...........................................   314
Migratory Bird Management......................................412, 319
National Conservation Training Center............................   434
National Fish and Wildlife Foundation..........................375, 460
National Marine Fisheries Service................................   326
National Wildlife Refuges........................................   319
    Bear River NWR, UT...........................................   438
    Midway Atoll Refuge..........................................   409
New Initiatives..................................................   415
North American Wetlands Conservation Fund........................   429
Other Accounts...................................................   321
Pandas for National Zoo..........................................   351
President's Land Legacy Initiative...............................   340
Questions Submitted for the Record..............................356-493
    Honorable Jack Kingston......................................   454
    Honorable Jim Moran..........................................   456
    Honorable George Nethercutt..................................   457
    Honorable Joe Skeens.........................................   463
    Honorable Zach Wamp..........................................   493
Recreational Fee Demonstration Project.........................343, 385
Refuge Operations................................................   389
Refuges Without Full-Time Staff..................................   342
Research.........................................................   407
Resource Management..............................................   317
Salmon Recovery Efforts..........................................   323
    Salmon Funding for Washington State in 1999..................   361
    Salmon Listing Under the Endangered Species Act..............   325
Snake River......................................................   462
    Salmon and the Dams in the Lower Snake River.................   389
Southwest Water Crisis.........................................327, 346
Staffing Increases...............................................   390
    Biologists...................................................   333
    Biology Specialists..........................................   342
Storm and Flood Damage...........................................   445
Support for Other Departmental Offices...........................   452
Uncontrollable Costs.............................................   322
Witness List.....................................................   313
Working Capital Fund.............................................   433

                         National Park Service

Apostle Islands National Seashore................................   727
Army Corps of Engineers and Department of the Interior projects..   725
Backlog management:
    Definition and list..........................................   567
    Expenditure rate sufficiency.................................   673
    Maintenance backlog....................564, 566, 603, 606, 652, 658
Biographies:
    Masica, Sue E., Associate Director, Administration...........   561
    Stanton, Robert G., Director.................................   560
Biological Resources Division (of USGS) services to NPS..........   598
Blue Ridge Parkway...............................................   739
Brown v. Board of Education National Historic Site...............   669
Budget of the National Park Service..............................   549
Budget priorities.........................................563, 599, 605
Business plan initiative.........................................   675
California Desert restoration....................................   613
Carlsbad Caverns National Park...................................   729
Cave Institute near Carlsbad Caverns National Park...............   600
Closing remarks..................................................   601
Concession contracts.............................................   602
Concessions regulations and legislation..........................   694
Construction and Major Maintenance:
    ``Choosing by Advantage'' program..........................656, 663
    Five-Year Maintenance and Capital Improvement Plan...........   658
    New facilities...............................................   566
    Priorities and prioritization..............................592, 603
    Program reform and Denver Service Center...................551, 647
Continuity of park operations in emergencies.....................   612
Cooperative Ecosystem Study Units................................   615
    Coral reef monitoring and initiatives......................610, 618
Cultural resources...............................................   619
Cumberland Island National Seashore..............................   595
Everglades National Park--See South Florida
Fire Island National Seashore project............................   725
Franklin Delano Roosevelt Memorial...............................   666
General Accounting Office (GAO) testimony on employee housing 
  program........................................................   497
George Washington Memorial parkway...............................   723
Gettysburg National Military Park................................   695
Gila Cliff Dwellings National Monument operations................   731
Glen Echo Park...................................................   670
Grand Canyon Restoration Research Project........................   699
Great Smoky Mountains National Park..............................   739
Heritage areas...................................................   629
Historic black churches..........................................   595
Historic Preservation Fund budget..............................646, 719
Historic preservation services to Native Americans and African 
  Americans......................................................   719
Historically Black Colleges and Universities.....................   594
Housing for employees.................497, 523, 594, 604, 654, 708, 714
    Alternatives to in-park housing..............................   708
    Construction reforms.........................................   654
    Departmental oversight.......................................   712
    Future initiatives and fund requests.........................   712
    General Accounting Office (GAO) testimony on housing program.   497
        Alternative approaches...................................   521
        Assessment of housing needs, differences in..............   540
        Assessment of housing policy.............................   516
        Construction budget versus operating budget..............   519
        Introductions............................................   497
        Multi-family housing.....................................   517
        Opening remarks by Barry T. Hill, Associate Director for 
          GAO....................................................   497
        Park-by-park analysis, need for..........................   519
        Public-private partnership...............................   518
        Volunteer housing......................................520, 540
        Written testimony: GAO Report ``National Park Service--
          Concerns About the Implementation of Its Employee 
          Housing Policy''.......................................   501
Inventory reduction, subcommittee directive to plan for..........   710
National Park Service and Departmental testimony on housing 
  program........................................................   523
    Accomplishments..............................................   533
    Analysis process.............................................   537
    Aeras of agreement with GAO..................................   533
    Areas of disagreement with GAO...............................   535
    Closing remarks..............................................   548
    Construction and construction improvements............534, 539, 544
    Crime, housing to deter......................................   536
    Fund source effect on housing decision.......................   541
    Historic structures for housing..............................   547
    Locating housing in or outside of park.....................545, 548
    Opening remarks by:
        Barry, Donald J., Deputy Assistant Secretary.............   535
        Stanton, Robert G., Director.............................   523
    Policy, housing............................................542, 544
    Private sector involvement...................................   536
    Problems, housing............................................   542
    Reductions in housing inventory..............................   533
    Volunteer housing..........................................539, 546
    Written testimony: NPS letter responding to GAO Report.......   523
    Yellowstone National Park....................................   535
Needs assessment and policy......................................   704
Hydropower licensing process relating to recreation opportunities   628
Independence National Historic Park..............................   671
Land acquisition.................................................   674
Lands Legacy program initiative...........................549, 605, 719
Man and the Biosphere, U.S. National Committee for the...........   597
Marina improvements............................................602, 724
Mississippi National River and Recreation Area...................   611
Mount Rushmore National Memorial.................................   733
National Park Foundation.........................................   692
National Recreation and Preservation.............................   627
Natural gas pipelines, approval of...............................   728
New Mexico:
    Fees for national park units in..............................   731
    Inholdings in................................................   731
Opening remarks:
    Hill, Barry T., Associate Diector, for the General Accounting 
      Office (GAO)...............................................   497
    Barry, Donald J., Deputy Assistant Secretary:
        Budget of the National Park Service......................   562
        Housing for employees, responding to GAO Report on 
          program for............................................   535
    Stanton, Robert G., Director:
        Budget of the National Park Service......................   549
        Housing for employees, responding to GAO Report on 
          program for............................................   523
Opening statement of Director Robert G. Stanton, for the record, 
  on the budget..................................................   553
Park operations funds and increases............................607, 617
    Special needs parks increases................................   608
    Partnership arrangements.....................................   715
Questions submitted for the record:
    Additional Committee questions...............................   605
    From Congressman Hinchey.....................................   714
    From Congressman Kingston....................................   719
    From Congressman Moran.......................................   721
    From Congressman Obey........................................   727
    From Congressman Regula......................................   728
    From Congressman Skeen.......................................   729
    From Congressman Taylor......................................   735
Recreational Fee Demonstration Program....................616, 676, 718
Resource protection..............................................   613
Salmon, listings in the Pacific Northwest on.....................   592
Science in the parks.............................................   612
Snowmobiling and other new or controversial recreational 
  activities.....................................................   700
South Florida ecosystem restoration projects...................609, 725
Training initiative: Cooperative program for training Park 
  Rangers........................................................   627
Transportation system at Yosemite National Park..................   674
Tribal ownership of lands in national parks....................599, 696
U.S. Park Police...............................................721, 735
    Needs assessment.............................................   617
Vanishing Treasures program....................................600, 621
Virgin Islands National Park.....................................   618
Volunteers-in-Parks program......................................   708
Washington Monument restoration..................................   693
White House comprehensive design plan............................   690
White Sands National Monument interpretive exhibit...............   733
Witnesses list...................................................   497
Working capital fund.............................................   625
World Heritage site designation..................................   596
Yellowstone National Park:
    Bear management..............................................   690
    Housing for employees........................................   535
    Wastewater treatment and water and sewer problems.....602, 603, 659
Yosemite National Park:
    Bear management..............................................   690
    Flood repairs................................................   674
    Transportation system........................................   674
Youth programs...................................................   687

</pre></body></html>
